App. 1
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

-----------------------------------------------------------------------

Argued May 2, 2018

Decided July 10, 2018
No. 17-7064

ALAN PHILIPP, ET AL.,
APPELLEES
v.
FEDERAL REPUBLIC OF GERMANY AND STIFTUNG
PREUSSISCHER KULTURBESITZ,
APPELLANTS
-----------------------------------------------------------------------

Consolidated with 17-7117
-----------------------------------------------------------------------

Appeals from the United States District Court
for the District of Columbia
(No. 1:15-cv-00266)
-----------------------------------------------------------------------

Jonathan M. Freiman argued the cause for appellants. With him on the briefs were Benjamin M. Daniels, David R. Roth, and David L. Hall.
Nicholas M. O’Donnell argued the cause and filed
the brief for appellees.
Gary A. Orseck, Ariel N. Lavinbuk, Daniel N. Lerman, and D. Hunter Smith were on the brief for amicus
curiae David Toren in support of appellees.

App. 2
Before:
Judges.

TATEL, GRIFFITH, and WILKINS, Circuit

Opinion for the Court filed by Circuit Judge TATEL.
TATEL, Circuit Judge: In this case, the heirs of several Jewish art dealers doing business in Frankfurt,
Germany in the 1930s seek to recover a valuable art
collection allegedly taken by the Nazis. Defendants,
the Federal Republic of Germany and the agency that
administers the museum where the art is now exhibited, moved to dismiss, claiming immunity from suit
under the Foreign Sovereign Immunities Act. They
also argued that the heirs failed to exhaust their remedies in German courts and that their state-law causes
of action are preempted by United States foreign policy. The district court rejected all three arguments and
denied the motion to dismiss. For the reasons set forth
below, we largely affirm.
I.
Because this appeal comes to us from the district
court’s ruling on a motion to dismiss, “we must accept
as true all material allegations of the complaint, drawing all reasonable inferences from those allegations
in plaintiffs’ favor.” de Csepel v. Republic of Hungary,
714 F.3d 591, 597 (D.C. Cir. 2013) (internal quotation
marks omitted). Viewed through that lens, the complaint relates the following events:
In 1929, three Frankfurt-based firms owned by
Jewish art dealers joined together into a “Consortium”

App. 3
and purchased “a unique collection of medieval relics
and devotional art” called the Welfenschatz. First
Amended Compl. (FAC) ¶ 1, Philipp v. Federal Republic of Germany, 248 F. Supp. 3d 59 (D.D.C. 2017) (No.
1:15-cv-00266); see id. ¶¶ 34–35. The treasure—or
“schatz”—acquired its name due to its association with
the House of Welf, an ancient European dynasty. See
id. ¶ 30. Dating primarily from the eleventh to fifteenth centuries, the several dozen pieces that make
up the Welfenschatz were housed for generations in
Germany’s Brunswick Cathedral. See id. After displaying the Welfenschatz throughout Europe and the
United States and selling a few dozen pieces, the Consortium placed the remainder of the collection, which
at that time retained about eighty percent of the full
collection’s value, into storage in Amsterdam. Id.
¶¶ 41, 78.
The heirs allege that “[a]fter the [1933] Nazi-takeover of power in Germany, . . . the members of the Consortium faced catastrophic economic hardship,” id.
¶ 10, and in 1935, following “two years of direct persecution” and “physical peril to themselves and their
family members,” id. ¶ 145, the Consortium sold the
Welfenschatz to the Nazi-controlled State of Prussia
for 4.25 million Reichsmarks (the German currency at
the time), id. ¶¶ 145-160, “barely 35% of its actual
value,” id. ¶ 12. “Standing behind all of this was [Hermann] Goering,” id. ¶ 73, “Prime Minister of Prussia at
that time,” id., a “notorious racist and anti-Semite,” id.
¶ 74, and “legendary” art plunderer, id. ¶ 75. Goering
“seldom if ever” seized outright the art he desired,

App. 4
preferring “the bizarre pretense of ‘negotiations’ with
and ‘purchase’ from counterparties with little or no
ability to push back without risking their property or
their lives.” Id. The Welfenschatz was then shipped
from Amsterdam to Berlin, see id. ¶ 157, where Goering presented it to Adolf Hitler as a “surprise gift,” id.
¶ 179 (quoting Hitler Will Receive $2,500,000 Treasure,
Balt. Sun, Oct. 31, 1935, at 2). All but one of the Consortium members then fled the country. See id. ¶¶ 163,
170–171. The remaining member died shortly after,
officially of “cardiac insufficiency,” id. ¶ 163, but “rumors” circulated that he was “dragged to his death
through the streets of Frankfurt by a Nazi mob,” id.
¶ 166.
“After the war, [the Welfenschatz] was seized by
U.S. troops,” id. ¶ 181, and eventually turned over to
appellant Stiftung Preussischer Kulturbesitz (SPK), a
German agency formed “for the purpose . . . of succeeding to all of Prussia’s rights in cultural property,” id.
¶ 184; see id. ¶¶ 181–84. The Welfenschatz is now exhibited in an SPK-administered museum in Berlin. Id.
¶ 26(iv).
In 2014, appellees, Alan Philipp, Gerald Stiebel,
and Jed Leiber, heirs of Consortium members, sought
to recover the Welfenschatz, and they and the SPK
agreed to submit the claim to a commission that had
been created pursuant to the Washington Conference
Principles on Nazi–Confiscated Art, id. ¶ 220, an international declaration that “encouraged” nations “to develop . . . alternative dispute resolution mechanisms”
for Nazi-era art claims, id. ¶ 197 (quoting U.S. Dep’t

App. 5
of State, Washington Conference Principles on NaziConfiscated Art ¶ 11 (1998) [hereinafter Washington
Principles]). Known as the German Advisory Commission for the Return of Cultural Property Seized as a
Result of Nazi Persecution, Especially Jewish Property, id. ¶ 205, the Advisory Commission concluded
“that the sale of the Welfenschatz was not a compulsory sale due to persecution” and it therefore could “not
recommend the return of the Welfenschatz to the
heirs,” Advisory Commission, Recommendation Concerning the Welfenschatz (Guelph Treasure) (Mar. 20,
2014), Appellants’ Supp. Sources 7; see also FAC ¶ 221.
Seeking no further relief in Germany, the heirs
filed suit in the United States District Court for the
District of Columbia against the Federal Republic of
Germany and the SPK (collectively, “Germany”), asserting several common-law causes of action, including
replevin, conversion, unjust enrichment, and bailment.
See FAC ¶¶ 250–304. They sought the return of the
Welfenschatz “and/or” 250 million dollars, id. Prayer
for Relief, a “conservative estimate[ ]” of its value, id.
¶ 33. Germany moved to dismiss, arguing that it enjoyed immunity from suit under the Foreign Sovereign
Immunities Act (FSIA), that international comity required the court to decline jurisdiction until the heirs
exhaust their remedies in German courts, and that
United States foreign policy preempted the heirs’
state-law causes of action. The district court rejected
all three arguments and, aside from a few uncontested
issues, denied the motion to dismiss. Philipp, 248
F. Supp. 3d at 87.

App. 6
Germany appealed the district court’s FSIA determination as of right. See Owens v. Republic of Sudan,
531 F.3d 884, 887 (D.C. Cir. 2008) (“[W]hen . . . a denial
[of a motion to dismiss] subjects a foreign sovereign to
jurisdiction, the order is ‘subject to interlocutory appeal.’ ” (quoting El-Hadad v. United Arab Emirates,
216 F.3d 29, 31 (D.C. Cir. 2000))). On Germany’s motion, the district court certified the other two issues for
interlocutory appeal, Philipp v. Federal Republic of
Germany, 253 F. Supp. 3d 84 (D.D.C. 2017), and this
court granted Germany’s petition to present them now,
Per Curiam Order, In re Federal Republic of Germany,
No. 17-8002 (D.C. Cir. Aug. 1, 2017). Reviewing de novo,
we address Germany’s immunity, comity, and preemption arguments in turn.
II.
Under the FSIA, foreign sovereigns and their
agencies enjoy immunity from suit in United States
courts unless an expressly specified exception applies. 28 U.S.C. § 1604. The heirs assert jurisdiction
under the statute’s “expropriation exception,” see id.
§ 1605(a)(3), which “has two requirements”: that
“ ‘rights in property taken in violation of international
law are in issue,’ ” and that “there is an adequate commercial nexus between the United States and the defendant[ ],” de Csepel v. Republic of Hungary, 859 F.3d
1094, 1101 (D.C. Cir. 2017) (quoting 28 U.S.C.
§ 1605(a)(3)). Germany “bears the burden of proving
that [the heirs’] allegations do not bring [the] case

App. 7
within” the exception. Phoenix Consulting Inc. v. Republic of Angola, 216 F.3d 36, 40 (D.C. Cir. 2000).
A.
As to the expropriation exception’s first requirement, we explained in Simon v. Republic of Hungary,
812 F.3d 127 (D.C. Cir. 2016), that although an “intrastate taking”—a foreign sovereign’s taking of its own
citizens’ property—does not violate the international
law of takings, id. at 144, an intrastate taking can
nonetheless subject a foreign sovereign and its instrumentalities to jurisdiction in the United States where
the taking “amounted to the commission of genocide,”
id. at 142. This, we explained, is because “[g]enocide
perpetrated by a state,” even “against its own nationals[,] . . . is a violation of international law.” Id. at 145.
In so holding, we adopted the definition of genocide
set forth in the Convention on the Prevention of the
Crime of Genocide. Id. at 143. “[A]dopted by the United
Nations in the immediate aftermath of World War II,”
id., the Convention defines genocide, in relevant part,
as “[d]eliberately inflicting” on “a national, ethnical, racial or religious group. . . . conditions of life calculated
to bring about its physical destruction in whole or in
part,” Convention on the Prevention and Punishment
of the Crime of Genocide (Genocide Convention), art. 2,
Dec. 9, 1948, 78 U.N.T.S. 277.
In Simon, “survivors of the Hungarian Holocaust,”
812 F.3d at 134, alleged that in 1944–45 Hungary
“forced all Jews into ghettos, . . . confiscating Jewish

App. 8
property” in the process, id. at 133, and then
“transport[ed] Hungarian Jews to death camps, and, at
the point of embarkation, confiscate[d] [their remaining] property,” id. at 134. Assuming the truth of these
allegations—like here, the case came to us from a ruling on a motion to dismiss—we held that because the
allegations of “systematic, wholesale plunder of Jewish
property . . . aimed to deprive Hungarian Jews of the
resources needed to survive as a people . . . describe[d]
takings of property that are themselves genocide
within the legal definition of the term,” id. at 143–44
(internal quotation marks omitted), they “fit[ ]
squarely within the terms of the expropriation exception,” id. at 146.
A year later, in de Csepel v. Republic of Hungary,
859 F.3d 1094 (D.C. Cir. 2017), we considered claims by
the heirs of a Jewish collector whose art was seized by
the “Hungarian government and its Nazi collaborators,” id. at 1097. We held, among other things, that
plaintiffs could pursue their “bailment” claim for return of the art. Id. at 1103. The case, we explained, was
“just like Simon.” Id. at 1102. “Here, as there, Hungary
seized Jewish property during the Holocaust. Here, as
there, plaintiffs bring ‘garden-variety common-law’
claims to recover for that taking.” Id.
In today’s case, the heirs argue that, after Simon
and de Csepel, “[i]t is beyond serious debate that Nazi
Germany took property in violation of international
law by systematically targeting its Jewish citizens to
make their property vulnerable for seizure.” Appellees’
Br. 27. The district court agreed, concluding that, “like

App. 9
in Simon, the taking of the Welfenschatz as alleged in
the complaint bears a sufficient connection to genocide
such that the alleged coerced sale may amount to a
taking in violation of international law.” Philipp, 248
F. Supp. 3d at 71. Germany disagrees, insisting that
“[t]he allegations here have little in common with the
Simon allegations except that they happened under
Nazi rule.” Appellants’ Br. 35. According to Germany,
four differences between this case and Simon compel a
different result.
First, Germany argues that unlike in Simon,
where the Nazis confiscated “food, medicine, clothing,
[or] housing,” here they seized art. Id. at 40. Although
de Csepel also involved a seizure of art, we had no need
to decide then whether Simon applied because the
Hungarian government had conceded that the seizure
there was genocidal, see de Csepel v. Republic of Hungary, 169 F. Supp. 3d 143, 164 (D.D.C. 2016). Thus, we
are asked for the first time whether seizures of art may
constitute “takings of property that are themselves
genocide.” Simon, 812 F.3d at 144 (emphasis omitted).
The answer is yes.
Congress has twice made clear that it considers
Nazi art-looting part of the Holocaust. In enacting the
Holocaust Victims Redress Act, which encouraged nations to return Nazi-seized assets, Congress “f[ound]”
that “[t]he Nazis’ policy of looting art was a critical element and incentive in their campaign of genocide
against individuals of Jewish . . . heritage.” Holocaust
Victims Recovery Act, Pub. L. No. 105-158, § 201, 112
Stat. 15, 15 (1998). And in the Holocaust Expropriated

App. 10
Art Recovery Act (HEAR Act), which extended statutes
of limitation for Nazi art-looting claims, Congress
again “f[ound]” that “the Nazis confiscated or otherwise misappropriated hundreds of thousands of works
of art and other property throughout Europe as part of
their genocidal campaign against the Jewish people
and other persecuted groups.” Holocaust Expropriated
Art Recovery Act of 2016, Pub. L. No. 114-308, § 2, 130
Stat. 1524, 1524 (emphasis added).
In this case, moreover, the Welfenschatz was more
than just art. As Germany acknowledges, “the Consortium bought [the Welfenschatz] not for pleasure or display, but as business inventory, to re-sell for profit.”
Appellants’ Br. 12. By seizing businesses’ inventory—
like the other economic pressures alleged in the complaint, such as the “boycott of Jewish-owned businesses,” FAC ¶ 58, and “exclu[sion]” of Jews from
certain professions, id. ¶ 120—the Nazis “dr[ove] Jews
out of their ability to make a living,” id. ¶ 61, and
thereby, in the words of the Genocide Convention, “inflict[ed] . . . conditions of life calculated to bring about
[a group’s] physical destruction in whole or”—at the
very least—“in part,” Genocide Convention art. 2(c).
Second, Germany argues that whereas Simon involved a “forcible deprivation” of property, Appellants’
Br. 40, this case involves only a “forced sale . . . for
millions of Reichsmarks,” id. at 42. For purposes of
this appeal, however, Germany concedes that the
forced sale qualifies as a “tak[ing],” id. at 28 n.12,
and it offers no reason why a taking by forced sale cannot qualify as a genocidal taking. Indeed, the heirs’

App. 11
allegations—allegations that, we repeat, we must accept as true at this stage of the litigation—support just
that conclusion. According to the complaint, Goering
“routinely went through the bizarre pretense of ‘negotiations’ with and ‘purchase’ from” powerless counterparties. FAC ¶ 75. In addition, the heirs allege, the
Nazis made it impossible for Jewish dealers to sell
their art on the open market. Jewish art dealers’
“means of work” were “effectively end[ed],” and
“[m]ajor dealers’ collections were liquidated because
they could not legally be sold.” Id. ¶ 120. “Jewish art
dealers . . . lost” even “their Jewish customers,” because, as a result of the crippling economic policies,
“there was no money left to buy art.” Id. ¶ 124. “By
spring of 1935,” the heirs allege, “the exclusion of Jews
from . . . German life . . . had become nearly total. The
means by which German art could be sold by Jewish
dealers had effectively been eliminated.” Id. ¶ 138. It
was within that context, the heirs allege, that the Nazis pressured the Consortium to sell the Welfenschatz
for well below market value. Id. ¶ 139. “The Consortium had,” the heirs allege, “only one option.” Id. ¶ 145.
Fearful of losing the entire value of their property, or
worse, the Consortium acquiesced. Id. ¶ 139.
Third, Germany claims that “conditions for Hungarian Jews in 1944–45”—the period of time at issue
in both Simon and de Csepel—“were far different from
conditions for German Jews nearly a decade earlier,
in the summer of 1935.” Appellants’ Br. 40 n.23. The
sale of the Welfenschatz, Germany points out, predated “the Nuremberg Laws, . . . the Decree on the

App. 12
Elimination of the Jews from Economic Life . . . , and
. . . the mass murder of German Jews.” Id.
In Simon, however, we explained that the “Holocaust proceeded in a series of steps.” Simon, 812 F.3d
at 143. “ ‘The Nazis . . . achieved [the Final Solution] by
first isolating [the Jews], then expropriating the Jews’
property, then ghettoizing them, then deporting them
to the camps, and finally, murdering the Jews and in
many instances cremating their bodies.’ ” Id. at 144 (alterations in original) (quoting Complaint ¶ 91, Simon
v. Republic of Hungary, 37 F. Supp. 3d 381 (D.D.C.
2014) (No. 1:10-cv-1770)). Although the events at issue
in Simon occurred at the later steps of the Holocaust,
i.e., ghettoization and deportation, and the events at
issue here occurred at the earlier steps, i.e., isolation
and expropriation, both are “steps” of the Holocaust, id.
at 143. And, as the heirs allege, those earlier steps began as early as 1933, more than two years before the
Nazis seized the Welfenschatz. Specifically, the heirs
allege that the Nazis rose to power in the early 1930s
by “blam[ing] Jews for any and all economic setbacks,”
FAC ¶ 48, and once in power, “encourage[d]” the “boycotts of Jewish businesses [that] spread in March and
April 1933, just weeks after Hitler’s ascension,” id.
¶ 58. Moreover, the 1933 “found[ing] [of ] the Reich
Chamber of Culture,” which “assumed total control
over cultural trade” and excluded Jews, “effectively
end[ed] the means of work for any Jewish art dealer in
one stroke.” Id. ¶ 120. The heirs also allege that outright violence against German Jews began several
years before the seizure, including that “[b]y the spring

App. 13
1933, . . . the murder of Jews detained [in the Dachau
concentration camp] went unprosecuted.” Id. ¶ 59.
Moreover, in two statutes dealing with Nazi-era
art-looting claims, Congress has expressly found that
the Holocaust began in 1933. In the first statute—the
very section of the FSIA at issue here—Congress provided jurisdictional immunity for certain art exhibition activities, 28 U.S.C. § 1605(h), but created an
exception for art taken during the “Nazi[ ] era,” defined
as beginning in January 1933, id. § 1605(h)(2)(A). In
the second, the HEAR Act, Congress again defined January 1933 as the beginning of the Nazi era. HEAR Act
§ 4 (defining “covered period” as “beginning on January
1, 1933”).
The heirs’ position finds further support in a timeline on the website of the United States Holocaust
Memorial Museum, which Germany itself cites for its
observation that the taking of the Welfenschatz predated the Nuremburg Laws. See Appellants’ Br. 40 n.23.
That same timeline demonstrates that, by the time of
the taking in 1935, the Nazi government had already
opened the Dachau concentration camp, excluded Jews
from all civil-service positions, and organized a nationwide boycott of Jewish-owned businesses.
Fourth, emphasizing that the definition of genocide includes an “intent to destroy,” Genocide Convention art. 2(c) (emphasis added), Germany argues that
this case differs from Simon because unlike there,
where the plaintiffs alleged that the takings were
“aimed to deprive Hungarian Jews of the resources

App. 14
needed to survive as a people,” Simon, 812 F.3d at 143,
here the heirs allege that the Nazis wanted the
Welfenschatz because it was “historically, artistically
and national-politically valuable,” FAC ¶ 111. Elsewhere in the complaint, however, the heirs make clear
that “[the Nazis] took the collection from [the Consortium] in order to ‘Aryanize’ [it].” Id. ¶ 25(iv). More
specifically, the heirs allege that “the collection was
wrongfully appropriated not least because [the Consortium members] were regarded as state’s enemies for
holding the iconic Welfenschatz,” id. ¶ 25(ii), that “the
Gestapo[ ] opened files on the members of the Consortium because of their ownership of the Welfenschatz
and their prominence and success,” id. ¶ 67, and that
“Prussian interest in the Welfenschatz was . . . revived
. . . [once] the Consortium was . . . vulnerable,” id. ¶ 68.
In short, the heirs have sufficiently alleged that in seizing the Welfenschatz the Nazis were motivated, at
least in part, by a desire “to deprive [German] Jews of
the resources needed to survive as a people.” Simon,
812 F.3d at 143.
Finally, unable to demonstrate that this case falls
outside Simon’s reach, Germany warns that allowing
this suit to go forward will “dramatically enlarge U.S.
courts’ jurisdiction over foreign countries’ domestic affairs” by stripping sovereigns of their immunity for any
litigation involving a “transaction from 1933–45 between” a Nazi-allied government and “an individual
from a group that suffered Nazi persecution.” Appellants’ Br. 42–43. But as we have just explained, our
conclusion rests not on the simple proposition that this

App. 15
case involves a 1935 transaction between the German
government and Jewish art dealers, but instead on the
heirs’ specific—and unchallenged—allegations that
the Nazis took the art in this case from these Jewish
collectors as part of their effort to “drive[ ] [Jewish
people] out of their ability to make a living.” FAC ¶ 61.
Because Germany has failed to carry its burden of
demonstrating that these allegations do not bring the
case within the expropriation exception as defined and
applied in Simon, the district court properly denied
Germany’s motion to dismiss.
B.
In Simon we held that, with respect to foreign
states (but not their instrumentalities), the expropriation exception’s second requirement—“an adequate
commercial nexus between the United States and the
defendant[ ],” de Csepel, 859 F.3d at 1101—is satisfied
only when the property is present in the United States.
Simon, 812 F.3d at 146. Because the Simon plaintiffs
had offered but a “bare, conclusory assertion” to that
effect, we dismissed the Republic of Hungary from the
action. Id. at 148. We faced the same issue in de Csepel
because the art at issue there was not in the United
States. de Csepel, 859 F.3d at 1107. Bound by Simon,
we again dismissed the Republic of Hungary. Id.
Relying on Simon and de Csepel, Germany argues
that because the Welfenschatz is in Berlin, not the
United States, the Federal Republic of Germany must
be dismissed. Although the heirs initially urged us to

App. 16
“reverse course on th[is] question,” Appellees’ Br. 34, as
they acknowledged at oral argument, this panel is
bound by Simon and de Csepel, Oral Arg. 50:14–40. Accordingly, on remand, the district court must grant the
motion to dismiss with respect to the Federal Republic
of Germany—but not the SPK, an instrumentality for
which the commercial-nexus requirement can be satisfied without the presence of the Welfenschatz in the
United States. See de Csepel, 859 F.3d at 1007 (explaining that “an agency or instrumentality loses its immunity if ” the agency or instrumentality owns or
operates the property at issue and is engaged in commercial activity in the United States).
III.
In Simon, we left open the question whether a
court, despite having jurisdiction over an expropriation claim, “nonetheless should decline to exercise [it]
as a matter of international comity unless the plaintiffs first exhaust domestic remedies (or demonstrate
that they need not do so).” Simon, 812 F.3d at 149. In
arguing that the answer to that question is yes, Germany does not claim, as it did in the district court, that
we should defer to the Advisory Commission’s refusal
to recommend the return of the Welfenschatz, see
Philipp, 248 F. Supp. 3d at 81. Instead, Germany argues that the heirs must “exhaust [their] remedies
against [Germany] in [its] courts before pressing a
claim against it elsewhere.” Appellants’ Br. 65.
“ ‘[B]ypass[ing] [its] courts,’ ” Germany insists, would
“undermine [its] ‘dignity [as] a foreign state.’ ” Id. at 68

App. 17
(quoting Republic of Philippines v. Pimentel, 553 U.S.
851, 866 (2008)). The district court rejected this argument, as do we.
The key case is the Supreme Court’s decision in
Republic of Argentina v. NML Capital, Ltd., 134 S. Ct.
2250 (2014), where Argentina claimed immunity from
post-judgment discovery as a matter of international
comity. The Court rejected that claim because nothing
in the FSIA’s plain text provided for such immunity. Id.
at 2255. As the Court explained, although courts once
decided on a case-by-case basis whether to grant foreign states immunity as matter of international comity, “Congress abated the bedlam in 1976, replacing the
old executive-driven, factor-intensive, loosely commonlaw-based immunity regime with the [FSIA]’s ‘comprehensive set of legal standards governing claims of immunity in every civil action against a foreign state.’ ”
Id. (quoting Verlinden B.V. v. Central Bank of Nigeria,
461 U.S. 480, 488 (1983)). “[A]fter the enactment of
the FSIA,” the Court continued, “the Act—and not the
pre-existing common law—indisputably governs the
determination of whether a foreign state is entitled to
sovereign immunity.” Id. at 2256 (quoting Samantar v.
Yousuf, 560 U.S. 305, 313 (2010)). Going forward, “any
sort of immunity defense made by a foreign sovereign
in an American court must stand on the Act’s text. Or
it must fall.” Id.
Acknowledging that nothing in the text of the
FSIA’s expropriation exception requires exhaustion,
Germany argues that applying NML Capital here “confuses immunity from jurisdiction with non-immunity

App. 18
common-law doctrines.” Appellants’ Reply Br. 38. The
FSIA, Germany points out, operates as a pass-through,
“granting jurisdiction yet leaving the underlying substantive law unchanged.” Id. at 39 (quoting Owens v.
Republic of Sudan, 864 F.3d 751, 763 (D.C. Cir. 2017)).
As Germany emphasizes, FSIA section 1606 provides
that foreign states not entitled to immunity, “shall be
liable in the same manner and to the same extent as a
private individual under like circumstances.” Id. at 38
(quoting 28 U.S.C. § 1606). According to Germany, “exhaustion is a non jurisdictional common-law doctrine,”
that, like forum non conveniens, “ ‘remains fully applicable in FSIA cases.’ ” Id. at 39 (quoting Price v. Socialist People’s Libyan Arab Jamahiriya, 294 F.3d 82, 100
(D.C. Cir. 2002)).
Germany’s effort to circumvent NML Capital fails
for several reasons. To begin with, although a different
provision of the FSIA, its terrorism exception, conditions jurisdiction on the claimant “afford[ing] the foreign state a reasonable opportunity to arbitrate the
claim,” 28 U.S.C. § 1605A(a)(2)(A)(iii), no such requirement appears in the expropriation exception, and we
have long recognized “the standard notion that Congress’s inclusion of a provision in one section strengthens the inference that its omission from a closely
related section must have been intentional,” Agudas
Chasidei Chabad of U.S. v. Russian Federation, 528
F.3d 934, 948 (D.C. Cir. 2008). Moreover, far from
demonstrating that the FSIA leaves room for an exhaustion requirement, the very FSIA provision that
Germany relies on, section 1606, forecloses that

App. 19
possibility. By its terms, that provision permits only
defenses, such as forum non conveniens, that are
equally available to “private individual[s],” 28 U.S.C.
§ 1606. Obviously a “private individual” cannot invoke
a “sovereign’s right to resolve disputes against it.” Appellants’ Br. 68 (emphasis added).
To be sure, the Seventh Circuit, in a case similar
to Simon, required the plaintiffs—survivors of the
Hungarian Holocaust and the heirs of other victims—
to “exhaust any available Hungarian remedies or
[show] a legally compelling reason for their failure to
do so,” Fischer v. Magyar Allamvasutak Zrt., 777 F.3d
847, 852 (7th Cir. 2015). In doing so, the court distinguished NML Capital, holding that “defendants need
not rely on . . . the FSIA,” but may “invoke the wellestablished rule that exhaustion of domestic remedies
is preferred in international law as a matter of comity.”
Id. at 859. The Seventh Circuit drew that “well-established rule” from a provision of the Third Restatement
of Foreign Relations Law of the United States, but as
this court has explained, that “provision addresses
claims of one state against another,” Agudas Chasidei
Chabad of U.S. v. Russian Federation, 528 F.3d 934,
949 (D.C. Cir. 2008). Confirming that interpretation,
the tentative draft of the Fourth Restatement explains
that “the rule cited by the [Seventh Circuit] applies
by its terms to ‘international . . . proceedings,’ ” Restatement (Fourth) of Foreign Relations Law of the
United States § 455 Reporters’ Note 9 (Am. Law Inst.,
Tentative Draft No. 2, 2016)—i.e., “nation vs. nation litigation,” Chabad, 528 F.3d at 949; see also Agudas

App. 20
Chasidei Chabad of U.S. v. Russian Federation, 466
F. Supp. 2d 6, 21 (D.D.C. 2006) (“[T]his court is not
willing to make new law by relying on a misapplied,
non-binding international legal concept.”). And as we
explained above, the FSIA, Congress’s “comprehensive” statement of foreign sovereign immunity, which
“is, and always has been, a ‘matter of grace and comity,’ ” NML Capital, 134 S.Ct. at 2255 (quoting Verlinden, 461 U.S. at 486), leaves no room for a common-law
exhaustion doctrine based on the very same considerations of comity.
In so concluding, we have considered the contrary
position advanced by the United States in an amicus
brief recently filed before a different panel of this court,
where it argued that “[t]he fact [that] the FSIA itself
does not impose any exhaustion requirement for expropriation claims . . . does not foreclose dismissal on international comity grounds.” Brief of United States as
Amicus Curiae at 14–15, Simon v. Republic of Hungary, No. 17-7146 (D.C. Cir. June 1, 2017). This position, of course, is flatly inconsistent with NML Capital,
a case the government fails to cite, relying instead on
non-FSIA cases, see id. at 15. Accordingly, nothing in
the government’s brief alters our conclusion that the
heirs have no obligation to exhaust their remedies in
Germany.
Germany protests that, as a “staunch U.S. ally,” it
“deserves the chance to address [the heirs’] attacks” in
its own courts. Appellants’ Br. 77. As the Court made
clear in NML Capital, however, such “apprehensions
are better directed to that branch of government with

App. 21
authority to amend the [FSIA].” NML Capital, 134
S. Ct. at 2258.
IV.
This brings us, finally, to Germany’s argument
that the heirs’ state-law causes of action—replevin,
conversion, unjust enrichment, and bailment—conflict
with, and thus are preempted by, United States foreign
policy. In support, Germany cites the Washington Principles, which “encouraged” nations “to develop . . . alternative dispute-resolution mechanisms for resolving
ownership issues,” Washington Principles ¶ 11, as well
the Terezin Declaration, a follow-up agreement also
urging alternative dispute resolution. According to
Germany, “letting [the heirs] press [the] same claims”
they already presented to the Advisory Commission
“again in a U.S. court” may cause signatories to the
Washington Principles to “question whether [they]
should follow the [ ] Principles,” thereby “undermin[ing] the considerable diplomatic effort that the
U.S. devoted to them.” Appellants’ Br. 56–57.
Germany relies principally on two cases, American
Insurance Association v. Garamendi, 539 U.S. 396
(2003), and Crosby v. National Foreign Trade Council,
530 U.S. 363 (2000). In Garamendi, the Supreme Court
began by reiterating the basic rule that “at some point
an exercise of state power that touches on foreign relations must yield to the National Government’s policy,
given the ‘concern for uniformity in this country’s
dealings with foreign nations’ that animated the

App. 22
Constitution’s allocation of the foreign relations power
to the National Government in the first place.” Garamendi, 539 U.S. at 413 (quoting Banco Nacional de
Cuba v. Sabbatino, 376 U.S. 398, 427 n.25 (1964)). Applying that rule to the facts of the case before it, the
Court found California’s attempt to regulate Holocaustera insurance claims preempted by “the foreign
policy of the Executive Branch, as expressed principally in . . . executive agreements with Germany, Austria, and France.” Id. In those executive agreements,
the United States had “promised to use its ‘best efforts,
in a manner it considers appropriate,’ to get state and
local governments to respect [an internal dispute resolution process] as the exclusive mechanism.’ ” Id. at
406 (quoting Agreement Concerning the Foundation
“Remembrance, Responsibility and the Future,” Ger.U.S., July 17, 2000, 39 I.L.M. 1298, 1300). In particular,
the United States agreed that in any case involving
Holocaust-era insurance claims, it would submit a
statement “ ‘that U.S. policy interests favor dismissal
on any valid legal ground.’ ” Id. (quoting Agreement
Concerning the Foundation “Remembrance, Responsibility and the Future,” 39 I.L.M. at 1304). Acknowledging that the executive agreements contained no
preemption clause, the Court nonetheless concluded
that the “express federal policy and the clear conflict
raised by the [California] statute . . . require[d] state
law to yield.” Id. at 425.
Similarly, in Crosby, the Court found Massachusetts’s regulation of commerce with Burma to be “an
obstacle to the accomplishment of Congress’s full

App. 23
objectives under [a] federal Act” that imposed some
economic sanctions on Burma and gave the President
discretion to impose more. 530 U.S. at 373. The Massachusetts law, the Court explained, by “imposing a different, state system of economic pressure against the
Burmese political regime,” could “blunt the consequences of discretionary Presidential action,” id. at
376.
This case is very different. Although the Washington Principles and Terezin Declaration both “encourage[ ]” nations “to develop . . . alternative dispute
resolution mechanisms for resolving ownership issues,” Washington Principles ¶ 11, neither requires
that the alternative mechanisms be exclusive or otherwise “takes an explicit position in favor of or against
the litigation of claims to Nazi-confiscated art.” Brief of
United States as Amicus Curiae at 18, Saher v. Norton
Simon Museum of Art at Pasadena, 131 S. Ct. 3055
(2011) (No. 09-1254), 2011 WL 2134984, at *18. Unlike
in Garamendi, where the President promised to seek
“dismissal on any valid legal ground,” 539 U.S. at 406
(internal quotation marks omitted), or in Crosby,
where the state law at issue “blunt[ed]” the force of
discretion Congress had explicitly granted the President, 530 U.S. at 376, here, as the district court explained, there is no “direct conflict between the
property-based common law claims raised by Plaintiffs
and [United States] foreign policy,” Philipp, 248
F. Supp. 3d at 78.
Indeed, far from adopting, as in Garamendi, an
“express federal policy,” 539 U.S. at 425, of disfavoring

App. 24
domestic litigation of Nazi-era art-looting claims, the
United States has repeatedly made clear that it favors
such litigation. Congress, as explained above, see supra
at 8, recently extended statutes of limitation for Naziera art-looting claims, see HEAR Act § 4, and the FSIA
exempts them from the jurisdictional immunity otherwise afforded certain art collections temporarily exhibited in the United States, see 28 U.S.C. § 1605(h)(1)–
(3).
V.
For the foregoing reasons, we affirm the district
court’s denial of the motion to dismiss, except that on
remand, the district court must, as required by Simon
and de Csepel, grant the motion to dismiss with respect
to the Federal Republic of Germany.
So ordered.

App. 25
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

-----------------------------------------------------------------------

No. 17-7064

September Term, 2017
FILED ON: JULY 10, 2018

ALAN PHILIPP, ET AL.,
APPELLEES
v.
FEDERAL REPUBLIC OF GERMANY,
A FOREIGN STATE AND STIFTUNG
PREUSSISCHER KULTURBESITZ,
APPELLANTS
Consolidated with 17-7117
-----------------------------------------------------------------------

Appeals from the United States District Court
for the District of Columbia
(No. 1:15-cv-00266)
-----------------------------------------------------------------------

Before: TATEL, GRIFFITH, and WILKINS, Circuit Judges
JUDGMENT
These causes came on to be heard on the record on
appeal from the United States District Court for the
District of Columbia and were argued by counsel. On
consideration thereof, it is
ORDERED and ADJUDGED that the judgment
of the District Court appealed from in these causes be

App. 26
affirmed as to the denial of the motion to dismiss, except that on remand, the district court must grant the
motion to dismiss with respect to the Federal Republic
of Germany, in accordance with the opinion of the court
filed herein this date.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Ken Meadows
Deputy Clerk
Date: July 10, 2018
Opinion for the court filed by Circuit Judge Tatel.

App. 27
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
ALAN PHILLIP, et al.,
Plaintiffs,
v.
FEDERAL REPUBLIC
OF GERMANY, et al..,

Civil Action No.
15-266 (CKK)

Defendants.
MEMORANDUM OPINION
(May 18, 2017)
Plaintiffs, who are the legal successors of the estates of three art dealer firms in Frankfurt, Germany,
filed suit against Defendants the Federal Republic of
Germany (“Germany”) and Stiftung Preussischer Kulturbesitz (“SPK”), an instrumentality of Germany, alleging that the SPK is in wrongful possession of a
collection of medieval relics, known as the “Welfenschatz,” because the 1935 sale of same was coerced
as part of the Nazi persecution of the Jewish sellers.1
Defendants moved to dismiss each of Plaintiffs’ ten
claims.

1

The Court reviewed the background of this case more extensively in its Memorandum Opinion regarding the resolution of
Defendants’ motion to dismiss. Philipp v. Fed. Republic of Germany, No. CV 15-266 (CKK), 2017 WL 1207408, at *2-*3 (D.D.C.
Mar. 31, 2017).

App. 28
On March 31, 2017, the Court entered an [25] Order granting in part and denying in part Defendants’
Motion to Dismiss the First Amended Complaint. Specifically, the Court dismissed five of Plaintiffs’ ten
claims, but denied Defendants’ request to dismiss the
following five claims: declaratory relief (Count I); replevin (Count II); conversion (Count III); unjust enrichment (Count IV); and bailment (Count IX). In reaching
this holding, the Court found that: (1) Plaintiffs sufficiently pled these five claims under the expropriation
exception to the Foreign Sovereign Immunities Act
(“FSIA”), codified at 28 U.S.C. § 1605(a)(3) (“FSIA
claims”); (2) Plaintiffs’ claims are not preempted or
non-justiciable, nor should they be dismissed under
the doctrine of forum non conveniens (“non-FSIA
claims”). Defendants filed an interlocutory appeal as of
right before the United States Court of Appeals for the
District of Columbia Circuit (“D.C. Circuit”) with respect to the FSIA issue. See, e.g., Kilburn v. Socialist
People’s Libyan Arab Jamahiriya, 376 F.3d 1123, 1126
(D.C. Cir. 2004) (“The denial of a motion to dismiss on
the ground of sovereign immunity . . . is . . . subject to
interlocutory review.”).
Presently before the Court are Defendants’ [28]
Motion for Certification of the Court’s March 31, 2017
Opinion, and Defendants’ [29] Motion to Stay Further
Proceedings. Defendants request that the Court certify
the Order in its entirety, which includes the remaining
non-FSIA issues, for interlocutory appeal and stay the
case while the interlocutory appeal is pending before
the D.C. Circuit. Plaintiffs oppose both requests. Upon

App. 29
consideration of the pleadings,2 the relevant legal authorities, and the record as a whole, the Court
GRANTS Defendants’ [28] Motion for Certification of
the Court’s March 31, 2017 Opinion, and GRANTS Defendants’ [29] Motion to Stay Further Proceedings.
A. Interlocutory Appeal of Court’s Order of
March 31, 2017
As previously mentioned, Defendants is proceeding with an interlocutory appeal of the Court’s determination that Plaintiffs’ claims fall within the
expropriation exception to the FSIA. As such, Defendants now request that the Court certify the Order
granting in part and denying in part its motion to dismiss so that the three remaining non-FSIA issues are
considered as part of the already pending interlocutory
appeal. These issues are: (1) whether Plaintiffs’ claims
are preempted under U.S. foreign policy; (2) whether
Plaintiffs’ claims are non-justiciable due to international comity; and (3) whether Plaintiffs’ claim should
be dismissed under the doctrine of forum non conveniens.
A district judge may certify a non-final order for
appeal if it “involves a controlling question of law as to
2

While the Court bases its decision on the record as a whole,
its consideration has focused on the following documents: Defs.’
Mot. for Cert. of Ct.’s Mar. 31, 2017 Opinion (“Defs.’ Mot. for
Cert.”), ECF No. [28]; Defs.’ Mot. to Stay Further Proceedings
(“Defs.’ Mot. to Stay”), ECF No. [29]; Pls.’ Opp’n to Defs.’ Mots.
(“Pls.’ Opp’n”), ECF No. [31]; Defs.’ Reply in Supp. of Their Mots.
(“Defs.’ Reply”), ECF No. [32].

App. 30
which there is substantial ground for difference of
opinion and that an immediate appeal from the order
may materially advance the ultimate termination of
the litigation.” 28 U.S.C. § 1292(b); see also Z St. v.
Koskinen, 791 F.3d 24, 28 (D.C. Cir. 2015). The decision
whether to certify a case for interlocutory appeal is
within the discretion of the district court. In re Kellogg
Brown & Root, Inc., 756 F.3d 754, 761 (D.C. Cir. 2014)
cert. denied sub nom. U.S. ex rel. Barko v. Kellogg
Brown & Root, Inc., 135 S. Ct. 1163 (2015). “Because
certification runs counter to the general policy against
piecemeal appeals, this process is to be used sparingly.”
Sai v. Dep’t of Homeland Sec., 99 F.Supp.3d 50, 59
(D.D.C. 2015).3
The Court must first determine whether the issues raise a controlling question of law. “Under
§ 1292(b), a ‘controlling question of law is one that
would require reversal if decided incorrectly or that
could materially affect the course of litigation with
3

Plaintiffs also urge the Court to consider factors relevant to
the collateral order doctrine in reaching its decision. Indeed, as
Plaintiffs note, some courts have relied on these factors in determining whether it is appropriate to grant certification of a nonfinal order. See, e.g., United States v. Rostenkowski, 59 F.3d 1291,
1296 (D.C. Cir. 1995) (considering whether the decision: “(1) conclusively determine[s] the disputed question; (2) resolve[s] an important issue completely separate from the merits of the action;
and (3) would be effectively unreviewable on appeal from a final
judgment.” (internal quotations omitted)). However, Plaintiffs do
not discuss the import of these factors to the instant action. As
such, the Court shall treat this argument as abandoned. However, the Court notes that it would reach the same conclusion
even in light of these factors.

App. 31
resulting savings of the court’s or the parties’ resources.’ ” APCC Servs. v. Sprint Communs. Co., 297
F. Supp. 2d 90, 95-96 (D.D.C. 2003) (quoting Judicial
Watch, Inc. v. Nat’l Energy Policy Dev. Group, 233
F. Supp. 2d 16, 19 (D.D.C. 2002)). “Controlling questions of law include issues that would terminate an action if the district court’s order were reversed.” Id.
Here, Defendants seek appellate review of three issues,
each of which would result in dismissal of the complaint and termination of the action if the order from
this Court is reversed. As such, the issues raised by Defendants involve controlling issues of law.
The Court must next determine whether there are
substantial grounds for difference of opinion with respect to these issues. “A substantial ground for difference of opinion is often established by a dearth of
precedent within the controlling jurisdiction and conflicting decisions in other circuits.” Id. at 97. In some
instances, this may be satisfied if a court’s decision conflicts with the decisions of several other courts. Id. at
97-98. The Court need not to rehash its earlier ruling
on each of these three claims, but simply notes, as
demonstrated in the Memorandum Opinion, that it appears this requirement is satisfied with respect to each
of the three issues. See Mem. Op. (Mar. 31, 2017), at 2041, ECF No. [26].
Finally, the Court must determine whether certifying these issues for an interlocutory appeal would
materially advance the litigation. Other courts recognized that this factor encompasses the “salutary objective of ‘avoid[ing] piecemeal review’ on appeal. Vila v.

App. 32
Inter-American Inv., Corp., 596 F. Supp. 2d 28, 30
(D.D.C. 2009) (quoting Judicial Watch, Inc., 233
F. Supp. 2d at 20); see Howard v. Office of Chief Admin.
Officer of U.S. House of Representatives, 840 F. Supp. 2d
52, 55 (D.D.C. 2012) (quoting Tolson v. United States,
732 F.2d 998 at 1002 (D.C. Cir. 1984)) (“It ‘is meant to
be applied in relatively few situations and should not
be read as a significant incursion on the traditional
federal policy against piecemeal appeals.’ ”). Here, Defendants have appealed the Court’s decision that they
are not entitled to sovereign immunity pursuant to the
FSIA’s expropriation exception. As such, certifying the
remaining issues raised by Defendants in their motion
to dismiss will avoid the piecemeal review of Defendants’ claims that this Court lacks jurisdiction over
Plaintiffs’ claims, that Plaintiffs’ claims already have
been adjudicated, and/or that this Court is not the appropriate forum to hear their claims.
The Court has considered Plaintiffs’ arguments
with respect to each of the factors considered in determining whether to grant the request for appellate review, and is not persuaded that such arguments
warrant denial of Defendants’ request in this particular situation. See Pls.’ Opp’n at 5-10. Instead, the Court
has determined that Defendants have demonstrated
that appellate review is appropriate. While it is the
Court’s view that its prior decision is correct, the Court
finds that all three requirements to certify a case for
interlocutory appeal are satisfied. As such, in an exercise of its discretion, the Court shall certify its Order
on the motion to dismiss, including the three non-FSIA

App. 33
issues, for interlocutory appeal in order to have the entirety of the issues raised in the motion addressed by
the D.C. Circuit.
B. Stay Pending Interlocutory Appeal
Defendants also request that the Court issue a formal stay of these proceedings while the interlocutory
appeal is pending before the D.C. Circuit. “ ‘[T]he
power to stay proceedings is incidental to the power
inherent in every court to control the disposition of the
causes on its docket with economy of time and effort
for itself, for counsel, and for litigants. How this can
best be done calls for the exercise of judgment, which
must weigh competing interests and maintain an even
balance.’ ” Air Line Pilots Ass’n v. Miller, 523 U.S. 866
n.6, 880 (1998) (quoting Landis v. North American Co.,
299 U.S. 248, 254-55 (1936)); see also Clinton v. Jones,
520 U.S. 681, 706 (1997). Moreover, a party requesting
a stay of proceedings “must make out a clear case of
hardship or inequity in being required to go forward, if
there is even a fair possibility that the stay for which
he prays will work damage to some one else.” Landis,
299 U.S. at 255.
Here, the parties dispute whether the Court is divested of jurisdiction over these proceedings regardless of its decision on the request to stay in light of
the pending interlocutory appeal related to the FSIA
issues filed by Defendants as a matter of right. The
Court finds that it need to not make a decision on
this issue because the Court concludes that it is

App. 34
appropriate to stay the proceedings while Defendants’
interlocutory appeal is pending. Indeed, as previously
mentioned, Defendants raised several dispositive issues, including arguing that this Court does not have
jurisdiction to hear Plaintiffs’ claims. As such, the
Court shall not require Defendants to respond to the
complaint and the parties to proceed with discovery at
this time. In an exercise of its discretion, the Court
shall stay the proceedings pending the resolution of
the interlocutory appeal by the D.C. Circuit.
For the foregoing reasons, the Court shall GRANT
Defendants’ [28] Motion for Certification of the Court’s
March 31, 2017 Opinion, and GRANT Defendants’ [29]
Motion to Stay Further Proceedings. The Court shall
certify its [25] Order for immediate appellate review
pursuant to 28 U.S.C. § 1292(b), and shall stay the case
pending the resolution of Defendants’ interlocutory appeal.
An appropriate Order accompanies this Memorandum Opinion.
/s/
COLLEEN KOLLAR-KOTELLY
United States District Judge

App. 35
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
ALAN PHILLIP, et al.,
Plaintiffs,
v.
FEDERAL REPUBLIC
OF GERMANY, et al..,

Civil Action No.
15-266 (CKK)

Defendants.
ORDER
(May 18, 2017)
For the reasons stated in the accompanying Memorandum Opinion, it is, this 18th day of May, 2017,
hereby
ORDERED that Defendants’ [28] Motion for Certification of the Court’s March 31, 2017 Opinion is
GRANTED; and it is further
ORDERED that Defendants’ [29] Motion to Stay
Further Proceedings is GRANTED; and it is further
ORDERED that all proceedings in this matter
shall be STAYED until the D.C. Circuit issues its mandate in Defendants’ interlocutory appeal in Philipp, et
al. v. Fed. Republic of Germany, et al., Case No. 17-7064
(D.C. Cir.); and it is further
ORDERED that this Court’s [25] Order of March
31, 2017, is AMENDED to add the following statement:

App. 36
It is further ORDERED that this [25] Order is certified for immediate appellate review because it involves “a controlling question of law as to which
there is substantial ground for difference of opinion” and because “an immediate appeal from the
order may materially advance the ultimate termination of the litigation.” 28 U.S.C. § 1292(b).
IT IS SO ORDERED.
/s/
COLLEEN KOLLAR-KOTELLY
United States District Judge

App. 37
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
ALAN PHILIPP, et al.,
Plaintiffs,
v.
FEDERAL REPUBLIC
OF GERMANY, et al..,

Civil Action No.
15-266 (CKK)

Defendants.
MEMORANDUM OPINION
(March 31, 2017)
This case centers around the June 14, 1935,
sale of a collection of medieval relics known as the
“Welfenschatz” by a consortium of three art dealer
firms in Frankfurt (“Consortium”) to the State of Prussia through the Dresdner Bank. Plaintiffs Alan
Philipp, Gerald G. Stiebel, and Jed R. Leiber, legal successors of the estates of members of the Consortium,
filed suit against Defendants the Federal Republic of
Germany (“Germany”) and Stiftung Preussischer Kulturbesitz (“SPK”), an instrumentality of Germany, alleging that the SPK is in wrongful possession of the
Welfenschatz because the 1935 sale was coerced as
part of the Nazi persecution of the Jewish sellers. Presently before the Court is Defendants’ [18] Motion to
Dismiss the First Amended Complaint and Incorporated Memorandum of Law, requesting that the Court
dismiss all of Plaintiffs’ claims on the grounds that:

App. 38
(1) Defendants are entitled to sovereign immunity;
(2) the claims are preempted and non-justiciable because they conflict with U.S. foreign policy; and/or
(3) the doctrine of forum non conveniens favors dismissal.1
Upon consideration of the pleadings,2 the relevant
legal authorities, and the record as a whole, the Court
GRANTS IN PART and DENIES IN PART Defendants’ [18] Motion to Dismiss the First Amended Complaint for the reasons described herein. Specifically, the
Court GRANTS as conceded Defendants’ request that
1

Defendants also advanced an argument that Plaintiffs’
claims are barred by the statute of limitations in their motion.
However, Defendants formally withdrew their statute of limitations argument without prejudice with the possibility of it being
raised later in light of the enactment of the Holocaust Expropriated Art Recovery Act of 2016, H.R. 6130, Pub L. No. 114-308,
which was signed into law after briefing was complete on the
pending motion to dismiss. Defs.’ Notice at 3. As such, the Court
shall not consider this argument at this time. However, Defendants are not barred from raising this issue at a later time.
2
While the Court bases its decision on the record as a whole,
its consideration has focused on the following documents: 1st Am.
Compl. (“Compl.”), ECF No. [14]; Defs.’ Mot. to Dismiss 1st Am.
Compl. & Incorp. Mem. of Law (“Defs.’ Mot.”), ECF No. [18]; Pls.’
Opp’n to Defs.’ Mot. to Dismiss (“Pls.’ Opp’n”), ECF No. [19]; Defs.’
Reply in Further Supp. of Mot. to Dismiss 1st Am. Compl. (“Defs.’
Reply”), ECF No. [20]; Pls.’ Notice, ECF No. [21]; Defs.’ Notice,
ECF No. [22]; Pls.’ Stmt. on HEAR Act as it Relates to U.S. Policy
(“Pls.’ Stmt.”), ECF No. [23]; Jt. Status Report on Need for Further Briefing on Effect of HEAR Act (“Jt. Status Report”), ECF
No. [24]. These motions are fully briefed and ripe for adjudication.
In an exercise of its discretion, the Court finds that holding oral
argument would not be of assistance in rendering its decision. See
LCvR 7(f ).

App. 39
the Court dismiss the following five non-property based
claims because Defendants are entitled to sovereign
immunity on each claim: fraud in the inducement
(Count V); breach of fiduciary duty (Count VI); breach
of the covenant of good faith and fair dealing (Count
VII); civil conspiracy (Count VIII); and tortious interference (Count X). The Court DENIES Defendants’
request for dismissal on the remaining five claims: declaratory relief (Count I); replevin (Count II); conversion (Count III); unjust enrichment (Count IV); and
bailment (Count IX).
I.

BACKGROUND

In or around 1929, the Consortium was formed by
three art dealer firms owned by German Jews in
Frankfurt. The three firms, J. & S. Goldschmidt, I. Rosenbaum, and Z.M. Hackenbroch, were owned by Plaintiffs’ ancestors and/or predecessors-in-interest.3 Compl.
¶ 34. The Consortium acquired the Welfenschatz on
3

Specifically, Plaintiff Philipp, a citizen of the United Kingdom and a resident of London, is the grandson and sole legal successor to the estate of the late Zacharias Max Hackenbroch, the
sole owner of the former Hackenbroch art dealers. Compl. ¶ 17.
Plaintiff Stiebel, a U.S. citizen and a resident of Santa Fe, New
Mexico, is the great nephew and legal successor of the estate of
the late Isaak Rosenbaum, co-owner of I. Rosenbaum art dealers.
Id. ¶ 18. Plaintiff Leiber, a U.S. citizen and resident of West Hollywood, California, is the grandson and sole heir of Saemy Rosenberg, the other co-owner of Rosenbaum art dealers, and the great
nephew of Isaak Rosenbaum and partly a successor to his estate.
Id. ¶ 19. Plaintiffs are the assignees of the claims of Julius Falk
Goldschmidt by written instrument from the sole owners of the J.
& S. Goldschmidt firm. Id. ¶ 20.

App. 40
October 5, 1929, pursuant to a written agreement with
the Duke of Brunswick-Lüneberg. Id. ¶ 35. The Welfenschatz is comprised of 82 medieval reliquary and devotional objects, dating primarily from the 11th to 15th
century, that were originally housed in the Braunschweiger Dom (Brunswick Cathedral) in Germany. Id.
¶¶ 30, 41. The Consortium eventually brought the
Welfenschatz to the United States to offer it for sale to
museums and, by 1931, sold 40 of the 82 pieces to museums and individuals in Europe and the United
States, including the Cleveland Museum of Art. Id.
¶ 41. Plaintiffs’ claims center around the remaining 42
objects that were acquired by the State of Prussia pursuant to a contract with the Consortium on June 14,
1935, which was facilitated through the Dresdner
Bank.4 Id. ¶ 151. Defendant SPK, an instrumentality
of Germany, was created for the purpose of succeeding
all of Prussia’s rights in cultural property and currently is in possession of the Welfenschatz. Id. ¶ 184.
The Welfenschatz currently is located at the SPKadministered Museum of Decorative Arts (“Kunstgewerbemuseum”) in Berlin.5 Id. ¶ 26(iv).

4

For ease of reference, the Court shall refer to these 42 objects at issue as “the Welfenschatz,” even though Plaintiffs’ claims
do not involve the 40 of the 82 objects in the collection that were
sold in the United States and Europe prior to the 1935 transaction. See Compl. ¶ 31 (listing the objects at issue).
5
During World War II, the Welfenschatz was shipped out of
Berlin to be saved from destruction and robbery. It was seized by
U.S. troops and handed over in trust to the State of Hesse. Compl.
¶ 181.

App. 41
Plaintiffs’ position is that the 1935 sale between
the Consortium and the State of Prussia, a political
subdivision of the German Weimar Republic and later
the Third Reich, was coerced as part of the Nazi persecution of the Jewish sellers of the Welfenschatz and, as
such, the Court shall briefly summarize the allegations
in the complaint that Plaintiffs rely on in support of
this position. Id. ¶ 22. Specifically, Plaintiffs allege the
1935 transaction was spearheaded by Nazi-leaders
Hermann Goering and Adolf Hitler, who were involved
in explicit correspondence to “save the Welfenschatz”
for the German Reich. Id. ¶¶ 2, 9. Further, the 1935
sale resulted in a payment of 4.25 million RM, which
Plaintiffs assert demonstrates the lack of an arms’length transaction because it was barely 35% of the
market value of the Welfenschatz. Id. ¶¶ 4, 12. Further,
the money exchanged was never fully accessible to the
Consortium because it was split and partly paid into a
blocked account, and was subject to “flight taxes” that
Jews had to pay in order to escape. Id. ¶¶ 4, 12. Moreover, in November of 1935, Goering presented the
Welfenschatz as a personal “surprise gift” to Hitler
during a ceremony. Id. ¶¶ 13, 179.
Plaintiffs contend that during the time that the
Consortium possessed the Welfenschatz, there were
concerted efforts by Germany’s Reichsregierung (Reich
Government), the Prussian State Government and
several other entities and museum officials to regain
possession of the Welfenschatz starting in 1930. See
generally id. ¶¶ 37-40. After the Nazi rise to power in
Germany, see generally id. ¶¶ 44-65, Plaintiffs point to

App. 42
more statements regarding an interest in Germany regaining possession of the Welfenschatz. Specifically,
Plaintiffs point to a letter written by the new Mayor of
Frankfurt Friedrich Krebs to Hitler requesting that
Hitler “create the legal and financial preconditions
for the return of the [Welfenschatz].” Id. ¶ 69 (quoting
Compl., Ex. 2). Plaintiffs also reference a letter from
1933 written by a Frankfurt museum director to the
President of the German Association for the Preservation and Promotion of Research indicating that
one member of the Consortium indicated the owners
were “very willing . . . to enter into negotiations with
the Reich,” id. ¶ 77, and minutes from a 1934 meeting
among several museum directors and a board member of the Dresdner Bank when the purchase of the
Welfenschatz was again discussed, id. ¶ 79.
Dresdner Bank, which was majority-owned by
the German state at the time of the Nazi rise to
power, served as the intermediary facilitating the 1935
transaction between the Consortium and Prussia. Id.
¶¶ 88-89. Plaintiffs cite to an investigative report from
a German weekly news magazine noting that it “shows
the [Dresdner] bank took part early on in Third Reich’s
policy of confiscating Jewish property and wealth.” Id.
¶ 90; see also id. ¶ 132. Plaintiffs detail the history
of the discussions between the Dresdner Bank and
the Consortium regarding the sale price of the Welfenschatz, noting that in January 1934, the Consortium
was unwilling to sell the objects for below 6.5 million
RM or 6 million RM in “extreme circumstances,” id.
¶ 92, while the Dresdner Bank indicated the sale price

App. 43
could not exceed 3.5 million RM, id. ¶ 93. Plaintiffs
also point to a record from May 1934 indicating that
the Consortium advised the Dresdner Bank that it had
an offer of 7 million RM, probably from a Berlin private
banker. Id. ¶ 94. Further, Plaintiffs point to a draft letter written to Hitler by the Secretary of the Prussian
State Ministry and provided to the Deputy Minister of
the Ministry of Science in July 1934 regarding acquisition of the Welfenschatz through Prussian treasury
bonds in order to “bring the historically, artistically
and national-politically valuable [Welfenschatz] to
the Reich in addition to many other valuable cultural
treasures,” and specifically referencing the role of Prussian Prime Minister Goering. Id. ¶¶ 103, 111 (quoting
Compl., Ex. 3). In February 1935, the Dresdner Bank
Director noted that the Prussian Finance Minister
asked him to handle the Welfenschatz matter. Id. ¶ 133.
In April 1935, an owner of a Berlin art dealership
who served as the messenger between the Bank and
the Consortium, notified the Bank’s Director that he
had been “intensely preoccupied with the matter” for a
year and a half and reported that the problem with acquiring the Welfenschatz was that the members of the
Consortium were confident in the asking price. Id.
¶¶ 83, 137. Later that month, the Dresdner Bank Director authorized a bid of 3.7 million on behalf of its
client. Id. ¶ 140. At some point, the Consortium sent
word that it was willing to sell the Welfenschatz for 5
million RM. Id. ¶ 139. Plaintiffs also point to a new
museum that intended to acquire the Welfenschatz
and allege that “[t]he ‘authoritative entities’ were . . .

App. 44
invited to review the plans at [the prospective buyer
museum] to ensure that there was no ‘conflict,” which
resulted in the elimination of an independent interested purchaser. Id. ¶ 143.
On May 4, 1935, the Consortium offered the
Welfenschatz for a sale price of 4.35 million RM to the
Dresdner Bank, id. ¶ 146, and, after receiving a response from the Dresdner Bank, submitted its final
offer on May 17, 1935, id. ¶ 148. The contract was executed on June 14, 1935, selling the Welfenschatz for the
price of 4.25 million RM. Id. ¶ 151. On July 18, 1935,
the Welfenschatz was packed for shipping from Amsterdam, where it was housed, for delivery to Berlin,
and the Dresdner Bank made the requisite payment
on the following day. Id. ¶¶ 157-58. The payments were
split, with 778,125 RM paid into a blocked account
with Dresdner Bank, and 3,371,875 RM, paid to three
different bank accounts in Germany. Id. ¶¶ 159-60.
Plaintiffs agreed to accept art objects in Berlin museums to satisfy some of the purchase price. Id. ¶ 159.
However, the objects were not selected by art dealers,
as the parties had agreed to, but rather by museum
officials. Id. The Consortium also was required to pay
a 100,000 RM commission to the Berlin art dealer who
served as the messenger between the Bank and the
Consortium. Id. The Consortium used the proceeds
from the sale to pay back investors who financed the
1929 purchase of the Welfenschatz. Id. ¶ 161.
Plaintiffs raised their claims related to the Welfenschatz before the German Advisory Commission for
the Return of Cultural Property Seized as a Result of

App. 45
Nazi Persecution, Especially Jewish Property (“Advisory Commission”) which was established by Germany
in 2003 to address Nazi-looted art claims in accordance
with the Washington Conference on Holocaust EraAssets’ Principles on Nazi-Confiscated Art. Id. ¶¶ 15,
196-98, 205. After hearing testimony from five experts
presented by Plaintiffs, the Advisory Commission issued a non-binding recommendation that the 1935 sale
at issue was not a coerced transaction and, as such, the
Advisory Commission did not recommend the return of
the Welfenschatz to Plaintiffs. Id. ¶¶ 224, 227-28.
Plaintiffs now bring the following ten claims related to the 1935 sale of Welfenschatz, which Plaintiffs’
assert was made under duress, against Germany and
the SPK: declaratory relief (Count I); replevin (Count
II); conversion (Count III); unjust enrichment (Count
IV); fraud in the inducement (Count V); breach of fiduciary duty (Count VI); breach of the covenant of good
faith and fair dealing (Count VII); civil conspiracy
(Count VIII); bailment (Count IX); and tortious interference (Count X). Defendants seek dismissal of each
of the claims on the grounds that: (1) Defendants are
entitled to sovereign immunity on each Plaintiffs’ claims;
(2) Plaintiffs’ claims are preempted and non-justiciable
because they conflict with U.S. foreign policy; and (3) the
doctrine of forum non conveniens requires that Plaintiffs’ claims be resolved in Germany, rather than in this
Court.

App. 46
II.

LEGAL STANDARD

A court must dismiss a case when it lacks subject
matter jurisdiction pursuant to Rule 12(b)(1). In so
doing, the Court may “consider the complaint supplemented by undisputed facts evidenced in the record,
or the complaint supplemented by undisputed facts
plus the court’s resolution of disputed facts.” Coal. for
Underground Expansion v. Mineta, 333 F.3d 193, 198
(D.C. Cir. 2003) (citations omitted). “At the motion to
dismiss stage, counseled complaints, as well as pro se
complaints, are to be construed with sufficient liberality to afford all possible inferences favorable to the
pleader on allegations of fact.” Settles v. U.S. Parole
Comm’n, 429 F.3d 1098, 1106 (D.C. Cir. 2005). In spite
of the favorable inferences that a plaintiff receives on
a motion to dismiss, it remains the plaintiff ’s burden
to prove subject matter jurisdiction by a preponderance of the evidence. Am. Farm Bureau v. Envtl. Prot.
Agency, 121 F. Supp. 2d 84, 90 (D.D.C. 2000). Furthermore, a court need not accept inferences drawn by the
plaintiff if those inferences are not supported by the
facts alleged in the complaint. Odhiambo v. Republic of
Kenya, 930 F. Supp. 2d 17, 22-23 (D.D.C. 2013), aff ’d
764 F.3d 31 (D.C. Cir. 2014) (citing Browning v. Clinton,
292 F.3d 235, 242 (D.C. Cir. 2002)).
III.

DISCUSSION

A. Sovereign Immunity
Under the Foreign Sovereign Immunities Act
(“FSIA”), 28 U.S.C. §§ 1602-1611, “a foreign state is

App. 47
presumptively immune from the jurisdiction of United
States courts,” and “unless a specified exception applies, a federal court lacks subject-matter jurisdiction
over a claim against a foreign state.” Saudi Arabia
v. Nelson, 507 U.S. 349, 355 (1993); see also 28 U.S.C.
§§ 1604-1605. The FSIA defines the term “foreign state”
to include a state’s political subdivisions, agencies, and
instrumentalities. 28 U.S.C. § 1603(a). The FSIA provides “the sole basis for obtaining jurisdiction over a
foreign state in the courts of this country.” Nelson, 507
U.S. at 355 (quoting Argentine Republic v. Amerada
Hess Shipping Corp., 488 U.S. 428, 443 (1989) (internal
quotation marks omitted)). Because “subject matter jurisdiction in any such action depends on the existence
of one of the specified exceptions . . . [a]t the threshold
of every action in a district court against a foreign state
. . . the court must satisfy itself that one of the exceptions applies.” Verlinden B.V. v. Cent. Bank of Nigeria, 461 U.S. 480, 493-94 (1983). “In other words, U.S.
courts have no power to hear a case brought against a
foreign sovereign unless one of the exceptions applies.”
Diag Human S.E. v. Czech Republic-Ministry of Health,
64 F. Supp. 3d 22, 30 (D.D.C. 2014), rev’d on other
grounds 824 F.3d 131 (D.C. Cir. 2016). Plaintiffs assert
that this Court has subject matter jurisdiction over
each of their claims against Germany and its instrumentality, the SPK, under FSIA’s expropriation exception, 28 U.S.C. § 1605(a)(3).
The FSIA’s expropriation exception to foreign sovereign immunity allows a party to proceed with a
claim:

App. 48
in which rights in property taken in violation
of international law are in issue and that
property or any property exchanged for such
property is present in the United States in
connection with a commercial activity carried
on in the United States by the foreign state;
or that property or any property exchanged
for such property is owned or operated by an
agency or instrumentality of the foreign state
and that agency or instrumentality is engaged
in a commercial activity in the United States.
28 U.S.C. § 1605(a)(3). As such, in order to satisfy the
expropriation exception, a claim must satisfy three requirements: “(i) the claim must be one in which ‘rights
in property’ are ‘in issue’; (ii) the property in question
must have been ‘taken in violation of international
law’; and (iii) one of two commercial-activity nexuses
with the United States must be satisfied.” Simon v. Republic of Hung., 812 F.3d 127, 140 (D.C. Cir. 2016).
The U.S. Court of Appeals for the District of Columbia Circuit (“D.C. Circuit”) has clarified that for the
purposes of the analysis under this exception, the district court must examine the relationship between the
jurisdictional question and the merits determination.
See id. at 140-41. Specifically, the D.C. Circuit recognized situations in which a plaintiff raises a basic expropriation claim, arguing that his or her property has
been taken without just compensation in violation of
international law. Id. In such instances, the merits of
the claim directly mirror the jurisdictional standard,
i.e., a determination as to whether the property was
taken in violation of international law. Id. When there

App. 49
is a complete overlap between the inquiries, “the plaintiff need only show that its claim is ‘non-frivolous’ at
the jurisdictional stage, and then must definitively
prove its claim in order to prevail at the merits stage.”
Id. at 141. However, in other situations, a plaintiff may
seek recovery based on “garden-variety common-law
causes of action such as conversion, unjust enrichment,
and restitution,” and plead a violation of international
laws to give rise to jurisdiction but not to establish liability on the merits. Id. In those situations, the court
requires more than a mere non-frivolous argument to
satisfy the jurisdictional standard. Id.
The parties dispute which standard the Court
should apply in this case. Plaintiffs assert that they
need only advance a non-frivolous argument because
the alleged coerced sale of the Welfenschatz is a taking
in violation of international law. Defendants argue
that Plaintiffs raise common-law causes of action in
which there is not a complete overlap between the jurisdictional issue and the merits of the claims. The
Court agrees with Defendants that the merits of Plaintiffs’ common law claims do not mirror the jurisdictional standard because in order for this Court to have
jurisdiction, Plaintiffs must demonstrate that the takings were in violation of international law, a showing
that is not required in order to succeed on the merits
of their claims. See de Csepel v. Republic of Hung. (de
Csepel III), 169 F. Supp. 3d 143, 157 (D.D.C. 2016)
(finding that the plaintiffs’ claims did not directly mirror the expropriation jurisdictional standard because
plaintiffs relied on a violation of international law

App. 50
exclusively for jurisdictional purposes and not to establish liability on the merits). As such, the Court shall
require that Plaintiffs advance more than a mere nonfrivolous argument with respect to Plaintiffs’ assertion
that a taking in violation of international law is at issue.
Bearing this in mind, the Court now turns to the
issue of whether the FSIA’s expropriation exception
gives rise to subject matter jurisdiction in this Court
over Plaintiffs’ ten claims.6 The Court shall address
each of the requirements of the expropriation exception in turn.
1. Rights in Property
Defendants argue that the Court should dismiss
the following five claims because they do not directly
implicate property interests or rights to possession of
property: fraud in the inducement (Count V); breach of
fiduciary duty (Count VI); breach of the covenant of
good faith and fair dealing (Count VII); civil conspiracy
(Count VIII); and tortious interference (Count X).
6

In their initial motion, Defendants appear to contend that
Plaintiffs only advanced their unjust enrichment claim (Count IV)
under the FSIA’s commercial activity exception and not under the
expropriation exception. Defs.’ Mot. at 9. However, the Complaint
indicates that Plaintiffs rely on the expropriation exception as a
basis for proceeding with their claims, but also rely on the commercial activity exception only for their unjust enrichment claim.
See Compl. ¶¶ 25, 28. Plaintiffs clarified this point in their opposition, noting “the expropriation exception provides jurisdiction
over all of the Plaintiffs’ claims,” which necessarily includes their
unjust enrichment claim. Pls.’ Opp’n at 39 (emphasis added).

App. 51
Instead, Defendants assert these five claims to “seek
damages for allegedly wrongful conduct and are not
property claims concerning the rightful ownership or
possession of the Welfenschatz.” Defs.’ Mot. at 12. Indeed, this Court is required to “make FSIA immunity
determinations on a claim-by-claim basis.” Simon, 812
F.3d at 141. In order to meet the requirements of the
expropriation exception, each claim must “ ‘directly
implicat[e] property interests or rights to possession,’
. . . , thus satisfying the ‘rights in property . . . in issue’
requirement of § 1605(a)(3).” Id. at 142.
Despite Defendants setting forth this argument in
a separate subsection of their motion, see Defs.’ Mot. at
11-12, Plaintiffs did not directly respond to this argument in their opposition, see generally Pls.’ Opp’n at 2239. Defendants in a separate section of their reply brief
request that the Court find Plaintiffs conceded this argument by failing to respond in their opposition. Defs.’
Reply at 4-5. Plaintiffs have not sought leave to file a
surreply or otherwise respond to this argument. Here,
Plaintiffs have only alleged that this Court has jurisdiction over the five claims at issue based on the FSIA’s
expropriation exception. As such, the Court shall treat
Defendants’ argument as conceded and dismiss these
five claims on the basis that this Court lacks subject matter jurisdiction over these claims. See Hopkins
v. Women’s Div., Gen. Bd. of Glob. Ministries, 238
F. Supp. 2d 174, 178 (D.D.C. 2002) (citing FDIC v.
Bender, 127 F.3d 58, 67-68 (D.C. Cir. 1997) (“It is well
understood in this Circuit that when a plaintiff files
an opposition to a motion to dismiss addressing only

App. 52
certain arguments raised by the defendant, a court
may treat those arguments that the plaintiff failed to
address as conceded.”); Achagzai v. Broad. Bd. of Governors, 109 F. Supp. 3d 67, 70 n.2 (D.D.C. 2015) (points
not disputed in opposition to motion to dismiss conceded) (citing Hopkins, 238 F. Supp. 2d at 178); Youming Jin v. Ministry of State Sec., 335 F. Supp. 2d 72, 82
n.7 (D.D.C. 2004) (applying this principle to arguments
regarding the grounds for jurisdiction).
2. Taking in Violation of International Law
Defendants next contend that Plaintiffs failed to
sufficiently plead that the Welfenschatz was taken in
violation of international law. Here, Plaintiffs allege
that the 1935 sale was made under duress as part
of the Nazi’s systematic organized plunder of Jewish
property in furtherance of the genocide of the Jewish
people during that time. For the reasons described
herein, the Court finds that Plaintiffs sufficiently pled
the taking of the Welfenschatz was part of the genocide
of the Jewish people during the Holocaust and, accordingly, violated international law.
The D.C. Circuit has recognized that takings may
fall within the expropriation exception when “the takings of property described in the complaint bear a
sufficient connection to genocide that they amount
to takings ‘in violation of international law.’ ” Simon,
812 F.3d at 142. In such situations, the expropriations
themselves constitute genocide and genocide itself is a
clear violation of international law. Id. As the D.C.

App. 53
Circuit recognized, the generally accepted definition of
genocide for the purposes of customary international
law is as follows:
[A]ny of the following acts committed with intent to destroy, in whole or in part, a national,
ethnical, racial or religious group, as such:
(a)

Killing members of the group;

(b) Causing serious bodily or mental harm to
members of the group; [or]
(c) Deliberately inflicting on the group conditions of life calculated to bring about its physical destruction in whole or in part . . .
Id. at 143 (quoting Convention on the Prevention and
Punishment of the Crime of Genocide (Genocide Convention), art. 2, Dec. 9, 1948, 78 U.N.T.S. 277 (emphasis
added)).
In Simon v. Republic of Hungary, the D.C. Circuit
considered claims arising out of actions carried out
against Hungary’s Jewish population starting in 1941
with a systematic campaign of discrimination culminating in the implementation of policies calling for the
total destruction of that population by Hungary’s fanatically anti-Semitic Prime Minister Döme Sztójay
between 1944 and 1945. Id. at 133. As the D.C. Circuit
noted, the complaint in that case detailed the persecution, property confiscation and ghettoization, and
transport and murder in death camps of the Hungarian Jewish population during this time period. Id. at
133-34. The claims brought by Jewish survivors of the

App. 54
Hungarian Holocaust against the Republic of Hungary,
a state-owned Hungarian railway, and an Austrian
rail-freight company alleged that Hungary collaborated with the Nazis to exterminate Hungarian Jews
and expropriate their property and that the railway
defendants played an integral role in these efforts by
transporting Hungarian Jews to death camps and confiscating their property. Id.
The D.C. Circuit applied the allegations in that
case to the definition of genocide set forth above and
found that the complaint sufficiently alleged takings of
property intended to “[d]eliberately inflict[ ] on the
group conditions of life calculated to bring about its
physical destruction in whole or in part to bring about
its physical destruction.” Id. at 143 (quoting Genocide
Convention, art. 2(c)). Specifically, the D.C. Circuit explained:
The Holocaust’s pattern of expropriation and
ghettoization entailed more than just moving
Hungarian Jews to inferior, concentrated living quarters, or seizing their property to finance Hungary’s war effort. Those sorts of
actions would not alone amount to genocide
because of the absence of an intent to destroy
a people. The systematic, “wholesale plunder
of Jewish property” at issue here, however,
aimed to deprive Hungarian Jews of the resources needed to survive as a people. Expropriations undertaken for the purpose of bringing
about a protected group’s physical destruction
qualify as genocide.

App. 55
Id. (internal citation omitted). The D.C. Circuit found
the allegations in the complaint to be sufficient under
the FSIA’s expropriation exception because “the complaint describe[d] takings of property that are themselves genocide within the legal definition of the term”
and, as such, takings in violation of international law.
Id. at 144.
The Court finds that, like in Simon, the taking of
the Welfenschatz as alleged in the complaint bears a
sufficient connection to genocide such that the alleged
coerced sale may amount to a taking in violation of international law. Plaintiffs sufficiently pled that they
were targeted because they were Jewish sellers in possession of property that was of particular interest to
the Nazi regime. The complaint further includes sufficient allegations that the taking of this property was
in furtherance of the genocide of the Jewish people
during the Holocaust. Indeed, in addition to the allegations highlighted in the background section of this
opinion surrounding the 1935 transaction, Plaintiffs
describe the hostile environment for Jews in Germany
following Adolf Hitler’s ascension to power in 1933.
Compl. ¶¶ 44-65. Plaintiffs allege that members of
the Consortium were particularly vulnerable to persecution because of their ownership of the Welfenschatz and because of their prominence and success.
Id. ¶ 67. Specifically, Plaintiffs assert that the Geheime
Staatspolizei (“the Gestapo”) opened files on members of the Consortium, id., and that the members
of the Consortium were subject to direct threats of
violence for being Jewish and for trying to sell the

App. 56
Welfenschatz, id. ¶ 10. With this context in mind, the
Court finds that Plaintiffs have sufficiently alleged a
taking in violation of international law to satisfy the
FSIA’s expropriation exception.
In the interest of completeness, the Court shall address Defendants’ arguments that the facts at issue in
this case are distinguishable from those in Simon.
First, Defendants point to the subject of the alleged
taking. Here, Defendants assert that the Consortium’s
1929 purchase of the Welfenschatz was a business investment because the Consortium planned to flip it for
a profit and, as such, the Welfenschatz was not “property indispensable for individual survival.” Defs.’ Mot.
at 22. Second, Defendants point to the nature of the
transaction. Defendants assert that Plaintiffs merely
allege a forced sale for less than market value and not
the outright plunder of the Welfenschatz. Id. The Court
is not persuaded by these arguments.
First, the Court finds that expropriating property
that Plaintiffs planned to sell for a profit falls within
the definition of genocide that includes deliberately inflicting on the group conditions of life calculated to
bring about its physical destruction in whole or in part.
Plaintiffs alleged that the coerced sale of the Welfenschatz was accomplished to deprive the Consortium of
their ability to earn a living and the motivation for the
taking was to deprive the Consortium of resources
needed to survive as a people in furtherance of the genocide of the German Jews during the Holocaust. C.f.
de Csepel III, 169 F. Supp. 3d at 163-64 (noting that
the confiscation of artwork during the Holocaust in

App. 57
furtherance of the Nazis’ campaign of genocide satisfies the elements of the expropriation exception as
recognized by the D.C. Circuit in Simon). Indeed,
Plaintiffs allege that they were specifically targeted
because they were Jewish. Further, the fact that there
was money exchanged for the Welfenschatz does not
undermine Plaintiffs’ assertion that this was a sham
transaction meant to deprive them of their property as
part of the genocide that occurred during the Holocaust. As another judge in this district noted, “the legislative history of the FSIA makes clear that the
phrase ‘taken in violation of international law’ refers
to ‘the nationalization or expropriation of property
without payment of the prompt, adequate, and effective
compensation required by international law.” Id. at
166 (quoting H.R. Rep. No. 91-1487, at 19 (emphasis
added)). As such, Plaintiffs’ allegations that the 1935
sale was coerced without adequate and effective compensation meets the requirements of the expropriation
exception of the FSIA.
Finally, Defendants advance an argument that the
takings at issue in this case cannot be one made in violation of international law because Plaintiffs merely
argue that Germany expropriated property of its own
nationals. Defs.’ Mot. at 13. In such instances, Defendants contend that purely domestic taking cannot fall
within the expropriation exception and the “domestic
takings” rule as set forth in the Restatement (Third) of
Foreign Relations § 712(1) bars such actions from proceeding in this Court. Id. at 13-14. As the D.C. Circuit
explained, “[t]he domestic takings rule means that, as

App. 58
a general matter, a plaintiff bringing an expropriation
claim involving an intrastate taking cannot establish
jurisdiction under the FSIA’s expropriation exception
because the taking does not violate international law.”
Simon, 812 F.3d at 144-45. However, in Simon, the D.C.
Circuit expressly rejected the application of the domestic takings rule in the context of intrastate genocidal
takings. Id. at 145. Rather, the D.C. Circuit, tracing the
development of international human rights law, noted
that in those circumstances the relevant international
law violation for jurisdictional purposes under the expropriation exception is genocide, including genocide
perpetuated by a foreign state against its own nationals. Id. at 145-46. In light of the D.C. Circuit’s holding
in Simon, the Court rejects Defendants’ argument that
the domestic takings rule precludes the application of
the FSIA’s expropriation exception in these circumstances. In sum, the Court finds Plaintiffs have set
forth allegations sufficient to establish a takings in violation of international law at the motion to dismiss
stage based on this record.
3. Commercial Activity Nexus
Defendants next allege that Plaintiffs have failed
to adequately plead a commercial activity nexus with
respect to Germany. Defendants concede that Plaintiffs have adequately pled a commercial-activity nexus
as to the SPK, an instrumentality of Germany.7 Defs.’
7

With respect to the SPK, Plaintiffs must show “that [the
Welfenschatz] or any property exchanged for [the Welfenschatz]
is owned or operated by [the SPK] and that [the SPK] is engaged

App. 59
Mot. at 23. The FSIA provides two avenues for establishing jurisdiction under the expropriation exception,
one that addresses the commercial activity requirements for a foreign state, like Germany, and one that
addresses the requirements for an instrumentality of
a foreign state, like the SPK. As discussed above, the
Court finds that the parties sufficiently pled that the
rights in property taken in violation of international
law are at issue. The statute provides that a foreign
state, like Germany, is not immune from a suit when:
“that property or any property exchanged for such
property is present in the United States in connection
with a commercial activity carried on in the United
States by the foreign state; or that property or any
property exchanged for such property is owned or operated by an agency or instrumentality of the foreign
state and that agency or instrumentality is engaged in
a commercial activity in the United States. . . .” 28
U.S.C. § 1605(a)(3) (emphasis added).
The crux of the issue before the Court is whether
Plaintiffs must satisfy both clauses, the first to proceed
against Germany and the second to proceed against
its instrumentality SPK, or whether the two clauses
present alternative requirements and, as such, Plaintiffs need to only satisfy one requirement to proceed. If
in a commercial activity in the United States.” See 28 U.S.C.
§ 1605(a)(3). As the FSIA explains: “A ‘commercial activity’ means
either a regular course of commercial conduct or a particular commercial transaction or act. The commercial character of an activity shall be determined by reference to the nature of the course of
conduct or particular transaction or act, rather than by reference
to its purpose.” Id. § 1603(d).

App. 60
Plaintiffs are only required to satisfy one clause, they
would not need to make any additional showing since
Defendants concede that Plaintiffs have satisfied the
commercial-activity nexus requirement with respect to
the SPK.8
The parties point to two D.C. Circuit opinions that
seem to suggest different requirements. In Agudas
Chasidei Chabad v. Russian Federation, 528 F.3d 934
(D.C. Cir. 2008), the D.C. Circuit noted that the two
clauses “specify[ ] alternative commercial activity requirements.”9 Id. at 946; see also id. at 948 (finding
the “second alternative commercial activity requirement” was clearly satisfied). The use of the word “or” to
separate the two clauses in the statute would seem to
support this reading. However, in Simon, the D.C.
Circuit recognized that “the nexus requirement differs
8

Plaintiffs’ briefing seems to conflate the analysis under the
two separate clauses and does not separately analyze the requirements for a foreign state and an instrumentality. See Pls.’ Opp’n
at 35-39.
9
In Chabad, the D.C. Circuit parsed the language of the expropriation exception as follows:
[A] rights in property taken in violation of international law are in issue and [B] [1] that property or any
property exchanged for such property is present in the
United States in connection with a commercial activity
carried on in the United States by the foreign state; or
[2] that property or any property exchanged for such
property is owned or operated by an agency or instrumentality of the foreign state and that agency or instrumentality is engaged in a commercial activity in
the United States. . . .
Chabad, 528 F.3d at 946-47.

App. 61
somewhat for claims against the foreign state itself
[like Germany] . . . as compared with claims against an
agency or instrumentality of a foreign state [like the
SPK]. . . .” Simon, 812 F.3d at 146. As the Simon court
explained:
As to the claims against [a foreign state], the
question is whether the ‘property [in issue] or
any property exchanged for such property is
present in the United States in connection
with a commercial activity carried on in the
United States by the foreign state.’ As to the
claims against [an instrumentality], the question is whether the ‘property [in issue] or any
property exchanged for such property is
owned or operated by an agency or instrumentality of the foreign state and that agency or
instrumentality is engaged in a commercial
activity in the United States.’
Id. (internal citations omitted). As such, Simon suggests that to proceed on claims against a foreign state
like Germany, Plaintiffs must meet the requirements
of the first clause and to proceed on claims against an
instrumentality such as the SPK, Plaintiffs must meet
the requirements of the second clause.
The Court is persuaded by the analysis of District
Judge Christopher R. Cooper with respect to this issue
in Helmerich & Payne International Drilling Co. v. Bolivarian Republic of Venezuela, 185 F. Supp. 3d 233,
239-42 (D.D.C. 2016). In Helmerich, Judge Cooper
raised several important points: (1) Simon did not ignore or distinguish Chabad, but instead appeared to

App. 62
apply it; (2) the D.C. Circuit denied the request for a
rehearing on this issue in Simon; (3) to follow Chabad
would require deviating from Simon’s directive that to
proceed against a foreign state, the first commercialnexus requirement must be met (as is the case here);
and (4) this issue was not argued or briefed in Chabad
or Simon. Id. at 241-42. However, as Judge Cooper
noted, while the Court seems bound by the precedent
in Chabad, “the D.C. Circuit’s clear articulation of a
contrary rule in Simon and its implicit view that the
new rule is consistent with—and perhaps even based
on—Chabad places the Court in somewhat of a quandary.” Id. at 242. Ultimately, Judge Cooper deferred
ruling on the issue without further briefing. At this
juncture, the Court deems it appropriate to follow the
D.C. Circuit’s ruling in Chabad and allow the claims
against Germany to proceed because it is uncontested
that Plaintiffs have sufficiently pled the second requirement of the commercial-activity nexus.10 However, the parties are not precluded from raising this
issue at a later juncture with more fulsome briefing.
In sum, the Court finds that it has subject matter
jurisdiction over five of Plaintiffs’ ten claims pursuant
to the expropriation exception of the FSIA. As such,
the Court shall deny Defendants’ request to dismiss
the following claims on that basis: declaratory relief
10

Plaintiffs pled that the Welfenschatz is featured in books
and guidebooks produced by the SPK that are for sale in the
United States, and that Germany engages in painting and exhibition loans with museums in the United States. See generally
Compl. ¶ 26.

App. 63
(Count I); replevin (Count II); conversion (Count III);
unjust enrichment (Count IV); and bailment (Count
IX). Further, the Court finds that it does not have subject matter jurisdiction over the following five claims
because these claims do not directly implicate property
interests or rights to possession: fraud in the inducement (Count V); breach of fiduciary duty (Count VI);
breach of the covenant of good faith and fair dealing
(Count VII); civil conspiracy (Count VIII); and tortious
interference (Count X). Accordingly, the Court shall
dismiss only those five claims as Plaintiffs have not
demonstrated that those claims fall within one of the
FSIA’s exceptions that would give rise to this Court’s
jurisdiction over a foreign state and its instrumentality.
B. Preemption and Non-Justiciability
Defendants next argue that the Court should
dismiss Plaintiffs’ claims because they are preempted
and because they run afoul of international comity.
Specifically, Defendants assert that U.S. foreign policy
encourages parties to pursue their claims related to
Nazi-looted art through dispute resolution mechanisms established under the multinational Washington Conference Principles on Nazi-Confiscated Art. In
this instance, Defendants argue that Plaintiffs’ claims
in this Court are preempted because they already have
been adjudicated through Germany’s Advisory Commission, which was created to hear such claims under
the Washington Principles, and the Commission determined that there was not a compulsory sale of the

App. 64
Welfenschatz due to persecution. Defendants also allege that international comity requires the Court to defer to the decision of the Advisory Commission or, in
the alternative, require Plaintiffs to first litigate their
claims in Germany. The Court shall first address Defendants’ preemption arguments and then shall turn
to Defendants’ arguments concerning international
comity.
1. Preemption
Defendants assert that modern U.S. policy towards recovered art reflects the preference that claims
be decided through alternative dispute resolution mechanisms like Germany’s Advisory Commission. The
Court shall first provide a brief history of the developments in U.S. foreign policy that Defendants argue
support their position that Plaintiffs’ claims are preempted by the decision of Germany’s Advisory Commission. The Court shall then address the substance
of Defendants’ preemption argument.
The United States convened the Washington Conference on Holocaust Era Assets in 1998 to develop an
equitable approach to Nazi-looted art given some of the
inadequacies that previously existed in the processes
for dealing with such claims. See Defs.’ Mot. at 32;
Compl. ¶ 196. To that end, the Washington Conference
agreed upon a set of non-binding principles to “expeditiously . . . achieve a just and fair solution” to claims of
Nazi-confiscated art. Defs.’ Mot. at 32 (quoting Von
Saher v. Norton Simon Museum of Art, 754 F.3d 712,

App. 65
721 (9th Cir. 2014)). “[T]he Principles [also] encouraged
nations ‘to develop national processes to implement
these principles,’ including alternative dispute resolution.” Von Saher, 754 F.3d at 721. Defendants also
point to the Terezin Declaration issued after the Prague Holocaust Era Assets Conference, in 2009, which
was a follow-up to the Washington Conference. Compl.
¶¶ 201-02. The Terezin Declaration reaffirmed the Washington Principles and noted “Governments should consider all relevant issues when applying various legal
provisions that may impede the restitution of art and
cultural property, in order to achieve just and fair solutions, as well as alternative dispute resolution,
where appropriate under law.” Id. ¶ 202. Defendants’
position is that the Washington Principles and the Terezin Declaration clearly demonstrate a preference
for the resolution of claims related to Nazi-looted art
through mediation rather than litigation, and encourage use of alternative dispute resolution mechanisms.
Defs.’ Mot. at 33, 40. The Court notes that although
the proceedings before the Advisory Commission are a
form of alternative dispute resolution, they do not constitute a mediation as it is known. Moreover, Defendants argue that the State Department’s position is to
defer to other nations’ alternative dispute resolution
proceedings under the Washington Principles. Id. at
33-35 (citing an amicus brief filed before the Supreme
Court of the United States and a press statement issued by then-Secretary of State Hillary Rodham Clinton).

App. 66
The parties point to the following summary of U.S.
policy on restitution of Nazi-looted art as described by
the United States Court of Appeals for the Ninth Circuit:
(1) a commitment to respect the finality of “appropriate actions” taken by foreign nations to
facilitate the internal restitution of plundered
art; (2) a pledge to identify Nazi-looted art
that has not been restituted and to publicize
those artworks in order to facilitate the identification of prewar owners and their heirs;
(3) the encouragement of prewar owners and
their heirs to come forward and claim art that
has not been restituted; (4) concerted efforts
to achieve expeditious, just and fair outcomes
when heirs claim ownership to looted art; (5) the
encouragement of everyone, including public
and private institutions, to follow the Washington Principles; and (6) a recommendation
that every effort be made to remedy the consequences of forced sales.
Von Saher, 754 F.3d at 721. As Plaintiffs correctly point
out, this language does not preclude seeking resolution
of their claims through litigation, especially where, as
here, Plaintiffs sought a remedy through the procedures put in place in Germany in accordance with the
Washington Principles.11

11

Defendants’ preemption challenge centers around U.S. foreign policy as expressed by the Executive Branch to date and, as
such, that is the focus the Court’s discussion. However, the position of Congress appears consistent with the position of the Executive Branch as to the resolution of claims related to Nazi-looted

App. 67
In 2003, Germany created the Advisory Commission in light of the Washington Principles and after
the German Federal Government, the German Länder,
and the German National Associations of Local Authorities issued a Joint Declaration related to tracing
and returning Nazi-looted art. Defs.’ Mot. at 35-36. In
2012, Plaintiffs submitted their claim regarding the
Welfenschatz to the Commission. Id. at 36; Compl.
¶ 220. After hearing the evidence including testimony
from five experts presented by Plaintiffs, the Commission did not recommend the restitution of the Welfenschatz. Compl. ¶¶ 221, 224. Defendant chose not to
present evidence to the contrary. Id. ¶ 223. It is
art. Indeed, the Holocaust Expropriated Art Recovery Act of 2016,
H.R. 6130, Pub. L. No. 114-308 (“HEAR Act”), which was signed
into law on December 16, 2016, reflected Congress’ preference
that disputes such as the one at issue here be resolved by alternative dispute resolution processes but did not preclude the possibility of litigating such claims. In relevant part, the HEAR Act
includes the following Congressional finding:
While litigation may be used to resolve claims to recover
Nazi-confiscated art, it is the sense of Congress that the
private resolution of claims by parties involved, on the
merits and through the use of alternative dispute resolution such as mediation panels established for this
purpose with the aid of experts in provenance research
and history, will yield just and fair resolutions in a
more efficient and predictable manner.
HEAR Act § 2(8) (emphasis added). It is clear from the text of the
HEAR Act that Congress specifically recognized and did not foreclose the use of litigation as a means to resolve claims to recover
Nazi-confiscated art. As such, the Court agrees with Plaintiffs
that the HEAR Act supports their argument that U.S. policy does
not conflict with Plaintiffs’ ability to pursue their claims in this
Court.

App. 68
undisputed by the parties that the Commission’s recommendation is non-binding and Defendants would
not have been required to return the Welfenschatz
even if that had been the Commission’s recommendation. Compl. ¶ 235; Defs.’ Mot. at 39 n.16; Defs.’ Reply
at 15 n.7. Defendants now argue that Plaintiffs’ state
law claims are preempted because allowing these
claims to proceed in this Court would undercut U.S.
foreign policy on Nazi-looted art.
Defendants primarily rely on the Supreme Court
of the United States’ opinion in American Insurance
Association v. Garamendi, 539 U.S. 396 (2003), and the
United States District Court for the Southern District
of New York’s application of that opinion in In re Assicurazioni Generali S.P.A. Holocaust Ins. Litig., 340
F. Supp. 2d 494 (S.D.N.Y. 2004), aff ’d, 592 F.3d 113 (2d
Cir. 2010), cert. denied, 562 U.S. 952 (2010), in support
of their argument. For the reasons described herein,
this Court is not persuaded that these cases support
Defendants’ preemption argument.
In Garamendi, the Supreme Court addressed the
issue of claims-based on insurance policies issued to
Jews before and during World War II, the proceeds of
which were either paid to the Third Reich or never paid
at all. Garamendi, 539 U.S. at 402-03. At issue were
two procedures put in place to address such claims, one
based on an agreement between the President of the
United States and the German Chancellor and one enacted by the state of California. The Court shall briefly
address each in turn as such background is relevant in

App. 69
distinguishing the issue in that case from the one in
the instant action.
After multiple class-action lawsuits seeking restitution for such insurance claims poured into the
United States, negotiations between the German
Chancellor and the President of the United States produced an executive agreement through which Germany agreed to enact legislation to create a foundation
funded by a voluntary compensation fund contributed
to equally by the German Government and German
companies. Id. at 405. In exchange, the United States
agreed to file a notice in all related cases brought in
U.S. courts indicating that it was the U.S. Government’s position that foreign policy interests support
the foundation as the exclusive forum and remedy for
resolution of all such claims. Id. at 406. Further, the
United States agreed to use its “best efforts” to get
state and local governments to respect the foundation
as the exclusive mechanism for resolving these claims.
Id. With respect to insurance claims, the countries
agreed that the foundation would work with the International Commission on Holocaust Era Insurance
Claims (ICHEIC), which negotiated with European insurers to get information on unpaid policies issued to
Holocaust victims and worked to settle claims under
those identified policies. Id. at 406-07. Germany stipulated that insurance claims within the scope of the
handling procedures adopted by the ICHEIC against
German companies shall be processed based on procedures of the ICHEIC and any additional procedures

App. 70
agreed to by the foundation, the ICHEIC, and the German Insurances Association. Id. at 407.
Meanwhile, California enacted a state statute
making it an unfair business practice for insurers operating in California to fail to pay any valid claim from
a Holocaust survivor and enacted a subsequent statute
that allowed California residents to sue in state court
on insurance claims based on acts perpetrated during
the Holocaust. Id. at 409. At issue in Garamendi was a
portion of the state statute that required all insurers
currently doing business in California to disclose the
details of insurance policies issued to persons in Europe which were in effect between 1920 and 1945. Id.
The California legislation specifically acknowledged
that while the international Jewish community was in
active negotiations to resolve all outstanding claims
through the ICHEIC, it still deemed the state legislation necessary to protect the claims of California residents. Id. at 410-11. In response to the enactment of
the California legislation, Deputy Secretary of the
Treasury Stuart Eizenstat wrote both to the insurance
commissioner and the governor of California to express
concern regarding the California statute, and noting
that such actions by the state government threatened
to damage the ICHEIC and related diplomatic relations with Germany. Id. at 411.
Several American and European insurance companies and a national trade association filed suit
against the insurance commissioner of California to
challenge the constitutionality of the state statute. Id.
at 412. The Supreme Court recognized that “at some

App. 71
point an exercise of state power that touches on foreign
relations must yield to the National Government’s policy, given the ‘concern for uniformity in this country’s
dealings with foreign nations’ that animated the Constitution’s allocation of the foreign relations power to
the National Government in the first place.” Id. at 413.
The Court also noted that generally there is executive
authority to determine the policy of the United States
government in foreign affairs. Id. at 414. The Supreme
Court acknowledged, “At a more specific level, our
cases have recognized that the President has authority
to make ‘executive agreements’ with other countries,
requiring no ratification by the Senate or approval by
Congress, this power having been exercised since the
early years of the Republic.” Id. at 415. While the Supreme Court noted that the text of the executive agreement at issue did not have a preemption clause, the
Court nevertheless found that the state statute was in
clear conflict with the federal policy and, as such, was
preempted. Id. at 420-25. The Supreme Court specifically found that with respect to insurance claims, the
national opinion as expressed in the executive agreements signed by the President has been to encourage
European insurers to work with the ICHEIC to develop claim procedures, a position that was repeatedly
supported by high levels of the Executive Branch. Id.
at 421-22.
In Assicurazioni Generali, the U.S. District Court
for the Southern District of New York applied Garamendi to claims brought against an Italian insurer
based on policies in Europe before and during World

App. 72
War II under several state statutes and common law,
as well as customary international law. There, the district court dismissed the plaintiffs’ claims finding that
pursuant to the Supreme Court’s holding in Garamendi, “[l]itigation of Holocaust-era insurance claims,
no matter the particular source of law under which
the claims arise, necessarily conflicts with the executive policy favoring voluntary resolution of such
claims through ICHEIC.” Assicurazioni Generali, 340
F. Supp. 2d at 501.
The Court finds the reasoning in Garamendi to be
inapplicable to the facts of the instant action for a
number of reasons. First, Garamendi dealt with the
applicability of a state statute setting forth a process
for addressing claims that already were covered by a
process set forth in an executive agreement signed by
the President of the United States. Defendants appear
to assert that this action brings claims akin to actions
brought under a state statute because Plaintiffs advance claims rooted in common law even though those
claims are brought in federal court under an exception
to the FSIA. While the issue of preemption was not directly addressed, the Court notes that in Simon, the
D.C. Circuit permitted common law property-based
claims, like the ones here, to proceed against a foreign
state pursuant to the FSIA’s expropriation exception.
Second, there does not appear to be a direct conflict
between the property-based common law claims raised
by Plaintiffs and foreign policy as expressed by the President. Indeed, in Garamendi, the executive agreement
at issue clearly contemplated the U.S. Government

App. 73
taking active steps to declare its view that U.S. foreign
policy interests supported the notion that the ICHEIC
should be the exclusive mechanism for resolution of
these types of insurance-related claims. Specifically,
the U.S. Government agreed to submit a statement in
cases in which a German company was sued on a Holocaust-era claim in an American court. Second, recognizing that the filing of such statements may not
provide an American court with an independent basis
for dismissal, the U.S. Government agreed to tell courts
that U.S. policy grounds favor dismissal on any valid
legal ground. Further, the U.S. Government “promised
to use its ‘best efforts, in a manner it considers appropriate,’ to get state and local governments to respect
the foundation as the exclusive mechanism.” Garamendi, 539 U.S. at 406.
The U.S. Government made no such assurances
that it would submit statements expressing its view
that U.S. foreign policy supports all claims related to
Nazi-looted art being resolved through alternative dispute mechanisms when such claims are pursued in
American courts. Further, Defendants do not point to
any statements made by the Executive Branch that
such alternative dispute mechanisms set up in accordance with the Washington Principles should be the exclusive mechanism for resolving such claims. Rather,
the statements of U.S. foreign policy related to such
claims demonstrate only that this is the preferred
mechanism for addressing such claims. The United
States acknowledged this point in an amicus brief filed
in the Supreme Court and cited by the Defendants in

App. 74
their briefing. Brief for the United States as Amicus
Curiae, Von Saher v. Norton Simon Museum of Art, No.
09-1254 (U.S. May 27, 2011), 2011 WL 2134984, at *15,
cert. denied, 564 U.S. 1037 (“Unlike in Garamendi,
the United States has not entered into Executive
Agreements with foreign governments to resolve contemporary claims for Holocaust art, and it has supported the just and equitable resolution of claims from
that era.”).
This is a logical distinction. The Garamendi Court
tackled an executive agreement that established the
formation of the ICHEIC, procedures for identifying
and processing claims through same, and a system for
funding the recovery of such claims. This is not the
type of comprehensive scheme contemplated by the
Washington Principles and the Terezin Declaration.
Rather, the Washington Principles were agreed-upon,
non-binding principles entered into by 13 nongovernmental organizations and 44 governments that encouraged nations to develop national processes, including
alternative dispute resolution processes, to implement
these principles. As such, the executive agreement itself did not establish such processes but only provided
guidance for doing so to the stakeholders.12

12

The Court notes that while Defendants in the instant action have not pointed to a direct statement made by the President,
it may be sufficient that such statements were made by high-level
executive officials. Indeed, the majority in Garamendi noted:
The dissent would also dismiss the other Executive
Branch expressions of the Government’s policy, insisting on nothing short of a formal statement by the

App. 75
Third, Plaintiffs rely on an amicus brief filed by
the United States in a case before the Supreme Court
in which the Supreme Court ultimately denied certiorari. See generally Brief for the United States as Amicus Curiae, Von Saher, No. 09-1254 (U.S. May 27,
2011), 2011 WL 2134984. In that case, the United
States advanced its view that:
[I]t is United States policy to support both
the just and fair resolution of claims to Naziconfiscated art on the merits and the return of
such art to its rightful owner. But that policy
does not support relitigation of all art claims
in U.S. courts. Neither the Washington Principles nor the Terezin Declaration takes an
explicit position in favor of or against the litigation of claims to Nazi-confiscated art. Rather, they encourage resort to alternative
dispute resolution, so that such claims may be
resolved as justly, fairly, and expeditiously as
possible.
Id. at *18. The United States went on to explain:
“When a foreign nation . . . has conducted bona fide
post-war internal restitution proceedings following the
return of Nazi-confiscated art to that nation under the
external restitution policy, the United States has a
substantial interest in respecting the outcome of that
President himself. But there is no suggestion that
these high-level executive officials were not faithfully
representing the President’s chosen policy, and there is
no apparent reason for adopting the dissent’s “nondelegation” rule to apply within the Executive Branch.
Garamendi, 539 U.S. at 424 n.13 (internal citations omitted).

App. 76
nation’s proceedings.” Id. at *19. As such, the United
States’ own statement of its foreign policy undercuts
Defendants’ request for dismissal. Indeed, the United
States notes that neither the Washington Principles
nor the Terezin Declaration explicitly take a position
regarding the litigation of Nazi-confiscated art claims.
Further, the United States does acknowledge a “substantial interest” in respecting the outcome of a nation’s
“bona fide post-war internal restitution proceedings.”
However, here, Plaintiffs have sufficiently pled that the
Advisory Commission proceedings were not bona fide
proceedings but rather specifically allege that it was a
“sham process” that was conducted inconsistently with
“internationally accepted principles and precedents
(among others),” Compl. ¶ 221, and resulting in a
“politically-motivated decision,” id. ¶ 222, that failed
to address Plaintiffs’ uncontested expert testimony, id.
¶ 227-28. At the motion to dismiss stage, the Court
finds such allegations sufficient to allow the claims to
proceed as U.S. foreign policy supports the just and fair
resolution of claims to Nazi-confiscated art.
2.

Non-justiciability

Defendants also contend that Plaintiffs’ claims
are non-justiciable due to international comity and, as
such, should be dismissed. Here, Defendants argue
that international comity requires that the Court defer to the Advisory Commission or, in the alternative,
requires that Plaintiffs exhaust their remedies in Germany. The Court shall first address Defendants’ argument that international comity requires this Court to

App. 77
defer to the decision of the Advisory Commission. The
Court shall then address Defendants’ argument that
international comity requires Plaintiffs to exhaust their
remedies in Germany before proceeding in this Court.
The term “ ‘[c]omity’ summarizes in a brief word a
complex and elusive concept—the degree of deference
that a domestic forum must pay to the act of a foreign
government not otherwise binding on the forum.” de
Csepel v. Republic of Hung. (de Csepel II), 714 F.3d 591,
606 (D.C. Cir. 2013) (quoting Laker Airways Ltd. v. Sabena, Belgian World Airlines, 731 F.2d 909, 937 (D.C.
Cir. 1984)). The D.C. Circuit explained that “ ‘the merits of the case should not, in an action brought in this
country upon the judgment, be tried afresh’ based
‘upon the mere assertion of the party that the judgment was erroneous in law or in fact,” id. provided:
there has been opportunity for a full and fair
trial abroad before a court of competent jurisdiction, conducting the trial upon regular
proceedings, after due citation or voluntary
appearance of the defendant, and under a system of jurisprudence likely to secure an impartial administration of justice between the
citizens of its own country and those of other
countries, and there is nothing to show either
prejudice in the court, or in the system of laws
under which it was sitting, or fraud in procuring the judgment, or any other special reason
why the comity of this nation should not allow
it full effect. . . .
Id. (quoting Hilton v. Guyot, 159 U.S. 113, 202-03 (1895)).

App. 78
Defendants first assert that international comity
requires the Court to defer to the decision of the Advisory Commission. In essence, Defendants’ argument
appears to be either that the Advisory Commission’s
decision is unreviewable or that Plaintiffs have failed
to sufficiently plead a basis for reviewing the Commission’s decision. Defendants have pointed to no authority that would preclude judicial review of a decision
made by a commission set up in accordance with the
non-binding, agreed upon Washington Principles, particularly in light of Plaintiffs’ uncontested assertion
that the parties are not bound by the Commission’s decision even if it recommends the return of the property
at issue. Here, Plaintiffs allege that the Commission’s
decision was not supported by the uncontested evidence presented by Plaintiffs and that the proceeding
itself was a “sham.” Compl. ¶¶ 3, 224-25. Indeed, Plaintiffs claim that:
[T]he Advisory Commission heard from five
experts who established the context surrounding the sale at issue by showing (i) the
actual market value of the collection in 1935;
11.6 Million RM; (ii) the law applicable to the
sale; (iii) the historical background which supports the claim that the sale in issue was coercive and made under duress—and certainly
cannot be characterized as one governed by
free will and free choice in an open market;
and (iv) the art dealers were the sole owners
of the collection.
Id. ¶ 224. Further, Plaintiffs contend that the Commission did not incorporate these uncontested findings

App. 79
into their recommendation and argue that “[i]gnoring
the experts entirely in an otherwise detailed opinion
undermines the credibility of the report by the Advisory Commission.” Id. ¶¶ 227-28. The Court finds that
these allegations along with the other allegations in
the complaint are sufficient to provide a plausible basis
for review. In reaching this holding, the Court simply
finds that Plaintiffs’ allegations as set forth in the complaint are sufficient to survive a motion to dismiss on
this issue. However, the Court expresses no other opinion regarding the validity or prudence of the Commission’s decision related the Welfenschatz.
Defendants next assert that Plaintiffs are required to exhaust their remedies in Germany before
bringing an action in this Court. The issue of whether
international comity requires a plaintiff to exhaust
remedies in a foreign state prior to bringing an action
under an exception to the FSIA has not been squarely
addressed by the D.C. Circuit. However, the United
States Court of Appeals for the Seventh Circuit (“Seventh Circuit”) expressly tackled the issue in Fischer v.
Magyar Allamvasutak Zrt., 777 F.3d 847 (7th Cir.
2015), cert. denied, ___ U.S. ___, 135 S. Ct. 2817 (2015).
In Fischer, the Seventh Circuit recognized that the text
of the FSIA’s expropriation exception does not include
an exhaustion requirement. Id. at 859. However, the
Seventh Circuit held that the defendants could invoke
“the well-established rule that exhaustion of domestic
remedies is preferred in international law as a matter
of comity.” Id. As such, the Fischer court required plaintiffs “to show either that they exhausted any available

App. 80
. . . remedies [in the foreign state] or that there was a
legally compelling reason to excuse such an effort.” Id.
In reaching this holding, the Fischer court relied primarily on an earlier Seventh Circuit opinion in Abelesz
v. Magyar Nemzeti Bank, 692 F.3d 661 (7th Cir. 2012),
and §§ 712 and 713 of the Restatement (Third) of the
Foreign Relations Law of the United States.
Given that the Seventh Circuit did not rely on any
binding precedent in this jurisdiction, the Court next
turns to precedent from the D.C. Circuit. In Chabad,
the D.C. Circuit addressed a district court’s holding
that a plaintiff was not required to exhaust remedies
in Russia before litigating the case in the United
States. Chabad, 528 F.3d at 948. The D.C. Circuit
opined this result was “likely correct,” but found that
the issue need not be reached on appeal because Russia identified plainly inadequate remedies. Id. Specifically, the D.C. Circuit noted that a different section of
the FSIA previously contained a local exhaustion requirement that required foreign states to be provided
the opportunity to arbitrate certain claims, but that
provision was repealed by Congress in 2008. Id. The
D.C. Circuit noted that although the exhaustion requirement was repealed, its original inclusion supported the inference that “Congress’s inclusion of a
provision in one section strengthens the inference that
its omission from a closely related section [here, the expropriation exception] must have been intentional.” Id.
at 948. The D.C. Circuit in Chabad, like the Seventh
Circuit in Fischer, also addressed the language of the

App. 81
Restatement (Third) of the Foreign Relations Law of
the United States, which provides:
Exhaustion of remedies. Under international
law, ordinarily a state is not required to consider a claim by another state for an injury to
its national until that person has exhausted
domestic remedies, unless such remedies are
clearly sham or inadequate, or their application is unreasonably prolonged.
Restatement § 713, cmt. f. The D.C. Circuit distinguished this provision from the facts of that case, noting that the Restatement addressed claims of one state
against another, or nation v. nation litigation. Chabad,
528 F.3d at 949. However, the FSIA’s expropriation exception involves the claims of an individual of one state
against another state and, as such, “there is no apparent reason for systematically preferring the courts of
the defendant state.”13 Id.
In Simon, the D.C. Circuit again touched on the issue. Specifically, the D.C. Circuit noted that the Seventh
Circuit in Fischer found persuasive the prudential exhaustion argument that “the court . . . should decline
to exercise jurisdiction as a matter of international
13

The D.C. Circuit also addressed Justice Stephen G.
Breyer’s concurrence in Republic of Austria v. Altmann, 541 U.S.
677 (2004). The D.C. Circuit characterized Justice Breyer’s argument regarding exhaustion as follows, “there simply is no unlawful taking if a state’s courts provide adequate postdeprivation
remedies.” Chabad, 528 F.3d at 949. However, the D.C. Circuit
suggested that this substantive theory advanced by Justice
Breyer would appear “to moot the argument from the language of
the FSIA and is independent of Restatement § 713.” Id.

App. 82
comity unless the plaintiffs first exhaust domestic
remedies (or demonstrate that they need not do so).”
Simon, 812 F.3d at 149. However, the D.C. Circuit declined to address the issue because it was not before
that Court on appeal. Id. Rather, the D.C. Circuit noted
that the district court on remand should consider the
issue if it is raised by the defendants. Id.
In de Csepel, another district judge in this jurisdiction, Judge Ellen Segal Huvelle, addressed the issue
of whether the court should decline to exercise jurisdiction as a matter of international comity unless
plaintiffs first exhausted their remedies in Hungary
or demonstrated that such efforts would be futile. de
Csepel III, 169 F. Supp. 3d at 169. After tracing the language of the Restatement and the D.C. Circuit’s discussion in Chabad, the de Csepel court noted that “both
international and domestic courts (including the D.C.
Circuit) have reasonably construed the prudential theory of exhaustion to be inapplicable to causes of action
brought by individuals and not states.” Id. at 169
(emphasis added). In light of that finding, the court respectfully declined to apply the Seventh Circuit’s holding in Fischer and rejected the defendants’ exhaustion
argument based on international comity. Id. However,
the de Csepel court stated in a footnote that even if the
court agreed with the Seventh Circuit’s application of
the exhaustion requirement based on international
comity, the court still found that the plaintiffs had adequately shown that efforts to seek a remedy in Hungary would have been futile. Id. at 169 n.15.

App. 83
Here, absent binding precedent from the D.C.
Circuit, the Court is persuaded by Judge Huvelle’s
analysis in de Csepel and is inclined to agree that the
prudential exhaustion requirement based on international comity is not applicable to cases, such as this
one, which are brought by individuals against the a foreign state. The Court further notes that even if it were
inclined to apply the prudential exhaustion requirement, it would decline to do so based on this record
without first affording the parties an opportunity to
provide further, targeted briefing on the adequacy of
available remedies in Germany.
C. Doctrine of Forum Non Conveniens
Finally, Defendants argue that the Court should
dismiss Plaintiffs’ claims based on the doctrine of forum non conveniens. Forum non conveniens is a discretionary doctrine that permits a federal court to
dismiss an action in favor of its resolution in a court of
foreign state. Sinochem Int’l Co. v. Malay. Int’l Shipping Corp., 549 U.S. 422, 429 (2007). “The forum non
conveniens analysis calls for the court to consider
‘(1) whether an adequate alternative forum for the dispute is available and, if so, (2) whether a balancing of
private and public interest factors strongly favors dismissal.’ ” de Csepel II, 714 F.3d at 605 (quoting Chabad,
528 F.3d at 950). Specifically, an action may be dismissed when there is an alternative forum available
and “ ‘trial in the chosen forum would establish . . . oppressiveness and vexation to a defendant . . . out of all
proportion to plaintiff ’s convenience, or . . . the chosen

App. 84
forum [is] inappropriate because of considerations affecting the court’s own administrative and legal problems.’ ” Sinochem, 549 U.S. at 429 (quoting American
Dredging Co. v. Miller, 510 U.S. 443, 447-48 (1994)).
“Dismissal for forum non conveniens reflects a court’s
assessment of a ‘range of considerations, most notably
the convenience to the parties and the practical difficulties that can attend the adjudication of a dispute in
a certain locality.’ ” Id. (quoting Quackenbush v. Allstate Ins. Co., 517 U.S. 706, 723 (1996)). Moreover, a defendant invoking the doctrine bears a heavy burden in
challenging a plaintiff ’s chosen forum. Id. at 430. However, “[w]hen the plaintiff ’s choice is not its home forum, . . . the presumption in the plaintiff ’s favor
‘applies with less force,’ for the assumption that the
chosen forum is appropriate is in such cases ‘less reasonable.’ ” Id. (quoting Piper Aircraft Co. v. Reyno, 454
U.S. 235, 255-56 (1981)). For the reasons described
herein, the Court shall not exercise its discretion to
dismiss Plaintiffs’ claims based on the doctrine of forum non conveniens.
1. Alternative Forum
Defendants contend that Germany is an available
and adequate forum for Plaintiffs to pursue their
claims. See generally Defs.’ Mot. at 53-55. Plaintiffs argue that Germany is not an adequate forum “because
of the inability of [P]laintiffs even to bring the claims,
Germany’s lack of coherent policy generally toward
victims of Nazi-looted art, and the unfair treatment
that Plaintiffs specifically have already suffered as a

App. 85
result of the Advisory Commission’s recommendation.”
Pls.’ Opp’n at 57.
The parties submitted competing opinions from
experts on the German legal system regarding the sufficiency of German courts as a forum to adjudicate
Plaintiffs’ claims in support of their respective positions. See generally Defs.’ Mot., Ex. A (Declaration of
Prof. Dr. Christian Armbrüster); Id. Ex. B (Declaration
of Prof. Dr. Jan Thiessen); Pls.’ Opp’n, Ex. 1 (Declaration of Prof. Dr. Stephan Meder); Defs.’ Reply, Ex. A
(Supp. Declaration of Prof. Dr. Jan Thiessen); Id. Ex. B
(Supp. Declaration of Prof. Dr. Christian Armbrüster).
Specifically, these expert opinions differ as to whether
Plaintiffs would be able to pursue their claims in German courts. See, e.g., Theissen Decl. at 15 (“German
courts would have jurisdiction over this lawsuit. There
are various legal provisions on which a plaintiff could
base a claim. Thus, the plaintiffs would not be excluded
from the outset with their claims as alleged in the First
Amended Complaint.”); Meder Decl. at 33 (“From my
point of view, and in consideration of the legal framework, the literature and the legal precendent [sic], the
matter of asserting and enforcing these claims in Germany before German courts must be at best affirmed
theoretically (in contrast to the assertion by Thiessen),
but is de facto excluded from a practical point of view.”);
Id. at 38 (“The plaintiffs Alan Philipp, Gerald Stiebel,
and Jed Leiber cannot pursue the claims asserted before the District of Columbia in Washington D.C. before
German courts.”).

App. 86
In the Court’s analysis under the forum non conveniens doctrine, the first step is to consider whether
there is an available forum before moving to the next
steps of the analysis. The Court has considered the
competing information regarding the availability of
causes of action for Plaintiffs if their claims were pursued in Germany. However, regardless of the adequacy
of Germany as a forum to adjudicate the claims at issue, which is disputed by the parties, the Court finds
that it would not exercise its discretion to dismiss the
claims under the forum non conveniens doctrine based
on the balance of the private and public interests at
play. As such, the Court shall not reach a decision on
this issue. The Court deems this course to be appropriate particularly because Defendants carry the burden
of demonstrating this requirement in support of dismissal. El-Fadl v. Central Bank of Jordan, 75 F.3d 668,
677 (D.C. Cir. 1996). In light of this decision, the Court
shall not address the parties’ arguments regarding the
application of the statute of limitations to Plaintiffs’
claims should they be raised in a German court and,
relatedly, Defendants’ concession that it would not
raise a statute of limitations defense if this Court required Plaintiffs to first pursue their claims in a German court.
2. Private Interests
The Supreme Court provided the following guidance when considering private interests in the forum
non conveniens analysis:

App. 87
Important considerations are the relative
ease of access to sources of proof; availability
of compulsory process for attendance of unwilling, and the cost of obtaining attendance
of willing, witnesses; possibility of view of
premises, if view would be appropriate to the
action; and all other practical problems that
make trial of a case easy, expeditious and inexpensive. There may also be questions as to
the enforceability of a judgment if one is obtained. The court will weigh relative advantages and obstacles to fair trial.
Gulf Oil Corp. v. Gilbert, 330 U.S. 501, 508 (1947), superseded on other grounds as recognized in Quackenbush, 517 U.S. at 722.
Defendants set forth three main arguments to
support their contention that private interest factors
strongly favor dismissal: (1) Plaintiffs’ claims center on
German-language documents located in German historical archives, many of which have not been digitized
and would require translation; (2) German law is likely
applicable because the relevant events occurred in
Germany and involved the German Government, German nationals, and German legal entities; and (3) this
Court’s judgement is potentially unenforceable in Germany without a separate action from a German court.
See generally Defs.’ Mot. at 55-61. In response, Plaintiffs contend that the factors identified by Defendants
do not balance strongly in favor of dismissal. Plaintiffs
also point to the fact that the District of Columbia is a
convenient forum for their witness Plaintiff Leiber’s
mother, who Plaintiffs assert has personal knowledge

App. 88
of the allegations in their Complaint, is of advanced
age, and lives in the United States.14 Pls.’ Opp’n at 6566. Moreover, Plaintiffs point out that two of the three
Plaintiffs in this case reside in the United States.
Plaintiffs also argue that the District of Columbia is
convenient for Defendant Germany because of the
presence of German diplomatic representatives in the
city and the proximity of the Embassy of the Federal
Republic of Germany. Id. at 66.
Here, the Court agrees that proceeding in this
Court rather than in Germany will place some additional burdens on the parties, namely requiring the
translation of certain German language documents.
However, as Plaintiffs point out, these documents
would likely need to be digitized regardless of the forum. Further, while this matter may require the Court
to consider issues of foreign law, this Court is capable
of considering such issues even though this factor
weighs in favor of having the case heard in Germany.
Finally, to the extent that Defendants who are the German Government and its instrumentality that currently has possession of the objects at issue raises the
issue of the enforceability of this Court’s judgment, the
Court shall not consider this as a factor that weighing
14

In their reply, Defendants argue that Plaintiff Leiber’s
mother would only have been seven or eight years old at the time
that the Consortium sold the Welfenschatz. Defs.’ Reply at 29.
Plaintiffs have not been specific as to the nature of this witness’
potential testimony. However, the witness may be available to offer testimony not specifically regarding the discussions leading to
the transaction but rather about the effects of the transaction on
their lives including the access to funds.

App. 89
in favor of dismissal. TMR Energy Ltd. v. State Prop.
Fund of Ukr., 411 F.3d 296, 303 (D.C. Cir. 2005). To do
so would allow a defendant to overcome a plaintiff ’s
choice of forum based on a defendant’s own assertion
that it may not adhere to a judgment entered in that
forum even if that forum otherwise has jurisdiction (as
here, under the FSIA). Further, to the extent that further steps are required to enforce a judgment of this
Court, Plaintiffs, who chose to file suit in this Court,
are the party that would be required to take those additional steps. As such, the Court finds the balance of
these private interest factors weigh slightly, but not
heavily, in favor of Defendants’ request.
3. Public Interests
The D.C. Circuit has identified three factors for
a court to weigh when conducting a public interests
analysis:
first, that courts may validly protect their
dockets from cases which arise within their
jurisdiction, but which lack significant connection to it; second, that courts may legitimately encourage trial of controversies in the
localities in which they arise; and third, that
a court may validly consider its familiarity
with governing law when deciding whether or
not to retain jurisdiction over a case.
Pain v. United Technologies Corp., 637 F.2d 775, 791792 (D.C. Cir. 1980), cert. denied, 454 U.S. 1128 (1981).

App. 90
Defendants assert this suit lacks significant connections to the District of Columbia and Germany has
an interest in litigating this case in its courts because
the claims arose there. Defs.’ Mot. at 62-63. Further,
Defendants argue that Germany has a particular interest in this case because it has “powerful interest[s]
in remedying the crimes of the Nazi government[,] . . .
in providing compensation and restitution of Nazilooted art to victims of Nazi persecution,” id. at 63, and
in having a German court resolve the issue of the ownership of the Welfenschatz which currently is displayed in a German museum and any damages related
thereto, id. at 65. Finally, Defendants assert that
choice-of-law issues favor litigation in Germany because this action may require the Court to apply areas
of German law which are open and/or unfamiliar to the
Court and which present a language barrier to this
Court.
Plaintiffs counter these arguments by asserting
that “federal courts in the United States have expressed a strong interest in providing a forum for the
resolution of Holocaust-era claims.” Pls.’ Opp’n at 67.
Moreover, Plaintiffs note that the District of Columbia
has been designated by Congress as the proper venue
for claims brought against foreign states under the
FSIA. See 28 U.S.C. § 1391(f )(4). Further, Plaintiffs
point out that this Court is regularly called upon to address issues of foreign legal concepts in cases. Plaintiffs also note that the majority of German law at issue
in this case is historical law which would require the

App. 91
use of historical legal experts regardless of the forum.
Pls.’ Opp’n at 67-68.
Here, the Court finds the balance of the public interests are in equipoise. The Court recognizes Germany’s interest in adjudicating claims like the ones in
the instant action. However, “ ‘there is a public interest
in resolving issues of significant impact in a more central forum, such as this one.’ ” de Csepel v. Republic of
Hung. (de Csepel I), 808 F. Supp. 2d 113, 139 (D.D.C.
2011) (quoting Agudas Chasidei Chabad v. Russian
Fed’n, 466 F. Supp. 2d 6, 29-30 (D.D.C. 2006)).
4.

Balance of Interests

The parties dispute the degree of deference that
the Court should afford Plaintiffs’ choice of forum.
While Defendants acknowledge that Plaintiffs’ choice
to proceed in this Court enjoys some deference, Defendants argue that the Court should grant Plaintiffs little deference because the lack of significant contacts
between the events and this forum “suggests that
[P]laintiffs’ choice of forum was motivated by tactical
considerations, such as a desire to avoid Germany’s
fee-shifting rules or to force the defendants to litigate
the case in a much more costly forum.” Defs.’ Mot. at
67. Plaintiffs argue that their choice of forum is entitled to strong deference because two of the three Plaintiffs are U.S. citizens who currently reside in the
United States, and note that the analysis should be unaffected by the fact that Plaintiffs do not live in the
District of Columbia because any federal court in this

App. 92
country may be considered their “home forum.” Pls.’
Opp’n at 60-61. Plaintiffs further assert that they are
not engaged in forum shopping and instead selected
this Court because Defendant SPK is engaged in commercial activity in the District pursuant to 28 U.S.C.
§ 1391(f )(3) and because this District is the proper forum to bring claims against Defendant Germany pursuant to § 1391(f )(4). The Court agrees with Plaintiffs
that their selection of this forum to adjudicate their
claims is entitled to deference. Indeed, the Court finds
no support for Defendants’ claim that Plaintiffs engaged in forum shopping when they brought their
claims in the home forum of two of the three Plaintiffs
and, as such, the Court shall not diminish the degree
of deference that it applies to Plaintiffs’ choice of forum
based on this argument. Here, the Court finds that the
balance of public and private interests does not overcome that presumption in favor of Plaintiffs’ choice of
forum. As such, the Court shall decline to exercise its
discretion to dismiss Plaintiffs’ claims under the doctrine of forum non conveniens.
IV.

CONCLUSION

For the foregoing reasons, the Court GRANTS
Defendants’ request that the Court dismiss five nonproperty based claims because Defendants are entitled
to sovereign immunity on the following claims: fraud
in the inducement (Count V); breach of fiduciary duty
(Count VI); breach of the covenant of good faith and fair
dealing (Count VII); civil conspiracy (Count VIII); and
tortious interference (Count X). The Court DENIES

App. 93
Defendants’ request for dismissal on the remaining
five claims: declaratory relief (Count I); replevin (Count
II); conversion (Count III); unjust enrichment (Count
IV); and bailment (Count IX). Specifically, the Court
finds that Plaintiffs have sufficiently pled these five
claims under the expropriation exception to the FSIA
pursuant to 28 U.S.C. § 1605(a)(3). The Court further
finds that these five claims are not preempted or nonjusticiable, nor should they be dismissed under the
doctrine of forum non conveniens.
An appropriate Order accompanies this Memorandum Opinion.
/s/
COLLEEN KOLLAR-KOTELLY
United States District Judge

App. 94
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
ALAN PHILIPP, et al.,
Plaintiffs,
v.
FEDERAL REPUBLIC OF
GERMANY, et al..,

Civil Action
No. 15-266 (CKK)

Defendants.
ORDER
(March 31, 2017)
For the reasons stated in the accompanying Memorandum Opinion, it is, this 31st day of March, 2017,
hereby
ORDERED that Defendants’ [18] Motion to Dismiss the First Amended Complaint is GRANTED IN
PART and DENIED IN PART; and it is further
ORDERED that the Defendants’ Motion is
GRANTED in that Plaintiffs’ fraud in the inducement
(Count V), breach of fiduciary duty (Count VI), breach
of the covenant of good faith and fair dealing (Count
VII), civil conspiracy (Count VIII), and tortious interference (Count X) claims are DISMISSED as conceded
based on Plaintiffs’ failure to respond to the argument
that these claims do not involve rights in property; and
it is further

App. 95
ORDERED that the Defendants’ motion is DENIED in all other respects; and it is further
ORDERED that Defendants shall file their Answer to the remaining claims in Plaintiffs’ First
Amended Complaint by no later than April 21, 2017.
IT IS SO ORDERED.
/s/
COLLEEN KOLLAR-KOTELLY
United States District Judge

App. 96
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

-----------------------------------------------------------------------

Filed On: June 18, 2019
No. 17-7064
ALAN PHILIPP, ET AL.,
APPELLEES
v.
FEDERAL REPUBLIC OF GERMANY, A FOREIGN STATE
AND STIFTUNG PREUSSISCHER KULTURBESITZ,
APPELLANTS
-----------------------------------------------------------------------

Consolidated with 17-7117
-----------------------------------------------------------------------

Appeals from the United States District Court
for the District of Columbia
(No. 1:15-cv-00266)
-----------------------------------------------------------------------

On Petition for Rehearing En Banc
-----------------------------------------------------------------------

Before: GARLAND, Chief Judge; HENDERSON, ROGERS,
TATEL, GRIFFITH, SRINIVASAN, MILLETT, PILLARD, WILKINS,
KATSAS**, and RAO*, Circuit Judges.

* Circuit Judge Rao did not participate in this matter
** A statement by Circuit Judge Katsas, dissenting from the
denial of rehearing en banc, is attached.

App. 97
ORDER
Appellants’ petition for rehearing en banc, the response thereto, and the amicus curiae brief in support
of rehearing en banc were circulated to the full court,
and a vote was requested. Thereafter, a majority of the
judges eligible to participate did not vote in favor of the
petition. Upon consideration of the foregoing, it is
ORDERED that the petition be denied.
Per Curiam

BY:

FOR THE COURT:
Mark J. Langer, Clerk
/s/
Ken R. Meadows
Deputy Clerk

KATSAS, Circuit Judge, dissenting from the denial
of rehearing en banc:
The panel decision in this case, together with Simon v. Republic of Hungary, 812 F.3d 127 (D.C. Cir.
2016) (Simon I), and Simon v. Republic of Hungary,
911 F.3d 1172 (D.C. Cir. 2018) (Simon II), makes the
district court sit as a war crimes tribunal to adjudicate
claims of genocide arising in Europe during World War
II. The basis for these decisions is not any federal statute authorizing a private right of action for victims of
foreign genocide, nor even any statute punishing foreign genocide under United States law. Rather, these
decisions rest on a statute abrogating the jurisdictional immunity of foreign sovereigns from claims for

App. 98
unlawful takings of property. As a result, the district
court must hear genocide claims against foreign sovereigns, but only to determine whether it has subjectmatter jurisdiction over common-law tort claims for
conversion and the like. Moreover, the plaintiffs bringing these genocide-based takings claims may recover
neither for killings nor even for personal injuries, but
only for the loss of their property. And the district court
must adjudicate these claims—and thus effectively determine the scope of a genocide—without first affording the foreign sovereign an opportunity to provide
redress, whether for genocide or conversion.
Before allowing this remarkable scheme to proceed further, we should reconsider it en banc. In this
case, Philipp v. Federal Republic of Germany, 894 F.3d
406 (D.C. Cir. 2018), and in Simon II, we rejected any
defense of exhaustion or comity-based abstention for
claims under the Foreign Sovereign Immunities Act
(FSIA). These decisions create a clear split with the
Seventh Circuit, are in tension with decisions from the
Ninth and Eleventh Circuits, disregard the views of
the Executive Branch on a matter of obvious foreignpolicy sensitivity, and make the FSIA more amenable
to human-rights litigation against foreign sovereigns
than the Alien Tort Statute (ATS) is to human-rights
litigation against private defendants abetting the sovereigns. Moreover, they clear the way for a wide range
of litigation against foreign sovereigns for public acts
committed within their own territories. This includes
claims not only for genocide, but also for the violation
of most other norms of international human-rights law.

App. 99
The consequences of Simon I and its progeny are thus
dramatic, while their foundations are shaky.
I
The FSIA provides that “a foreign state shall be
immune from the jurisdiction of the courts of the
United States and of the States except as provided” in
the FSIA itself. 28 U.S.C. § 1604. It then provides that
a “foreign state shall not be immune from the jurisdiction of courts of the United States or of the States”
when certain exceptions apply. Id. § 1605. The exception at issue here, commonly called the “expropriation
exception,” applies to any case
in which rights in property taken in violation
of international law are in issue and that
property or any property exchanged for such
property is present in the United States in
connection with a commercial activity carried
on in the United States by the foreign state;
or that property or any property exchanged
for such property is owned or operated by an
agency or instrumentality of the foreign state
and that agency or instrumentality is engaged in a commercial activity in the United
States.
Id. § 1605(a)(3).
In Simon I, this Court held that the expropriation
exception covers property taken as part of a genocide.
We reasoned that genocide includes deliberately inflicting on a protected group “conditions of life

App. 100
calculated to bring about its physical destruction.” 812
F.3d at 143 (quotation marks omitted). We held that
the complaint at issue, which described the experience
of Jews in Hungary between 1941 and 1944, adequately alleged “the requisite genocidal acts and intent,” including a “systematic, ‘wholesale plunder of
Jewish property’ ” that “aimed to deprive Hungarian
Jews of the resources needed to survive as a people.”
Id. at 143–44 (citation omitted). We recognized that the
international law of expropriation applies only to takings by one sovereign of property owned by nationals
of another. Id. at 144. But we distinguished the prohibition against genocide, which encompasses acts committed by a sovereign “against its own nationals.” Id.
at 145. We also acknowledged that, for genocide-based
expropriation claims, the jurisdictional and merits inquiries diverge: Genocide must be established to create
subject-matter jurisdiction, but the merits involve
“garden-variety common-law causes of action such as
conversion, unjust enrichment, and restitution.” Id. at
141. As to damages, we noted that another FSIA exception covers claims “for personal injury or death,” but
only for losses “occurring in the United States.” 28
U.S.C. § 1605(a)(5). So, we construed the expropriation
exception to permit plaintiffs claiming genocide to
“seek compensation for taken property but not for
taken lives.” 812 F.3d at 146 (quotation marks omitted).
In Philipp and Simon II, this Court rejected exhaustion, abstention, and forum non conveniens defenses to the genocide-based expropriation claims

App. 101
recognized in Simon I. In Philipp, the panel held that
the FSIA, by comprehensively codifying rules for foreign sovereign immunity, foreclosed any requirement
that plaintiffs exhaust remedies available in the courts
of the defendant sovereign. 894 F.3d at 414–16. Simon
II reaffirmed that holding. There, we stated that, unlike other common-law defenses preserved by the
FSIA, exhaustion “lacks any pedigree in domestic or
international common law.” 911 F.3d at 1181. We further reasoned that, if an exhaustion requirement
would preclude the plaintiffs from returning to federal
court (as would a comity-based abstention requirement), that would only make exhaustion more like immunity. Id. at 1180. Then, we held that the district
court abused its discretion in dismissing the claims on
forum non conveniens grounds, even though they involved acts perpetrated by the Hungarian government
against Hungarian nationals in Hungary. Id. at 1181–
90.
II
A
The expropriation exception applies to claims for
“property taken in violation of international law.” 28
U.S.C. § 1605(a)(3). Simon I held that this provision encompasses property taken in violation of the international-law prohibition against genocide. In my
judgment, it encompasses only property taken in violation of international takings law. The literal language could bear either meaning, but statutes must be

App. 102
construed in context. See, e.g., Nat’l Ass’n of Home
Builders v. Defs. of Wildlife, 551 U.S. 644, 666 (2007).
Here, several contextual considerations support the
narrower reading.
To begin, genocide is not about the taking of property. Rather, it involves the attempted extermination
of a national, ethnic, racial, or religious group. A
United Nations convention defines genocide as:
any of the following acts committed with intent to destroy, in whole or in part, a national,
ethnical, racial, or religious group, as such: (a)
Killing members of the group; (b) Causing serious bodily or mental harm to members of the
group; (c) Deliberately inflicting on the group
conditions of life calculated to bring about its
physical destruction in whole or in part.
Convention on the Prevention and Punishment of the
Crime of Genocide art. 2, Dec. 9, 1948, 78 U.N.T.S. 277.
Simon I reasoned that takings may have a genocidal
intent, and thus meet the last prong of this definition.
812 F.3d at 143–44. But they still must be intended to
cause the “physical destruction” of a group—what matters is the attempted mass murder. And if genocide involves attempted mass murder, a provision keyed to
“property taken” would be a remarkably elliptical way
of addressing it. See, e.g., Whitman v. Am. Trucking
Ass’ns, 531 U.S. 457, 468 (2001).
It would be even stranger for Congress to address
genocide as exclusively a property offense. The FSIA’s
expropriation exception encompasses only claims for

App. 103
“property,” 28 U.S.C. § 1605(a)(3), whereas its separate
tort exception, which encompasses claims “for personal
injury or death,” covers only harms “occurring in the
United States,” id. § 1605(a)(5). So, Simon I approved
an exceedingly odd type of genocide claim—one for
property harms but not for personal injury or death.
Moreover, the expropriation exception requires a connection between the property taken and commercial
activity in the United States: the property or its proceeds must either be “present in the United States in
connection with a commercial activity carried on in the
United States by the foreign state,” or “owned or operated by an agency or instrumentality of the foreign
state” that is itself “engaged in a commercial activity
in the United States.” Id. § 1605(a)(3). These requirements would make little sense in a provision addressed
to human-rights abuses such as genocide, rather than
to purely economic wrongdoing.
As strange is the mismatch between jurisdiction
and merits. Simon I requires proof of genocide to abrogate sovereign immunity—which must be determined at the outset. See Bolivarian Republic of
Venezuela v. Helmerich & Payne Int’l Drilling Co., 137
S. Ct. 1312, 1318–24 (2017). But abrogating immunity
does not create a private right of action, Cicippio-Puleo
v. Islamic Republic of Iran, 353 F.3d 1024, 1033 (D.C.
Cir. 2004), and there is no common-law right of action
for genocide. Instead, the merits here involve “ ‘garden-variety common-law’ claims,” such as “replevin,
conversion, unjust enrichment, and bailment.” Philipp,
894 F.3d at 410–11 (citation omitted); see also Simon

App. 104
I, 812 F.3d at 141. This scheme oddly matches the
jurisdictional equivalent of a thermonuclear weapon
(determining the scope of a genocide) to the merits
equivalent of swatting a fly (determining whether
there was a common-law conversion). And it is in
marked contrast to the FSIA’s terrorism exception,
which applies to claims for various specified acts, 28
U.S.C. § 1605A(a)(1), and which creates a cause of action for those acts, id. § 1605A(c).
Broader statutory context creates further difficulties. The FSIA’s other primary exceptions are narrow
ones covering waiver, commercial activity in the
United States, rights to property in the United States,
torts causing injury in the United States, and arbitration. 28 U.S.C. § 1605(a)(1)–(6). The Supreme Court
has described these exceptions as collectively codifying
the pre-FSIA “restrictive” theory of foreign sovereign
immunity, which covers a sovereign’s “public acts” but
not its commercial ones. See Helmerich & Payne, 137
S. Ct. at 1320–21; Verlinden B.V. v. Cent. Bank of Nigeria, 461 U.S. 480, 486–89 (1983). In a case specifically
involving the expropriation exception, the Court
“found nothing in the history of the statute that suggests Congress intended a radical departure from
these basic principles.” Helmerich & Payne, 137 S. Ct.
at 1320. Abrogating immunity for public acts committed by a foreign sovereign against its own nationals
within its own territory would be just such a radical
departure.
The international law of foreign sovereign immunity cuts in the same direction. Here is its “Basic Rule”:

App. 105
“Under international law, a state or state instrumentality is immune from the jurisdiction of the courts of
another state, except with respect to claims arising out
of activities of the kind that may be carried on by private persons.” Restatement (Third) of the Foreign Relations Law of the United States § 451 (1987) (Third
Restatement). Like the FSIA, international law provides narrow exceptions to immunity for claims arising
out of commercial activity, id. § 453(1); torts causing
injuries within the forum state, id. § 454(1); property
claims involving commercial activities, gifts, or immovable property in the forum state, id. § 455(1); and
waiver, id. § 456(1). None of these exceptions covers the
genocide-based takings claims recognized in Simon I.
So, Simon I construes the FSIA to conflict with international law—which is to be avoided if possible. See
Murray v. Schooner Charming Betsy, 6 U.S. (2 Cranch)
64, 118 (1804). Of course, none of this suggests that
genocide or other violations of international humanrights law should go unremedied; but such violations
typically are addressed either through diplomacy or in
international tribunals, rather than in the domestic
tribunals of another sovereign. See Third Restatement
§ 906 & cmt. b.
Consistent with these principles, the courts have
rejected attempts to shoehorn modern human-rights
law into the FSIA exceptions. For example, in Saudi
Arabia v. Nelson, 507 U.S. 349 (1993), the Supreme
Court held that the commercial-activity exception did
not cover claims that Saudi Arabia illegally detained
and tortured a United States citizen employed by a

App. 106
Saudi government hospital. The Court construed the
exception to track the restrictive theory of sovereign
immunity:
[T]he intentional conduct alleged here (the
Saudi Government’s wrongful arrest, imprisonment, and torture of Nelson) could not qualify as commercial under the restrictive theory.
The conduct boils down to abuse of the power
of its police by the Saudi Government, and
however monstrous such abuse undoubtedly
may be, a foreign state’s exercise of the power
of its police has long been understood for purposes of the restrictive theory as peculiarly
sovereign in nature.
Id. at 361. In Princz v. Federal Republic of Germany,
26 F.3d 1166 (D.C. Cir. 1994), we likewise construed the
FSIA’s waiver exception, which includes waivers “by
implication,” 28 U.S.C. § 1605(a)(1), to track the restrictive theory. We held that Germany did not impliedly waive its foreign sovereign immunity by using
slave labor during the Nazi era. 26 F.3d at 1173. And
we did so despite recognizing that slavery—like genocide—violates a jus cogens norm of international human-rights law, i.e., “a norm from which no derogation
is permitted.” Id. (quotation marks omitted).
The only deviation from this pattern is the FSIA’s
terrorism exception, which covers a significant class
of cases involving the public acts of a foreign sovereign.
But the differences between the terrorism and expropriation exceptions are striking: The terrorism exception meticulously describes and limits the possible

App. 107
plaintiffs (United States nationals, members of the
United States armed forces, and United States employees or contractors), 28 U.S.C. § 1605A(a)(2)(A)(ii);
the possible defendants (generally, foreign states
formally designated as sponsors of terrorism), id.
§ 1605A(a)(2)(A)(i); the acts triggering the exception
(“torture, extrajudicial killing, aircraft sabotage, hostage taking, or the provision of material support or
resources for such an act”), id. § 1605A(a)(1); the associated private cause of action (covering the same
parties and acts), id. § 1605A(c); and the damages
available (for personal injury, death, or foreseeable
property loss), id. § 1605A(a)(1), (d). This carefully reticulated framework is far different from a provision
keyed only to “property taken in violation of international law.” Id. § 1605(a)(3).
B
The grave consequences of Simon I bear not only
on its correctness, but also on the appropriateness of
en banc review.
Most obviously, Simon I requires federal courts to
determine the scope of genocide committed by various
foreign countries during World War II. We suggested
that this determination may sometimes be straightforward—as in the case of Hungarian Jews in the early
1940s. See 812 F.3d at 142–44. Even so, each individual
plaintiff must prove not only that there was a genocide,
but also that he or she (or a decedent) was subjected to
a genocidal taking. Sometimes, this will be far from

App. 108
clear. For example, the Philipp panel concluded that a
coerced sale of art in 1935, for “barely 35% of its actual
value,” could be an act of genocide. 894 F.3d at 409,
413–14 (quotation marks omitted). Germany objected
that the plaintiffs’ theory would transform into genocide any “ ‘transaction from 1933–45 between’ a Naziallied government and ‘an individual from a group that
suffered Nazi persecution.’ ” Id. at 414. The panel envisioned something only slightly less concerning—caseby-case adjudications of which commercial transactions were sufficiently coercive, unfair, and improperly
motivated to be genocide. Id. Such claims could be
made against a number of European nations. See, e.g.,
Republic of Austria v. Altmann, 541 U.S. 677 (2004);
Cassirer v. Kingdom of Spain, 616 F.3d 1019 (9th Cir.
2010) (en banc); Alperin v. Vatican Bank, 410 F.3d 532
(9th Cir. 2005); Freund v. Republic of France, 592
F. Supp. 2d 540 (S.D.N.Y. 2008). And they would create
massive exposure. For example, in a case that, like Simon, involved Jews who lost property in the Hungarian Holocaust, the damages sought were some $75
billion—“nearly 40 percent of Hungary’s annual gross
domestic product in 2011.” Abelesz v. Magyar Nemzeti
Bank, 692 F.3d 661, 682 (7th Cir. 2012).
Moreover, the reasoning of Simon I cannot be limited to genocide. International law sharply distinguishes between the law of expropriation, which
restricts only the takings by one sovereign of property
belonging to the nationals of another, see Third Restatement § 712, and human-rights law, which now

App. 109
governs one sovereign’s treatment of its own nationals
within its own borders, id. § 701. Under the latter,
A state violates international law if, as a matter of state policy, it practices, encourages, or
condones (a) genocide, (b) slavery or slave
trade, (c) the murder or causing the disappearance of individuals, (d) torture or other
cruel, inhuman, or degrading treatment or
punishment, (e) prolonged arbitrary detention, (f ) systematic racial discrimination, or
(g) a consistent pattern of gross violations of
internationally recognized human rights.
Id. § 702. The first six of these seven categories are jus
cogens norms—the most serious ones, which are binding even in the face of an international agreement to
the contrary. Id. cmt. n. Most of them—including not
only genocide, but also slavery, murder, degrading
treatment, and systemic racial discrimination—can involve harms to property. Under the reasoning of Simon
I, all of these could be the subject of litigation through
the expropriation exception.
To appreciate the gravity of this, consider if the
shoe were on the other foot. Imagine the United States’
reaction if a European trial court undertook to adjudicate a claim for tens of billions of dollars for property
losses suffered by a class of American victims of slavery or systemic racial discrimination. Yet that is a precise mirror image of Simon. Given the stakes, what we
once said about the waiver exception rings true here:
We think that something more nearly express
is wanted before we impute to the Congress

App. 110
an intention that the federal courts assume
jurisdiction over the countless human rights
cases that might well be brought by the victims of all the ruthless military juntas, presidents-for-life, and murderous dictators of the
world, from Idi Amin to Mao Zedong. Such an
expansive reading of § 1605(a)(1) would likely
place an enormous strain not only upon our
courts but, more to the immediate point, upon
our country’s diplomatic relations with any
number of foreign nations. In many if not
most cases the outlaw regime would no longer
even be in power and our Government could
have normal relations with the government of
the day—unless disrupted by our courts, that
is.
Princz, 26 F.3d at 1175 n.1.
III
Philipp and Simon II magnify the concerns about
Simon I and come with their own analytical difficulties.
A
On the merits, Philipp and Simon II held that the
FSIA forecloses any exhaustion or comity-based abstention defense. 894 F.3d at 414–16; 911 F.3d at 1180–
81. But far from foreclosing these defenses, the FSIA
affirmatively accommodates them. It provides that, for
any claim falling within an immunity exception, “the
foreign state shall be liable in the same manner and to

App. 111
the same extent as a private individual under like circumstances.” 28 U.S.C. § 1606. A “private individual”
under “like circumstances” would be one facing claims
for aiding and abetting violations of international human-rights law. Such claims would be brought under
the ATS, which provides that “[t]he district courts shall
have original jurisdiction of any civil action by an alien
for a tort only, committed in violation of the law of nations or a treaty of the United States.” 28 U.S.C. § 1350.
Another like circumstance might involve private individuals sued for wrongful death, battery, or conversion.
In either instance, exhaustion and abstention defenses
would likely be available.
The Supreme Court has at least hinted that an
ATS plaintiff must exhaust local remedies before litigating an international-law tort claim in federal district court. In Sosa v. Alvarez-Machain, 542 U.S. 692
(2004), the Court explained:
the European Commission argues . . . that
basic principles of international law require
that before asserting a claim in a foreign forum, the claimant must have exhausted any
remedies available in the domestic legal system, and perhaps in other forums such as international claims tribunals. We would
certainly consider this requirement in an appropriate case.
Id. at 733 n.21 (citations omitted). Four justices have
embraced exhaustion more definitively—without provoking any disagreement. See Jesner v. Arab Bank,
PLC, 138 S. Ct. 1386, 1430–31 (2018) (Sotomayor, J.,

App. 112
dissenting); Kiobel v. Royal Dutch Petroleum Co., 569
U.S. 108, 133 (2013) (Breyer, J., concurring in the judgment). The Ninth Circuit has held that exhaustion is
required in ATS cases if local remedies are adequate.
See Sarei v. Rio Tinto, PLC, 550 F.3d 822, 828–32 (9th
Cir. 2008) (en banc) (plurality opinion); id. at 833–37
(Bea, J., concurring); id. at 840–41 (Kleinfeld, J., concurring).
Private defendants also may seek comity-based
abstention. For example, Mujica v. AirScan, Inc., 771
F.3d 580 (9th Cir. 2014), involved ATS and state-law
claims against defendants alleged to have abetted the
bombing of a Colombian village by the Colombian government. See id. at 584. After dismissing the ATS
claims as impermissibly extraterritorial, the Ninth
Circuit dismissed the state-law claims “based on the
doctrine of international comity.” Id. at 596–97. As the
court explained, “[i]nternational comity is a doctrine of
prudential abstention, one that ‘counsels voluntary forbearance when a sovereign which has a legitimate
claim to jurisdiction concludes that a second sovereign
also has a legitimate claim to jurisdiction under principles of international law.’ ” Id. at 598 (citation omitted). Likewise, in Ungaro-Benages v. Dresdner Bank
AG, 379 F.3d 1227 (11th Cir. 2004), the Eleventh Circuit dismissed on comity-based abstention grounds a
claim by an American citizen that two German banks,
during the 1930s and early 1940s, had stolen her family property “through the Nazi Regime’s program of ‘Aryanization.’ ” Id. at 1229, 1237–40. Comity interests
are heightened where, as here, the claims “arise from

App. 113
events of historical and political significance” to the
foreign sovereign. Republic of Philippines v. Pimentel,
553 U.S. 851, 866 (2008). Like exhaustion, comitybased abstention presupposes an adequate forum in
the offending country. See, e.g., Mujica, 771 F.3d at
603–04. But Philipp and Simon II rejected exhaustion
and abstention defenses as categorically unavailable
in FSIA cases, not on the narrower ground that fora in
Germany and Hungary were inadequate.
The Philipp panel reasoned that because the FSIA
comprehensively sets forth immunity defenses, Republic of Argentina v. NML Capital, Ltd., 573 U.S. 134,
141–42 (2014), but does not expressly provide for exhaustion or abstention defenses, it must implicitly
have foreclosed those defenses. 894 F.3d at 415–16. But
foreign sovereign immunity—which eliminates subject-matter jurisdiction—is distinct from non-jurisdictional defenses such as exhaustion and abstention. As
shown above, these defenses are available to private
defendants no less than to foreign sovereigns. In that
critical respect, the defenses are less akin to immunity
than to generally applicable, judge-made defenses such
as forum non conveniens, the act-of-state doctrine, and
the political-question doctrine—none of which is mentioned in the text of the FSIA, but all of which survived
its enactment. See, e.g., Agudas Chasidei Chabad v.
Russian Federation, 528 F.3d 934, 951 (D.C. Cir. 2008);
Hwang Geum Joo v. Japan, 413 F.3d 45, 48 (D.C. Cir.
2005). Exhaustion and abstention are also different
from arbitration. So, the inclusion of an arbitration requirement in the terrorism exception, 28 U.S.C.

App. 114
§ 1605A(a)(2)(A)(iii); see Philipp, 894 F.3d at 415, says
nothing about exhaustion or abstention.
Simon II further reasoned that exhaustion “lacks
any pedigree in domestic or international common
law.” 911 F.3d at 1181. But international law requires
an individual “claiming to be a victim of a human
rights violation” to “exhaust[ ] available remedies under the domestic law of the accused state” before
another state may espouse his claim. See Third Restatement § 703 cmt. d. Likewise, individual victims
generally have international remedies only as provided by agreement, see id. cmt. c, and international
agreements “also generally require that the individual
first exhaust domestic remedies,” id. cmt. d. To be sure,
the Third Restatement does not expressly apply the
same rule to instances where the victim seeks redress
in the courts of a foreign sovereign. See Philipp, 894
F.3d at 416. But the drafters would have had no occasion to address exhaustion in that specific circumstance, given the overwhelming likelihood that, under
international standards, sovereign immunity would
have barred the claims. See Third Restatement §§ 451–
56. Moreover, the logic for requiring exhaustion is even
stronger in the context of actions filed in domestic
courts; “if exhaustion is considered essential to the
smooth operation of international tribunals whose jurisdiction is established only through explicit consent
from other sovereigns, then it is all the more significant in the absence of such explicit consent to jurisdiction.” Sarei, 550 F.3d at 830 (plurality opinion). As for
domestic exhaustion rules, federal courts have crafted

App. 115
them for over a century, out of respect for other sovereigns such as states or Indian tribes. See, e.g., Iowa
Mut. Ins. Co. v. LaPlante, 480 U.S. 9, 14–15 (1987); Ex
parte Royall, 117 U.S. 241, 251 (1886).
Finally, Simon II reasoned that exhaustion might,
by operation of res judicata, bar plaintiffs from ever
bringing claims in the United States. 911 F.3d at 1180.
That is not necessarily true, at least if the plaintiff reserves the right to litigate international claims in the
United States after pursuing domestic tort claims elsewhere. Cf. England v. La. State Bd. of Med. Exam’rs,
375 U.S. 411, 413–19 (1964). In any event, there is
nothing anomalous with exhaustion triggering preclusion. See, e.g., Iowa Mut., 480 U.S. at 19. Moreover, the
same objection would apply to exhaustion under the
ATS, yet the Ninth Circuit still adopted it. Comitybased abstention does prevent a plaintiff from litigating in a United States forum, yet the courts have applied it to cases involving private defendants facing
foreign-centered human-rights claims. The FSIA
makes the same defenses also available to foreign sovereigns.
B
Philipp and Simon II warrant rehearing en banc
for several reasons. First, they create a circuit split on
a sensitive foreign-policy question. The Seventh Circuit has required Hungarian Holocaust survivors to
exhaust remedies in Hungary before seeking to litigate
under the FSIA’s expropriation exception. Fischer v.

App. 116
Magyar Államvasutak Zrt., 777 F.3d 847, 856–66 (7th
Cir. 2015); Abelesz, 692 F.3d at 678–85. After describing
the nearly existential threat of a $75 billion lawsuit,
the Seventh Circuit held that “Hungary, a modern republic and member of the European Union, deserves a
chance to address these claims.” Abelesz, 692 F.3d at
682. The Philipp panel acknowledged creating a circuit
split. 894 F.3d at 416.
Second, Philipp rejected the position advanced by
the United States. See 894 F.3d at 416. In Simon II, the
United States argued at length that “[d]ismissal on international comity grounds” was consistent with the
FSIA and “can play a critical role in ensuring that litigation in U.S. courts does not conflict with or cause
harm to the foreign policy of the United States.” Br. for
Amicus Curiae United States at 14–15, Simon v. Republic of Hungary (No. 17-7146); see also id. at 14–24.
The United States again took the same position in supporting rehearing en banc in Philipp. Br. for United
States as Amicus Curiae in Support of Rehearing En
Banc at 3–14. Given the Executive Branch’s “vast
share of responsibility for the conduct of our foreign
relations,” Am. Ins. Ass’n v. Garamendi, 539 U.S. 396,
414 (2003) (quotation marks omitted), we should consider its views on this issue with special care.
Third, by eliminating various defenses, these decisions heighten concern about Simon I. Two important defenses—exhaustion and abstention—are
now foreclosed. And if it was an abuse of discretion to
dismiss on forum non conveniens grounds the foreigncubed claims in Simon II, see 911 F.3d at 1182, then

App. 117
few of these human-rights cases will qualify for that
defense. Other possible doctrines for limiting the expropriation exception, see Altmann, 541 U.S. at 713
(Breyer, J., concurring), are also unlikely to have much
effect: Personal jurisdiction requirements do not apply
to foreign sovereigns. Price v. Socialist People’s Libyan Arab Jamahiriya, 294 F.3d 82, 96 (D.C. Cir. 2002).
Venue is always proper in the District of Columbia
for actions “brought against a foreign state or political subdivision thereof.” 28 U.S.C. § 1391(f )(4). The
act-of-state doctrine may not apply to Nazi-era claims,
see First Nat’l City Bank v. Banco Nacional de Cuba,
406 U.S. 759, 764 (1972) (plurality opinion); Bernstein
v. N.V. Nederlandsche-Amerikaansche StoomvaartMaatschappij, 210 F.2d 375 (2d Cir. 1954) (per curiam),
and generally does not apply to expropriation
claims arising after January 1, 1959, see 22 U.S.C.
§ 2370(e)(2). Statutes of limitation may bar some
claims arising from World War II, despite inevitable
tolling or concealment arguments, but they will have
no effect on claims arising from recent alleged humanrights abuses. Finally, Simon I itself held that the political-question doctrine does not bar the claims that it
approved. See 812 F.3d at 149–51.
Fourth, these decisions make the FSIA more receptive to human-rights litigation than is the ATS. Under Simon I’s broad interpretation of the expropriation
exception, most modern ATS claims could be recast as
FSIA ones. And after Philipp, recasting has significant
advantages. For example, ATS claims that a defendant
had abetted crimes against humanity by Papua New

App. 118
Guinea must be exhausted. See Sarei, 550 F.3d at 824
(plurality opinion). Yet under Philipp, the same lawsuit would face no exhaustion requirement if filed directly against Papua New Guinea. ATS claims of
abetting atrocities committed by a foreign sovereign
within its own territory are impermissibly extraterritorial. See Kiobel, 569 U.S. at 111–12, 124–25. Yet under Philipp, the same lawsuits, if filed directly against
the foreign sovereigns, might survive on the theory
that common-law tort claims have no territorial limit.
Compare Mujica, 771 F.3d at 591–96 (dismissing ATS
claims as extraterritorial), with id. at 596–615 (dismissing state-law claims only on comity grounds).
Such results are perverse, for FSIA actions against foreign sovereigns raise even greater foreign-policy concerns than do ATS actions against private parties who
may abet them.
Finally, the mismatch noted above between jurisdictional and merits issues under Simon I makes exhaustion even more important. If the federal courts
must resolve the scope of a genocide in order to decide
garden-variety conversion claims, then so much the
better if the foreign sovereign can perhaps resolve the
claims by addressing only the merits.
*

*

*

*

For these reasons, I would grant rehearing en
banc to reconsider the approach to the FSIA’s expropriation exception set forth in Simon I, Philipp, and
Simon II.

App. 119
[ARGUED MAY 2, 2018; DECIDED JULY 10, 2018]
No. 17-7064, consolidated with No. 17-7117

IN THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
-----------------------------------------------------------------------

ALAN PHILIPP, ET AL.,
Plaintiffs-Appellees,
v.
FEDERAL REPUBLIC OF GERMANY,
a foreign state; and STIFTUNG
PREUSSISCHER KULTURBESITZ,
Defendants-Appellants.
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the District of Columbia
-----------------------------------------------------------------------

BRIEF FOR THE UNITED STATES AS AMICUS
CURIAE IN SUPPORT OF REHEARING EN BANC
-----------------------------------------------------------------------

(Filed Sep. 14, 2018)
JENNIFER G. NEWSTEAD
Legal Adviser

JOSEPH H. HUNT
Assistant Attorney General

SHARON SWINGLE
U.S. Department of State CASEN B. ROSS
Washington, D.C. 20520
Attorneys, Appellate Staff
Civil Division, Room 7270
U.S. Department of Justice

App. 120
950 Pennsylvania
Avenue NW
Washington, DC 20530
202.514.1923
CERTIFICATE AS TO PARTIES,
RULINGS, AND RELATED CASES
Pursuant to D.C. Circuit Rule 28(a)(1), the undersigned counsel certifies as follows:
A.

Parties and Amici

The plaintiffs-appellees are Alan Philipp, Gerald
G. Stiebel, Jed R. Leiber. The defendants-appellants
are the Federal Republic of Germany and Stiftung
Preutßischer Kulturbesitz. Amicus curiae are David
Toren and the United States of America.
B.

Rulings Under Review

The ruling under review is the district court’s
March 31, 2017 order denying a motion to dismiss the
action, for the reasons set forth in the accompanying
memorandum opinion. The decision is published at 248
F. Supp. 3d 59 (D.D.C. 2017), and is reprinted at Joint
Appendix 310-51.
C.

Related Cases

On April 21, 2017, defendants filed a notice of appeal regarding the district court’s decision, which was

App. 121
assigned case number 17-7064. At the same time, defendants moved the district court to certify the entirety
of its decision for interlocutory appeal under 28 U.S.C.
§ 1292(b). The district court granted defendants’ motion
on May 18, 2017, and so certified its opinion. See Philipp
v. Federal Republic of Germany, 253 F. Supp. 3d 84
(D.D.C. 2017). On May 30, defendants filed a petition
with this Court asking the Court to accept an interlocutory appeal of the entirety of the district court’s decision. That petition was assigned case number 17-8002.
On August 1, this Court granted Defendants’ petition.
The district court then filed this Court’s order as a separate notice of appeal, which was assigned case number 17-7117. On August 4, this Court consolidated
cases 17-7064 and 17-7117.
There appear to be no other related cases within the meaning of D.C. Circuit Rule 28(a)(1)(C). However, there have been a number of other cases that
raised similar legal issues, including Fischer v. Magyar Államvasutak Zrt., 777 F.3d 847 (7th Cir. 2015),
Abelesz v. Magyar Nemzeti Bank, 692 F.3d 661 (7th
Cir. 2012), and Simon v. Republic of Hungary, 277
F. Supp. 3d 42 (D.D.C. 2017), appeal docketed, No. 177146 (D.C. Cir. Oct. 23, 2017).
/s/ Casen B. Ross
CASEN B. ROSS

App. 122
TABLE OF CONTENTS
Page
INTRODUCTION AND STATEMENT OF INTEREST ..............................................................

1

ARGUMENT ...........................................................

3

The FSIA Does Not Prohibit A District Court
From Abstaining As A Matter Of International
Comity From Exercising Jurisdiction Over A
Claim Brought Under The FSIA’s Expropriation
Exception .............................................................

3

CONCLUSION .......................................................

14

CERTIFICATE OF COMPLIANCE
CERTIFICATE OF SERVICE
TABLE OF AUTHORITIES
Cases:

Page(s)

Agudas Chasidei Chabad of U.S. v.
Russian Federation,
528 F.3d 934 (D.C. Cir. 2008) ....................................5
Astoria Fed. Sav. & Loan Ass’n v. Solimino,
501 U.S. 104 (1991) ...................................................7
Banco Nacional de Cuba v. Sabbatino,
376 U.S. 398 (1964) ...................................................6
Bi v. Union Carbide Chems. & Plastics Co.,
984 F.2d 582 (2d Cir. 1993) .....................................12
Emory v. Grenough,
3 U.S. (3 Dall.) 369 (1798) .........................................4

App. 123
Fischer v. Magyar Államvasutak Zrt.,
777 F.3d 847 (7th Cir. 2015) ....................................10
Hilton v. Guyot,
159 U.S. 113 (1895) ...................................................3
Hwang Geum Joo v. Japan,
413 F.3d 45 (D.C. Cir. 2005) ......................................5
Millen Indus., Inc. v. Coordination Council for
N. Am. Affairs,
855 F.2d 879 (D.C. Cir. 1988) ....................................6
Mujica v. AirScan Inc.,
771 F.3d 580 (9th Cir. 2014) .......................... 4, 12, 13
Oetjen v. Central Leather Co.,
246 U.S. 297 (1918) ...................................................4
Owens v. Republic of Sudan,
864 F.3d 751 (D.C. Cir. 2017) ....................................5
In re Papandreou,
139 F.3d 247 (D.C. Cir. 1998) ....................................6
* Price v. Socialist People’s Libyan
Arab Jamahiriya,
294 F.3d 82 (D.C. Cir. 2002) ................................ 5, 12
* Quackenbush v. Allstate Ins. Co.,
517 U.S. 706 (1996) ...................................................7
Republic of Argentina v. NML Capital, Ltd.,
134 S. Ct. 2250 (2014) .............................. 2-3, 5, 9, 10
Republic of Austria v. Altmann,
541 U.S. 677 (2004) ...................................................8

* Authorities upon which we chiefly rely are marked with asterisks.

App. 124
Republic of Philippines v. Pimentel,
553 U.S. 851 (2008) .................................................10
Simon v. Republic of Hungary,
812 F.3d 127 (D.C. Cir. 2016) ....................................2
Ungaro-Benages v. Dresdner Bank AG,
379 F.3d 1227 (11th Cir. 2004) .......................... 12, 13
Statutes:
Antiterrorism and Effective Death Penalty
Act of 1996,
Pub. L. No. 104-132, 110 Stat. 1241 .......................11
Foreign Sovereign Immunities Act of 1976:
28 U.S.C. § 1605(a)(3) ............................................ 2, 8
28 U.S.C. § 1606.......................................................13
National Defense Authorization Act for Fiscal
Year 2008:
28 U.S.C. § 1605A(a)(2)(A)(iii).................................11
28 U.S.C. § 517...........................................................1
Rule:
Fed. R. App. P. 29(b)(2) ..................................................1
Other Authorities:
Joseph Story, Commentaries on the Conflict of
Laws (1834) ...............................................................3
U.S. Dep’t of State,
Washington Conference Principles on NaziConfiscated Art, https://go.usa.gov/xPYUU
(last visited Sept. 15, 2018).......................................1

App. 125
INTRODUCTION AND
STATEMENT OF INTEREST
Pursuant to 28 U.S.C. § 517 and Federal Rule of
Appellate Procedure 29(b)(2), the United States submits this brief as amicus curiae in support of rehearing
en banc.
The United States deplores the wrongdoings committed against victims of the Nazi regime, and supports efforts to provide them with remedies for the
wrongs they suffered. Since the end of World War II,
the United States has worked in numerous ways to
achieve some measure of justice. With the United
States’ encouragement, the German government has
provided roughly $100 billion (in today’s dollars) to
compensate Holocaust survivors and other victims of
the Nazi era.
The United States has not been involved in efforts
to resolve plaintiffs’ specific property claims, but it
hosted the conference that produced the Washington
Conference Principles on Nazi-Confiscated Art, see U.S.
Dep’t of State, https://go.usa.gov/xPYUU (last visited
Sept. 15, 2018), in accordance with which Germany established an Advisory Commission to resolve disputes
regarding cultural assets seized by the Nazi regime.
[2] The United States takes no position on whether
the Advisory Commission correctly decided not to recommend the return of the property at issue here, or
whether the district court correctly denied the defendants’ motion to dismiss. The United States files this
brief as amicus curiae, however, to express its view

App. 126
that a district court may, in an appropriate case, abstain on international comity grounds from exercising
jurisdiction over claims brought under the expropriation exception to the Foreign Sovereign Immunities
Act of 1976 (FSIA), 28 U.S.C. § 1605(a)(3). Comitybased abstention may be appropriate where litigation
would be at odds with the foreign policy interests of the
United States and the sovereign interests of a foreign
government.1
The panel erred in holding that the FSIA “leaves
no room” for a court to abstain from exercising jurisdiction as a matter of international comity. Slip Op. 17.
The FSIA comprehensively addresses foreign sovereign immunity, but does not displace other areas of law,
including comity-based abstention. The panel relied on
Republic of Argentina v. [3] NML Capital, Ltd., 134
S. Ct. 2250 (2014), but there, the foreign state claimed
immunity under the FSIA, and the Court expressly
noted that a court “may appropriately consider comity
interests” in resolving non-immunity issues relating to
post-judgment discovery. Id. at 2258 n.6. These interests may similarly be considered by a court when it is
asked to abstain on comity grounds. The provisions
of the FSIA that the panel relied on do not suggest
Congress intended to bar considerations of comity, a
common-law doctrine that courts have applied for centuries.
1

The defendants’ rehearing petition (at 11-19) also asks the
Court to review its decision in Simon v. Republic of Hungary, 812
F.3d 127 (D.C. Cir. 2016). The United States takes no position on
whether the court should grant rehearing on this issue.

App. 127
ARGUMENT
THE FSIA DOES NOT PROHIBIT A DISTRICT
COURT FROM ABSTAINING AS A MATTER OF
INTERNATIONAL COMITY FROM EXERCISING
JURISDICTION OVER A CLAIM BROUGHT UNDER
THE FSIA’S EXPROPRIATION EXCEPTION.
A. United States courts have long recognized the
doctrine of international comity, which permits courts
to recognize the “legislative, executive or judicial acts
of another nation” giving “due regard both to international duty and convenience, and to the rights of its
own citizens, or of other persons who are under the
protection of its laws.” Hilton v. Guyot, 159 U.S. 113,
164 (1895); see also id. at 164-65 (citing Joseph Story,
Commentaries on the Conflict of Laws §§ 33-38 (1834)
(describing international comity as a doctrine of “beneficence, [4] humanity, and charity,” which “arise[s]
from mutual interest and utility”)); Emory v. Grenough, 3 U.S. (3 Dall.) 369, 370, n.* (1798) (referring to
the doctrine of comity of nations).
International comity discourages a U.S. court from
second-guessing a foreign government’s judicial or administrative resolution of a dispute (or provision for its
resolution), or otherwise sitting in judgment of a foreign government’s official acts. See Oetjen v. Central
Leather Co., 246 U.S. 297, 304 (1918) (“To permit the
validity of the acts of one sovereign state to be reexamined and perhaps condemned by the courts of another
would very certainly imperil the amicable relations between governments and vex the peace of nations.”). One
strand of comity is “adjudicatory comity,” pursuant to

App. 128
which a U.S. court may abstain from exercising jurisdiction in deference to adjudication in a foreign forum.
Mujica v. AirScan Inc., 771 F.3d 580, 599 (9th Cir.
2014). This doctrine is one of “prudential abstention,”
applied “when a sovereign which has a legitimate
claim to jurisdiction concludes that a second sovereign
also has a legitimate claim to jurisdiction under principles of international law.” Id. at 598 (quotations omitted).
[5] In enacting the FSIA, Congress established a
comprehensive legal framework governing the immunity of foreign states from the jurisdiction of U.S. courts.
See Republic of Argentina v. NML Capital, Ltd., 134
S. Ct. 2250, 2256 (2014). But the Act was not meant to
affect substantive liability or other areas of law. See
Owens v. Republic of Sudan, 864 F.3d 751, 763 (D.C.
Cir. 2017) (“[T]he FSIA * * * grant[ed] jurisdiction yet
le[ft] the underlying substantive law unchanged.” (citing First Nat’l City Bank v. Banco Para El Comercio
Exterior de Cuba, 462 U.S. 611, 620 (1983)).
Along these lines, “the doctrine of forum non conveniens remains fully applicable in FSIA cases.” Price
v. Socialist People’s Libyan Arab Jamahiriya, 294 F.3d
82, 100 (D.C. Cir. 2002). And this Court has recognized
that other common-law principles continue to apply
in cases against foreign states following the FSIA’s
enactment. See, e.g., Agudas Chasidei Chabad of U.S.
v. Russian Federation, 528 F.3d 934, 951 (D.C. Cir.
2008) (forum non conveniens and act-of-state doctrine);
Hwang Geum Joo v. Japan, 413 F.3d 45, 48 (D.C. Cir.
2005) (political question doctrine).

App. 129
[6] This Court has also observed that litigation under the FSIA may involve sensitive questions of foreign
affairs that “obviously occasion a continuing involvement by the Executive * * * in matters relating to the
application of the act of state doctrine and giving appropriate weight to those views.” Millen Indus., Inc. v.
Coordination Council for N. Am. Affairs, 855 F.2d 879,
881 (D.C. Cir. 1988) (citations omitted).
Abstention on the basis of international comity,
like forum non conveniens, is not a jurisdictional doctrine but instead a federal common-law doctrine of abstention in deference to an alternative forum. See In re
Papandreou, 139 F.3d 247, 255-56 (D.C. Cir. 1998) (“Forum non conveniens does not raise a jurisdictional bar
but instead involves a deliberate abstention from the
exercise of jurisdiction.”). And like the act-of-state doctrine, adjudicatory comity is grounded in concerns that
a court’s adjudication of a claim may improperly impinge on the sovereignty of a foreign nation. See, e.g.,
Banco Nacional de Cuba v. Sabbatino, 376 U.S. 398,
427-39 (1964) (distinguishing between court’s jurisdiction over claim against foreign state for expropriation,
and the court’s application of the act-of-state doctrine
to decline to examine the merits). Nothing in the text
or history of the FSIA suggests that it was [7] intended
to foreclose application of those longstanding commonlaw doctrines.
Significantly, abstention on adjudicatory comity
grounds is akin to other common-law abstention principles applied by federal courts. See Quackenbush v.
Allstate Ins. Co., 517 U.S. 706, 716 (1996) (recognizing

App. 130
that a federal court may decline to exercise jurisdiction
in deference to predominant State interests under
various abstention doctrines, including Pullman and
Younger abstention); see also id. at 723 (noting that
comity-based abstention stems from a similar premise
as forum non conveniens). Just as the “longstanding
application of [federalism-based abstention] doctrines
reflects the common-law background against which
the statutes conferring jurisdiction were enacted,” Id.
at 717—that Congress should not be presumed to have
intended to override absent clear evidence to the contrary, Astoria Fed. Sav. & Loan Ass’n v. Solimino, 501
U.S. 104, 108 (1991)—a court should not presume from
statutory silence that the FSIA’s immunity provisions
were intended to abrogate comity-based abstention.
The panel offered no explanation why federal courts
should be able to abstain from [8] exercising jurisdiction in deference to a State’s interests, but not in deference to the interests of a foreign sovereign.
Notably, the Supreme Court has explicitly left
open the possibility that the United States could suggest that “courts decline to exercise jurisdiction in particular cases implicating foreign sovereign immunity,”
Republic of Austria v. Altmann, 541 U.S. 677, 701 (2004)
—abstention based on international comity could be
such a basis. See id. at 702 (explaining that the Court
would give deference to the Executive Branch’s foreign
policy views in deciding whether to exercise jurisdiction under the FSIA).
Jurisdiction under the FSIA’s expropriation exception, 28 U.S.C. § 1605(a)(3), is unusual in that it

App. 131
typically involves claims alleging international-law
violations committed in a foreign state, rather than
purely private-law disputes ordinarily brought under
the FSIA’s other exceptions to sovereign immunity, in
which the relevant action (or at least the gravamen of
the claim) took place in the United States. This exception thus contemplates particular solicitude for international comity and consideration for whether a
plaintiff had exhausted remedies in the country where
the alleged expropriation took place. At [9] the very
least, the text and history of the FSIA afford no reason
to foreclose a court from abstaining as a matter of comity.
B. The Supreme Court’s decision in NML Capital, 134 S. Ct. 2250, does not preclude a court from
abstaining based on adjudicatory comity in a case in
which the court has jurisdiction under the FSIA. In
NML Capital, the Court addressed “[t]he single, narrow question * * * whether the [FSIA] specifies a different rule [for post-judgment execution discovery]
when the judgment debtor is a foreign state.” 134 S. Ct.
at 2255. The Court held that “any sort of immunity defense made by a foreign sovereign in an American
court must stand or fall on the Act’s text,” and that the
FSIA does not “forbid[ ] or limit[ ] discovery in aid of
execution of a foreign-sovereign judgment debtor’s assets.” Id. at 2256. The Court noted the concerns raised
by Argentina and the United States in arguing for a
contrary statutory interpretation regarding the potential affront to foreign states’ sovereignty and to international comity resulting from sweeping discovery

App. 132
orders, but held that only Congress could amend the
statute to address those concerns. Id. at 2258.
[10] The panel relied on NML Capital to conclude
that, if a court has jurisdiction under the FSIA, it may
not abstain from exercising that jurisdiction on comity
grounds. Slip Op. 16-17. To be sure, NML Capital held
that a foreign state’s immunity is governed by the
FSIA. But the Supreme Court also expressly recognized that, even where a court has jurisdiction under
the FSIA, comity might be relevant to other non-immunity determinations in the litigation. NML Capital,
134 S. Ct. at 2258 n.6 (“[W]e have no reason to doubt that
[a court] may appropriately consider comity interests”
in determining the appropriate scope of discovery.).
A court that declines to exercise jurisdiction on international comity grounds is not treating a foreign
state as immune. See, e.g., Fischer v. Magyar Államvasutak Zrt., 777 F.3d 847, 859 (7th Cir. 2015) (explaining
that comity is not “a special immunity defense found
in the FSIA”); cf. Republic of Philippines v. Pimentel,
553 U.S. 851, 865-66 (2008) (distinguishing between
foreign state’s claim to sovereign immunity under the
FSIA and its “unique interest in resolving the ownership of or claims to” assets wrongfully taken). The
panel thus [11] erred by reading NML Capital to resolve an issue not addressed in that case to foreclose
application of a long-recognized abstention doctrine.
C. The panel also relied on two provisions of the
FSIA in holding that the statute precludes abstention
on comity grounds. Neither supports the panel’s conclusion.

App. 133
First, the panel pointed to the FSIA’s terrorism
exception, which requires a plaintiff in some circumstances to “afford[ ] [a] foreign state a reasonable opportunity to arbitrate” before bringing suit. 28 U.S.C.
§ 1605A(a)(2)(A)(iii). The panel reasoned by negative
implication that, because a district court must dismiss
such a claim brought under the FSIA’s terrorism exception if the claim is not appropriately exhausted, a
district court cannot dismiss a claim for failure to exhaust in a foreign forum. Slip Op. 15.
There is no evidence, however, that in enacting the
terrorism exception some twenty years after the FSIA
was originally enacted, Congress intended to foreclose
the possibility that a court might abstain from exercising jurisdiction under other exceptions based on
common-law abstention. See Antiterrorism and Effective Death Penalty Act of 1996, Pub. L. No. 104-132,
§ 221(a), 110 Stat. 1241. The Act’s [12] expropriation
exception does not require exhaustion, but neither
does it forbid a court from abstaining in deference to
an alternative forum. The panel’s reasoning would also
appear to foreclose dismissal on forum non conveniens
grounds, despite binding circuit precedent to the contrary. Price, 294 F.3d at 100.
Furthermore, abstention on comity grounds is not,
as the panel seemed to understand it, an exhaustion
requirement. Rather, it reflects the principle that, in
an appropriate case, a foreign sovereign may have a
greater interest in resolving a particular dispute than
does the United States, and U.S. interests are better
served by deferring to that sovereign’s interests. That

App. 134
may mean deferring to an alternative forum, e.g., UngaroBenages v. Dresdner Bank AG, 379 F.3d 1227, 1237-38
(11th Cir. 2004); deferring to a foreign law that strips
plaintiffs of standing to bring suit, e.g., Bi v. Union Carbide Chems. & Plastics Co., 984 F.2d 582, 586 (2d Cir.
1993); or giving conclusive weight to the foreign state’s
resolution of a dispute, e.g., Mujica, 771 F.3d at 614-15.
The FSIA requirement to arbitrate terrorism claims
before bringing suit does not suggest that Congress intended to prohibit a court from [13] deferring to the
foreign state’s interests in a claim brought under a different provision of the Act.
The panel also erred in claiming support for its position from 28 U.S.C. § 1606, which provides that, “[a]s
to any claim for relief with respect to which a foreign
state is not entitled to immunity under [28 U.S.C.
§§ 1605, 1607], the foreign state shall be liable in the
same manner and to the same extent as a private individual under like circumstances,” with the exception
of punitive damages. Slip Op. 15-16. The panel appeared to believe that provision requires a court to
treat foreign states the same as private defendants.
Slip Op. 16 (“[Section 1606] permits only defenses * * *
that are equally available to private individuals”).
Even under the panel’s reasoning, its conclusion
was erroneous. Just as private individuals may invoke
forum non conveniens as a basis for a court to abstain
from exercising jurisdiction, see Slip Op. 16, private
parties may similarly seek abstention on the basis of
adjudicatory comity. See, e.g., Mujica, 771 F.3d at 615;
Ungaro-Benages, 379 F.3d at 1238. In asserting that a

App. 135
private individual cannot invoke a [14] sovereign’s
right to resolve disputes against it, the panel construed
comity far more narrowly than the doctrine has been
applied.
The panel erred in ruling that a court may not abstain, on international comity grounds, from adjudicating a claim over which the court has jurisdiction under
the FSIA.
CONCLUSION
For the foregoing reasons, the Court should grant
the petition.
Respectfully submitted,
JOSEPH H. HUNT
JENNIFER G. NEWSTEAD Assistant Attorney General
Legal Adviser
U.S. Department of State SHARON SWINGLE
Washington, D.C. 20520
/s/ Casen B. Ross
CASEN B. ROSS
Attorneys, Appellate Staff
Civil Division, Room 7270
U.S. Department of Justice
950 Pennsylvania
Avenue NW
Washington, DC 20530
202.514.7270
casen.ross@usdoj.gov
September 2018

App. 136
CERTIFICATE OF COMPLIANCE
This brief complies with the type-volume limit of
Federal Rules of Appellate Procedure 29(a)(4) and
29(b)(4) because it contains 2,537 words. This brief also
complies with the typeface and type-style requirements of Federal Rule of Appellate Procedure 32(a)(5)(6) because it was prepared using Microsoft Word 2013
in Century Schoolbook 14-point font, a proportionally
spaced typeface.
/s/ Casen B. Ross
CASEN B. ROSS

CERTIFICATE OF SERVICE
I hereby certify that on September 14, 2018, I electronically filed the foregoing brief with the Clerk of the
Court for the United States Court of Appeals for the
District of Columbia Circuit by using the appellate
CM/ECF system. Participants in the case are registered CM/ECF users, and service will be accomplished
by the appellate CM/ECF system.
/s/ Casen B. Ross
CASEN B. ROSS

App. 137
[SEAL]

MBS:SSwingle

U.S. Department of Justice
Civil Division, Appellate Staff
950 Pennsylvania Ave., N.W., Rm: 7250
Washington, D.C. 20530
Tel: (202) 353-2689
Fax: (202) 514-8151
September 9, 2004

Via Federal Express
Roseann B. MacKechnie, Clerk of Court
U.S. Court of Appeals for the Second Circuit
United States Courthouse
40 Foley Square
New York, New York 10007
Re: Garb v. Republic of Poland, No. 02-7844 (2d Cir.)
Dear Ms. MacKechnie:
Amicus curiae the United States of America respectfully submits this letter brief in response to the
Court’s July 27, 2004, Order directing the submission
of briefs on the question “[w]hether, and if so how, the
United States Supreme Court’s decision in Republic of
Austria v. Altmann, 541 U.S. ___ (June 7, 2004) is relevant to the issue of subject matter jurisdiction in this
case.” Altmann makes clear that the Foreign Sovereign
Immunities Act, 28 U.S.C. § 1602 et seq. (FSIA), should
be applied to determine a court’s jurisdiction in all
post-enactment suits against a foreign sovereign. As
we demonstrate, under the FSIA’s takings exception,
§ 1605(a)(3), jurisdiction is limited to expropriations of
aliens’ property, such as those claims that were the
subject of the 1960 Agreement between the United

App. 138
States and Poland, and does not encompass the
broader range of property deprivations in violation of
international human rights law. That exception also
permits jurisdiction over a foreign state only where its
own contacts with the United States satisfy the first
prong of the exception, i.e., the state holds seized property in the United States in connection with its own
commercial activity here. A court may not base jurisdiction over the state itself on the less extensive contacts of a juridically distinct instrumentality, on the
basis that those contacts would allow jurisdiction over
the instrumentality under the terms of the exception’s
second prong.
I.

Background

The plaintiffs are former Polish citizens or their
heirs, who allege that Poland engaged in a pogrom
against surviving Jewish citizens following World War
II, confiscating Jewish citizens’ property, encouraging
violence against Jewish citizens, and otherwise discriminating against Poland’s remaining Jews in an effort to drive them into exile. Although the FSIA
imposes a general rule of immunity for claims against
foreign sovereigns and their instrumentalities, 28
U.S.C. § 1604, it creates exceptions to immunity where,
inter alia, the action is based on a foreign state’s commercial activity in or directly affecting the United
States; or the action involves property rights “taken in
violation of international law” and the property is in
the United States in connection with a foreign state’s
commercial activity or is owned or operated by a

App. 139
foreign instrumentality engaged in commercial activity in the United States. Id. § 1605(a)(1)-(3).
The district court held that the FSIA’s takings exception could not be applied to pre-FSIA conduct. Garb
v. Republic of Poland, 207 F. Supp.2d 16, 28-30 (E.D.
N.Y. 2004). The court also held that the commercial activity exception, although potentially available, was
not satisfied because plaintiffs’ claims were based on
the “quintessentially sovereign act” of Poland’s expropriation of its citizens’ property, which also lacked any
direct effect on the United States. Id. at 31-33. Finally,
the court suggested that the takings exception would
not be satisfied even if it were available, reasoning that
numerous courts have held that international law is
not violated by a sovereign’s expropriation of its own
nationals’ property, and further that the Ministry of
Treasury appears to be part of the Polish state rather
than an agency or instrumentality. Id. at 34-38.
This Court vacated and remanded for further proceedings. Garb v. Republic of Poland, No. 02-7844, 2003
WL 21890843, at *2 (Aug. 6, 2003). The Court held that
jurisdiction turned on “whether the plaintiffs * * *
could have legitimately expected to have their claims
adjudicated in the United States” prior to enactment
of the FSIA, and ordered the district court to determine
the State Department’s pre-FSIA policy with respect
to sovereign immunity for claims against Poland arising out of post-War conduct. Id. at 2-*3 & n.1.
The Supreme Court granted defendants’ petition
for certiorari, and vacated and remanded for further

App. 140
consideration in light of Altmann. 124 S. Ct. 2835
(2004). Altmann, which was decided after this Court’s
decision, involved claims against Austria arising out of
World War II-era conduct. See id. at 2243-2246. The
claimed basis for jurisdiction was the FSIA’s takings
exception, although no such exception to the rule of foreign state immunity had existed at the time of the alleged wrongdoing. See id. at 2245-2247. The Supreme
Court held that courts should apply the FSIA’s principles of foreign state immunity to conduct pre-dating
the statute’s enactment. Id. at 2252-2255.
II.

Discussion

Altmann holds that the FSIA should be applied to
determine a court’s jurisdiction in all post-enactment
suits against a foreign sovereign. The FSIA grants sovereign immunity to a foreign state sued in a United
States court unless the claim against it falls within the
exceptions defined by statute. See 28 U.S.C. § 16041605. In our prior brief to this Court, the United States
explained that the commercial activity exception to the
FSIA does not provide a basis for subject matter jurisdiction over plaintiffs’ claims against Poland because
the “expropriation of property by a foreign government
by sovereign act is not the type of ‘commercial activity’
that Congress intended to fall within that exception to
the FSIA.” U.S. Am. Br. 13-14. Altmann did not alter
that analysis.
However, we have not previously addressed the
scope of the takings exception, which Altmann holds

App. 141
applies to all claims brought after the FSIA’s enactment. That exception denies sovereign immunity in
cases “in which rights in property taken in violation of
international law are at issue and [i] that property or
any property exchanged for such property is present in
the United States in connection with a commercial activity carried on in the United States by the foreign
state; or [ii] that property or any property exchanged
for such property is owned or operated by an agency or
instrumentality of the foreign state and that agency or
instrumentality is engaged in a commercial activity in
the United States.” 28 U.S.C. § 1605(a)(3). As we explain below, plaintiffs’ claims do not involve “rights in
property taken in violation of international law” within
the meaning of the statute. Nor, where the stringent
nexus requirements of the exception’s first prong are
not satisfied, does the provision strip a state of its immunity based solely on the lesser class of contacts of
an instrumentality that would confer jurisdiction over
that instrumentality under the second prong of the exception.
1. Section 1605(a)(3) applies only to takings in violation of the international law of state responsibility
and expropriation. The FSIA’s takings exception was
intended to deny immunity for violations of the international law of state responsibility and expropriation,
which governs a state’s seizure of property belonging
to nationals of another state. Absent a clear directive
from Congress, the exception should not be interpreted
to substantially expand the universe of legal principles
relating to property rights that can serve as a basis for

App. 142
U.S. courts’ jurisdiction, to include the full range of international human rights law affecting nationals as
well as aliens.
The legislative history of the FSIA explains that
the takings exception was intended to govern “Expropriation claims,” encompassing “the nationalization or
expropriation of property without payment of the
prompt adequate and effective compensation required
by international law,” as well as “takings which are arbitrary or discriminatory in nature.” Foreign Sovereign
Immunities Act of 1976, H.R. Rep. No. 94-1487, at 19,
reprinted in 1976 U.S.C.C.A.N. 6604, 6618. This characterization of the exception’s scope parallels the Restatement’s description of the international law principles
of state responsibility, which bar a state’s discriminatory expropriation of the property of aliens and its expropriation of foreign nationals’ property without the
payment of adequate, reasonably prompt, and effective
compensation. See Restatement (2d) of Foreign Relations Law §§ 165-166, 185-187 (1965); see also Restatement (3d) of Foreign Relations Law § 712 (1986) (“A
state is responsible under international law for injury
resulting from (1) a taking by the state of the property
of a national of another state that * * * (b) is discriminatory, or (c) is not accompanied by provision for just
compensation.”). As the Restatement makes clear, international law of state responsibility does not regulate a state’s treatment of its own nationals, but rather
is limited to certain “taking[s] by the state of the property of a national of another state.” Restatement (3d)
§ 712(1) (emphasis added). There is no evidence that

App. 143
Congress intended to confer jurisdiction over the entire range of potential deprivations of property in violation of international human rights principles.
Consistent with this, the takings exception has
been interpreted by every court to have considered the
question not to apply to the expropriation by a country
of the property of its own nationals. E.g., Beg v. Islamic
Republic of Pakistan, 353 F.3d 1323, 1328 n.3 (11th Cir.
2003); Altmann v. Republic of Austria, 317 F.3d 954,
968 (9th Cir. 2002); Siderman de Blake v. Republic of
Argentina, 965 F.2d 699, 711-712 (9th Cir. 1992); De
Sanchez v. Banco Central de Nicaragua, 770 F.2d 1385,
1395-1398 (5th Cir. 1985); see also Altmann, 124 S. Ct.
at 2262 (Breyer, J., concurring) (noting lower courts’
“consensus view * * * that § 1605(a)(3)’s reference to
‘violation of international law’ does not cover expropriations of property belonging to a country’s own nationals”).1 Notably, Congress has never overridden that
uniform interpretation.

1

A number of courts have based their holdings on a conclusion
that a foreign state’s seizure of the property of its own national
does not, even if motivated by religious or racial discrimination,
violate international law. Cf. Dreyfus v. Von Finck, 534 F.2d 24,
30-31 (2d Cir. 1976) (holding, under Alien Tort Statute, that Nazi
Germany’s discriminatory seizure of Jewish citizen’s property did
not violate international law). As we explain in the text, the
proper question before the court is not whether the discriminatory
taking of Jewish property violated international human rights
norms, but whether that conduct is within the class of cases
against foreign states that Congress intended U.S. courts to hear
under the takings exception. It is not.

App. 144
In their prior briefs, plaintiffs relied on the legislative history reference to “discriminatory” takings as
evidence that the takings exception was intended to
encompass a sovereign’s racial or religious discrimination against its own nationals. E.g., Appellants’ Br. at
54. When viewed in context, however, the reference in
the legislative history is to discrimination against aliens—i.e., the very subject on which the law of state
responsibility and expropriation is focused. See Restatement (2d) § 166. Indeed, many of the sources cited
by plaintiffs as evidence of the customary international law norm against “discriminatory” expropriations address the taking of non-nationals’ property,
and thus lend support to a more limited interpretation
of the takings exception. See, e.g., Appellants’ Reply at
14 (“to comply with international law, nationalization
‘must not discriminate against aliens or any particular
kind of alien’ ” (emphasis added)); ibid. (“the minimum
standard of justice * * * means the right of foreign nationals to receive full compensation” (emphasis added)).
The interpretation of § 1605(a)(3) as limited to the
international law of expropriation is further confirmed
by the statutory backdrop against which it was enacted—in particular, the Second Hickenlooper Amendment, 22 U.S.C. § 2370(e)(2). That statute, originally
enacted in 1964, bars a federal court from invoking the
“act of state” doctrine to dismiss a suit challenging a
state “taking * * * in violation of the principles of international law, including the principles of compensation
and the other standards set out in this subsection.” The
statute has consistently been interpreted to apply only

App. 145
in cases involving the taking of alien property, not that
of a state’s own national. E.g., Fogade v. ENB Revocable
Trust, 263 F.3d 1274, 1294 (11th Cir. 2001) (collecting
cases). The FSIA takings exception was intended to
harmonize the scope of foreign sovereign immunity
with the act of state doctrine under U.S. law. See Canadian Overseas Ores Ltd. v. Campania de Acero del
Pacifico, S.A., 528 F. Supp. 1337, 1346 (S.D.N.Y. 1982),
aff ’d, 727 F.2d 274 (2d Cir. 1984).
Limiting the takings exception to a foreign government’s seizure of aliens’ property is also consistent
with courts’ general reluctance to construe the FSIA
exceptions to confer jurisdiction over claims that a foreign state violated human rights, particularly where
the conduct took place within the state’s own borders.
See, e.g., Saudi Arabia v. Nelson, 507 U.S. 349, 361-363
(1993) (commercial activity exception does not confer
jurisdiction over claims involving torture by foreign
government’s police and penal officers); Princz v. Federal Republic of Germany, 26 F.3d 1166, 1173-1176
(D.C. Cir. 1994) (waiver exception does not confer jurisdiction over Nazi-era slave labor case); cf. Smith v. Socialist People’s Libyan Arab Hamahiriya, 101 F.3d 239,
244-245 (2d Cir. 1996) (waiver exception does not confer jurisdiction over terrorism bombing alleged to violate jus cogens norms). Congress has also set careful
limits on federal jurisdiction over tort claims against
foreign sovereigns arising out of conduct occurring outside of the United States, providing that, as a general
matter, noncommercial tort claims can be brought
against foreign states only if the damage or injury

App. 146
occurred in this country. See 28 U.S.C. § 1605(a)(5); Argentine Republic v. Amerada Hess Shipping Corp., 488
U.S. 428, 439-441 (1989). Although Congress amended
the FSIA in 1996 to allow for certain extraterritorial
tort claims relating to terrorism, it strictly limited and
defined the permissible claims and the class of potential defendants. See id. § 1605(a)(7). Construing
§ 1605(a)(3) to allow for international human rights
claims would undermine these careful limitations.
Finally, courts’ consensus interpretation of the
takings exception as not encompassing claims against
a state by its nationals is consistent with international
expropriation law, which was the premise of numerous
claims settlement agreements entered into by the
United States over the last century, including a 1960
agreement between the United States and Poland. As
we described in our supplemental amicus filing on May
2, 2003, the United States and Poland entered into that
agreement to settle claims arising out of the Polish
government’s nationalization of property. See Agreement Between the Government of the United States
of America and the Government of the Polish People’s
Republic Regarding Claims of Nationals of the United
States (July 16, 1960), U.S.T. 1953. Although the United
States undertook in that agreement to settle the
claims of U.S. nationals, it did not purport to settle or
address claims relating to property that was not owned
at the time of the taking by a U.S. national. The limited
scope of the U.S.-Poland settlement agreement reflects
the circumscribed nature of international law and practice concerning state responsibility for the expropriation

App. 147
of aliens’ property. At that time, the sole recourse for
expropriation claims was espousal. It was a wellestablished principle of international law that states
could espouse only claims relating to wrongs done to
their own citizens, absent the consent of the state both
of the third-party national and also the respondent
state. Congress removed immunity in certain cases,
but there is no indication—much less a clear one—that
it intended to include nationals of the expropriating
state among those whose claims could be asserted in
U.S. courts.
To the extent that there is any remaining ambiguity about the scope of the takings exception, the
foreign policy interests of the United States weigh
against inferring the dramatic expansion of federal
court jurisdiction that plaintiffs seek. As the Supreme
Court recognized in its post-Altmann decision in Sosa
v. Alvarez-Machain, 124 S. Ct. 2739 (2004), serious
“risks of adverse foreign policy consequences” are created when U.S. courts attempt to set “limit[s] on the
power of foreign governments over their own citizens.”
Id. at 2763. As the Court held, “the potential implications for the foreign relations of the United States of
recognizing” causes of action for violations of customary international law should make courts reluctant to
exercise jurisdiction over such claims absent a “clear
mandate” from Congress to do so. Id. at 2763. The FSIA
contains no such “clear mandate”; to the contrary, Congress enacted the FSIA with the statement that it
was intended to “codify” sovereign immunity principles
“presently recognized in international law.” H.R. Rep.

App. 148
No. 94-1487, at 7, reprinted in 1976 U.S.C.C.A.N. at
6605. This Court should reject the suggestion that
Congress nonetheless intended to significantly expand
U.S. courts’ jurisdiction over previously-barred claims
brought by foreign citizens against their own governments.
2. Section 1605(a)(3) provides jurisdiction over a
foreign state only where its own connections with the
United States satisfy the statutory criteria under the
first prong of the statutory exception. In addition to requiring a taking “in violation of international law” for
jurisdiction to exist, § 1605(a)(3) requires certain minimum connections to the United States: (i) the seized
property or property exchanged for it “is present in the
United States in connection with a commercial activity
carried on in the United States by the foreign state”; or
(ii) the seized property or property exchanged for it “is
owned or operated by an agency or instrumentality of
the foreign state and that agency or instrumentality is
engaged in a commercial activity in the United States.”
The district court correctly found that there was
no basis for jurisdiction under the exception. Plaintiffs
do not assert that the limited circumstances for jurisdiction under the first prong are satisfied, because they
have not alleged that Poland or its Ministry of the
Treasury have brought expropriated property into the
United States. Nor, as the court suggested, is the second prong of the statute met, because that prong
grants jurisdiction only over the agency or instrumentality that has the requisite jurisdictional contacts.

App. 149
We continue to adhere to the view articulated in
the United States’s amicus brief in Transaero, Inc. v.
La Fuerza Aerea Boliviana, 30 F.3d 148, 151 (D.C. Cir.
1994), and accepted by the district court in this case,
that the test for determining the status of a foreign
governmental entity as an agency or instead as the
state itself should “look to the ‘core function’ ” of the entity, and whether it “is the type of entity that is an integral part of a foreign state’s political structure, or
rather an entity whose structure and function is predominantly commercial.” Transaero, 30 F.3d at 151.
Under that standard, the Ministry of the Treasury was
part of the Polish state itself, not an agency or instrumentality.
Even if the Ministry were an agency or instrumentality, however, the takings exception still would not
confer jurisdiction over the Republic of Poland because
the seized property is not present in this country and
the contacts of its agency or instrumentality under the
second prong of the takings exception are not a proper
basis for stripping the state itself of sovereign immunity. Section 1605(a)(3) is properly interpreted to strip
immunity from a foreign state only if its own contacts
satisfy the requirements for jurisdiction under the provision’s first prong. That prong, which specifically addresses jurisdiction based on the contacts of the
“foreign state,” requires a much closer nexus with the
United States than does the second prong, which provides for jurisdiction based on the contacts of “an agency
or instrumentality of the foreign state.” It would turn the
provision on its head to permit these lesser contacts of

App. 150
the agency or instrumentality to support jurisdiction
over the foreign sovereign itself. Instead, the second
prong should be understood as overriding the immunity only of the agency or instrumentality with the contacts at issue.
Interpreting § 1605(a)(3) to require that the foreign state’s own contacts, and not those of its agency or
instrumentality, meet the requirements of the first
prong of the provision is buttressed by the differential
treatment accorded foreign states and their agencies
and instrumentalities in the FSIA’s attachment provision, 28 U.S.C. § 1610. That provision modifies only
partially the “traditional view” that “the property of
foreign states is absolutely immune from execution,”
while providing for more expansive rights of execution
against the property of a foreign agency or instrumentality. See H.R. Rep. No. 94-1487, at 27, reprinted in
1976 U.S.C.C.A.N. 6626. A litigant who receives a judgment of unlawful taking by a foreign state may execute
the judgment against property owned by the state only
if the property relates to the taking; in contrast, a similar judgment against a foreign agency or instrumentality may be executed against any property owned by
that agency or instrumentality. See 28 U.S.C. § 1610(a)(3),
(b). Congress clearly envisioned that the attachment
provisions would parallel the immunity provisions of
§ 1605(a)(3). See H.R. Rep. No. 94-1487, at 27, reprinted in 1976 U.S.C.C.A.N. at 6626.
Further, the historic treatment of expropriation
claims prior to enactment of the FSIA supports its
interpretation as providing jurisdiction over foreign

App. 151
states only where the seized property is present in this
country in connection with the foreign state’s commercial activity, while providing for jurisdiction over foreign state agencies or instrumentalities in a broader
set of circumstances. Prior to enactment of the FSIA,
foreign states enjoyed immunity from suit arising out
of the expropriation of property within their own territory, see, e.g., Isbrandtsen Tankers, Inc. v. President of
India, 446 F.2d 1198, 1200 (2d Cir. 1971), with the possible exception of in rem cases in which U.S. courts took
jurisdiction to determine rights to property in the
United States. E.g., Stephen v. Zivnostenska Banka, 15
A.D.2d 111, 119 (N.Y. App. Div. 1961), aff ’d, 186 N.E. 2d
676 (1952). In contrast, separately incorporated stateowned companies engaged in commercial activities of
a private nature were generally not accorded foreign
sovereign immunity. See, e.g., United States v. Deutsches
Kalisyndikat Gesellschaft, 31 F.2d 199, 201-203 (S.D.N.Y.
1929). In creating for the first time an exception to the
in personam immunity of a foreign state, Congress
adopted an incremental approach granting jurisdiction
over foreign states that paralleled those few cases in
which title to property in the United States had been
in issue, while permitting, as had historically been the
case, a broader class of cases against agencies and instrumentalities.
Plaintiffs contend that their interpretation of the
takings exception is compelled by the text of the takings provision, asserting that, under § 1605(a), “a
foreign state shall not be immune” in the specified circumstances, including the second prong of (a)(3), which

App. 152
confers jurisdiction based upon the commercial contacts of “an agency or instrumentality of a foreign
state.” Notably, under a literalistic reading of that text,
together with the definition of “foreign state” in
§ 1603(a), the second prong of the takings exception
would strip immunity to all of a foreign state’s agencies and instrumentalities whenever any one of them
owns seized property and engages in commercial activity in the United States. This result is plainly absurd,
and is flatly at odds with the FSIA’s legislative history,
which makes clear that Congress did not intend to permit the sort of corporate veil-piercing advocated by
plaintiffs. See H.R. Rep. No. 94-1487, at 29 (statute intended to “respect the separate juridical identities of
different [foreign state] agencies or instrumentalities”), reprinted at 1976 U.S.C.C.A.N. at 6628; see also,
e.g., First National Bank v. Banco para el Comercio Exterior de Cuba, 462 U.S. 611, 620-621 (1983). It would
have made little sense for Congress to require that
the instrumentality that owns or operates the seized
property be the same instrumentality engaged in commercial activity in the United States in order for jurisdiction to exist under the second prong, if, once the test
were satisfied, the state itself and all its instrumentalities would have been subject to suit.
In sum, the text, structure, and history of the
FSIA’s takings exception show that it is most reasonably interpreted to require that, before a foreign state
will be denied immunity, the seized property must be

App. 153
present in the United States in connection with a foreign state’s own commercial activities.
Respectfully submitted,
WILLIAM H. TAFT IV
GREGORY G. KATSAS
Legal Adviser
Deputy Assistant
U.S. Department of State
Attorney General
MARK B. STERN
(202) 514-5089
SHARON SWINGLE
(202) 353-2689
Attorneys, Appellate Staff
Civil Division, Room 7250
Department of Justice
Washington, D.C.
20530-0001
cc:

counsel listed on Certificate of Service

CERTIFICATE OF SERVICE
I hereby certify that, on the 9th day of September
2004, two copies of the foregoing letter brief for amicus
curiae the United States of America were served on the
following counsel by overnight delivery, postage prepaid:
Stephen A. Whinston
Edward W. Millstein
Berger & Montague, P.C.
1622 Locust Street
Philadelphia, PA 19103

J. Dennis Faucher
Miller Faucher Cafferty
and Wexler LLP
One Penn Square West,
Suite 2500
Philadelphia, PA 19102

App. 154
Edward E. Klein
Klein & Solomon, LLP
275 Madison Ave.,
11th Floor
New York, NY 10016

Marvin A. Miller
Miller Faucher Cafferty
and Wexler LLP
30 N. LaSalle Street;
Suite 3200
Chicago, IL 60602

Mel Urback
Law Offices of Mel Urback
One Exchange Place,
Suite 1000
Jersey City, NJ 07302

Kenneth A. Elan
Law Offices of
Kenneth A. Elan
217 Broadway; Suite 606
New York, NY 10007

Joseph P. Garland
Law Office of
Joseph P. Garland
275 Madison Ave.
New York, NY 10016

Owen C. Pell
Karen M. Asner
White & Case
1155 Avenue of
the Americas
New York, NY 10036

Kenneth F. McCallion
McCallion &
Associates LLP
16 West 46th Street;
7th Floor
New York, NY 10036

Charles Chotkowski
P.O. Box 320079
Fairfield, CT 06825

Sharon Swingle
Counsel for amicus curiae
the United States
of America

App. 155
EBERHARD KARLS

UNIVERSITÄT TÜBINGEN [LOGO]
Prof. Dr. Jan Thiessen ∙ Geschwister-Scholl-Platz
∙ D-72074 Tübingen
Faculty of Law
Chair of Civil Law,
German Legal History and
Contemporary Legal History,
Commercial and Corporate Law
Prof. Dr. Jan Thiessen
Address:
Geschwister-Scholl-Platz
D-72074 Tübingen
Germany
Office: Neue Aula, Room 245.1
Telephone: +49 7071 29-72699/-78122
Telefax:
+49 7071 29-5309
e-mail: thiessen@jura.uni-tuebingen.de
Internet: www.jan-thiessen.de
March 7, 2016

App. 156
Expert Report
On the Possibility of Bringing a Claim
in a German Court
Introduction

Vorstellung

My name is Prof. Dr. Jan
Thiessen. I was born in
1969 in Berlin, Germany.
After studying law at the
Humboldt University of
Berlin, I received my doctorate there in 2004 and
my habilitation (an academic distinction beyond
the doctorate) in 2009.
Having held positions as
interim professor at the
Free University of Berlin,
in Bielefeld and Mannheim, I was appointed in
2010 as a full professor at
University of Tuebingen.
At the Faculty of Law I
hold a chair of Civil Law,
German and Contemporary Legal History, Commercial and Corporate
Law.

Mein Name ist Prof. Dr.
Jan Thiessen. Ich wurde
1969 in Berlin, Deutschland geboren. Nach dem
Jurastudium an der Humboldt-Universität zu Berlin wurde ich dort 2004
promoviert und 2009 habilitiert. Nach
Lehrstuhlvertretungen an
der Freien Universität
Berlin, in Bielefeld und
Mannheim wurde ich
2010 an die Universität
Tubingen berufen. An der
Juristischen Fakultät bin
ich Inhaber eines
Lehrstuhls für Bürgerliches Recht, Deutsche
Rechtsgeschichte und
Juristische Rechtsgeschichte, Handels- und
Gesellschaftsrecht.

My core fields of research
are mergers and acquisitions, the law of partnerships and corporations,
contemporary legal history and business law

Meine Hauptforschungsgebiete betreffen den
Unternehmenskauf, das
Recht der Personen- und
Kapitalgesellschaften, die

App. 157
history. For more than fifteen years I have done research on legal history of
the Nazi (National Socialist, or NS) period, and I
also taught on that subject for more than five
years.
In my research, I focus
mainly on the influence of
the Nazi ideology in German law and the responsibility of German lawyers
for the Nazi past. Since
2013, I have been a member of a task force on the
Critical Study of The
National Socialist Past,
appointed by the Independent Academic Commission at the Federal
Ministry of Justice. My
task is to examine the
Nazi past of the civil
servants of the ministry’s
business law section. I
presented lectures on that
research at several German universities. I will
soon publish a study on
the expulsion of Jewish
partner from limited liability companies during
the Nazi period. In May
2016, by invitation of

Juristische Zeitgeschichte
und die
Wirtschaftsrechtsgeschichte. Seit mehr als
fünfzehn Jahren forsche
ich zur Rechtsgeschichte
der Zeit des Nationalsozialismus und unterrichte
seit mehr als fünf Jahren
such zu diesern Thema.
Mein weseritliches Interesse gilt dem Einfluss der
nationalsozialistischen
Ideologie auf das deutsche
Recht und der Verantwortung deutscher Juristen
für die nationalsozialistische Vergangenheit. Seit
2013 bin ich Beauftragter
der Unabhängigen Wissenschaftlichen Kommission beim
Bundesministerium der
Justiz zur Aufarbeitung
der NS-Vergangenheit.
Meine Aufgabe besteht
darin, die NS-Vergangenheit der Beamten der
wirtschaftsrechtlichen Abteilung zu untersuchen.
Hierzu habe ich mehrere
Vorträge an deutschen
Universitäten gehalten.
In Kürze werde ich eine
Studie über den

App. 158
Professor Hanoch Dagen
and Professor Roy Kreitner, I will present a study
at Tel Aviv University on
the history of the German
Stock Corporations Act of
1937.

Ausschluss jüdischer Gesellschafter aus Gesellschaften mit beschränkter
Haftung während der NSZeit publizieren. Im Mai
2016 werde ich auf Einladung von Professor Hanoch Dagan und Professor
On January 17th, 2016,
Roy Kreitner an der UniProf. Dr. Rainer Schröder versität Tel Aviv eine
passed away unexpectedly. Studie zur Geschichte des
He had provided an exdeutschen Aktiengesetzes
pert opinion in connection von 1937 präsentieren.
with the lawsuit at hand,
at the defendants’ reAm 17. Januar 2016 ist
quest, and it was submit- Prof. Dr. Rainer Schröder
ted to the court in
unerwartet verstorben.
connection with a motion Ursprünglich hatte er im
to dismiss the original
vorliegenden Rechtsstreit
complaint, which was su- im Auftrag der Beklagten
perseded by a First
ein Rechtsgutachten
Amended Complaint. I
erstattet, das dem Gericht
studied and worked with im Zusamrnenhang mit
Professor Schröder for fif- einem Antrag auf
teen years. He supervised Abweisung der ursprünmy doctoral thesis and my glich eingereichten Klage
habilitation. After his
vorgelegt wurde, die nundeath, the defendants
mehr durch eine erasked me to review Proweiterte Klage (First
fessor Schröder’s opinion Amended Complaint)
and revise it as appropri- ersetzt wurde. Ich habe
ate to reflect my own opin- bei Professor Schröder
ion, in connection with a fünfzehn Jahre lang studmotion to dismiss the
iert und gearbeitet. Er hat
First Amended Complaint. meine Dissertation und
Having reviewed
meine Habilitation

App. 159
Professor Schröder’s expert opinion, I endorse it
without any reservation,
with further commentary
below.

betreut. Nach seinem Tod
haben mich die Beklagten
gebeten, Professor Schröders Gutachten zu prüfen
und es insoweit zu
überarbeiten, als es für
die Wiedergabe meiner
Possibility of Bringing a eigenen Auffassung erClaim in German Court forderlich sein sollte, im
In this case I have been
Zusammenhang mit
asked to assess the follow- einem Antrag auf
ing question: Could the
Abweisung der erweiterplaintiffs bring a claim in ten Klage. Nach Prüfung
a German court against
des Rechtsgutachtens von
the Prussian Cultural
Professor Schröder kann
Heritage Foundation
ich dieses ohne jeglichen
(Stiftung Preußischer
Vorbehalt befürworten
Kulturbesitz – SPK) and
und schreibe es nachfolgend für den vorliegenden
the Federal Republic of
Germany based on the
Rechtsstreit fort.
allegations in the First
Amended Complaint?
Klagemöglichkeit in
Deutschland
1. German courts would Ich bin beauftragt
have jurisdiction
worden, in dem
over the Defendants vorliegenden Fall folgende
and this lawsuit
Frage zu beantworten:
According to constant case
law by the German Federal Court of Justice
(Bundesgerichtshof –
BGH, Germany’s highest
court in matters of civil
and criminal law), the

Könnten die Kläger auf
Grundlage der in der erweiterten Klageschrift
behaupteten Tatsachen
Ansprüche gegen die
Stiftung Preußischer Kulturbesitz und die

App. 160
applicable rules regarding
civil procedure are those
of the law of the forum
(lex fori).i Thus, the local
(and internationalii) jurisdiction is determined
according to the rules
of the German Code
of Civil Procedure
(Zivilprozessordnung –
“ZPO”), Sec. 12 et seq.
ZPO.iii
German law applies the
principle that a defendant
has to be sued at his or
her place of residence –
at its statutory seat in the
case of a legal entity.iv In
this case, the defendants
are the Federal Republic
of Germany and the SPK,
which have their seats in
Berlin.
Hence, the place of general jurisdiction (and thus
where the court would
have international jurisdiction) is Berlin, Germany, under Sec. 12, 17
ZPO. Under German law,
the Federal Republic of
Germany itself can be
sued just like any other
legal or natural person.v

Bundesrepublik Deutschland vor einem deutsehen
Gericht geltend machen?
1. Deutsche Gerichte
wären für Klagen
gegen die Beklagten
und sachlich für
diesen Rechtsstreit
zuständig
Nach ständiger
Rechtsprechung des Bundesgerichtshofs (BGH,
Deutschlands höchstes
Gericht in Zivil- und
Strafsachen) ist das anwendbare Verfahrensrecht das Recht
am Gerichtsort (lex fori):
Dementsprechend richtet
sich die örtliche (und internationale) Zuständigkeit nach den
Vorschriften der Zivilprozessordnung (ZPO),
§§ 12 ff. ZPO.
Das deutsche Recht folgt
dem Grundsatz, dass der
Beklagte an seinem
Wohnsitz – bzw. bei juristischen Personen an ihrem satzungsmäßigen
Sitz – verklagt werden
muss. Beklagte sind hier

App. 161
Germany has no equivalent to the American
doctrine of sovereign
immunity. The 1794
Prussian Land Law
(Preußisches Landrecht)
established the possibility
of a citizen suing the
state.vi This is also true
with respect to the law
which is applicable today.
For example, Article 34 of
the German constitution.
(Grundgesetz – “GG”),
in connection with § 839
German Civil Code
(Bürgerliches Gesetzbuch
– “BGB”), sanctions in
principle each (culpably
committed) state injustice
that has led to a damage
of the citizen.
2. German law provides statutory bases
for Plaintiffs’ claims
a. General claims for
restitution, in particular Sec. 985 BGB
German law recognizes
causes of action for restitution. A claim by a property owner against an

die Bundesrepublik
Deutschland sowie die
Stiftung Preußischer Kulturbesitz (SPK) mit Sitz
in Berlin.
Der allgerneine
Gerichtsstand (und damit
das international zuständige Gericht) ist hier folglich nach §§ 12, 17 ZPO
in Berlin, Deutschland.
Nach deutschem Recht
kann die Bundesrepublik
Deutschland wie jede andere juristische oder natürliche Person verklagt
werden. Deutschland hat
keine der amerikanischen
Rechtsfigur der ,,sovereign immunity” (Staatenimmunität) vergleichbare
Rechtsfigur. Seit 1794 ist
nach preußischem Recht
die Möglichkeit der Klage
eines Bürgers gegen den
Staat eröffnet. Dies gilt
gleiehermaßen für das
heute geltende Recht.
Beispielsweise sanktionieren Art. 34 Grundgesetz
(GG, die deutsche Verfassung) in Verbindung mit
§ 839 BGB grundsätzlich
jede (schuldhaft

App. 162
entity that wrongfully
begangene) Amtspflichtpossesses his property
verletzung, die einen
would generally be based Dritten schädigt.
on Section 985 of the BGB.
Elements of a Sec. 985
BGB Claim

2. Deutsches Recht
sieht gesetzliche Anspruchsgrundlagen
für die klägerischen
Ansprüche vor

Pursuant to Sec. 985
BGB, German courts allow plaintiffs to seek res- a. Allgemeine Antitution of property that
spruchsgrundlagen,
another entity wrongfully
insbesondere § 985
possesses. More precisely,
BGB
the following conditions:
Das deutsche Recht sieht
must be satisfied:
Anspruchsgrundlagen
vor, die auf Herausgabe
1. The claimant is the
gerichtet sind. Ein Eiowner of a certain
gentümer kann
object.
Herausgabe seines Eigen2. The defendant is the
tums von einem unpossessor of the object
berechtigten Besitzer auf
(Sec. 854 et seq. BGB).
Grundlage von § 985 BGB
3. The defendant is not
verlangen.
entitled to possession
according to Sec. 986
BGB (e.g., the right to Voraussetzungen des
§ 985 BGB
possession may arise
from a contract with
Gemäß § 985 BGB kann
the owner).
ein Kläger vor deutseben
If the conditions are satis- Gerichten geltend mafied, the claimant may de- chen, dass er Anspruch
auf die Herausgabe seines
mand the return of the
Eigentums hat, das ein
Object (Sache).
Dritter unberechtigt

App. 163
Ownership of plaintiff.
Ownership usually requires that the plaintiff
did not transfer title to
the property in question.
However, in certain circumstances, German
courts recognize a cause
of action for restitution
even where the owner has
transferred ownership as
a result of a sale, if the
sale and the transfer of
property are void. If a
plaintiff can show and
prove that a transfer of
title was nonconsensual
or the transaction violated
a statute, a court will
declare it null and void.
• German courts would
declare the obligation
and the transfer null
and void if “good morals” (gute Sitten), Sec.
138 para. 1 BGB, were
violated. “Violation of
good morals” means a
serious breach of the
moral order that is
against the sense of
decency of all fair and
just thinking people:

besitzt. Dafür müssen die
folgenden
Voraussetzungen erfüllt
sein:
1. Der Anspruchsteller
ist Eigentümer einer
bestimmten Sache.
2. Der Anspruchsgegner
ist Besitzer dieser Sache (§ 854 ff. BGB).
3. Der Anspruchsgegner
hat kein Recht zum
Besitz im Sinne des
§ 986 BGB
(beispielsweise aus
einem Vertrag mit
dem Eigentümer).
Sind diese
Voraussetzungen erfüllt,
kann der Anspruchsteller
die Herausgabe der Sache
verlangen.
Eigentum des Klägers.
Eigentum erfordert üblicherweise, dass der Kläger das Eigentum an der
streitgegenständlichen
Sache nicht übertragen
hat. Allerdings gehen
deutsche Gerichte unter
bestimmten
Voraussetzungen von

App. 164
“A mutual contract is
[ . . . ] considered in violation of good morals
according to Sec. 138
para. 1 BGB if there
is a striking disproportion between
performance and consideration and at least
one other circumstance
is present that will
show that the contract
in its entirety [ . . . ]
violates good morals.
This is specifically the
case if an objectionable
intention of the beneficiary was observed.
Such an objectionable
intention is to be assumed in cases of an
especially striking disproportion between
performance and consideration.”vii

einem
Herausgabeanspruch aus,
obwohl zwischen den
Parteien das Eigentum
infolge eines Verkaufs
übertragen wurde,
nämlich in solchen Fällen,
in denen der Verkauf und
die Eigentumsübertragung unwirksam sind.
Wenn ein Kläger darlegen
und beweisen kann, dass
er nicht freiwillig über
das Eigentum verfügt hat
oder das Rechtsgeschäft
gegen ein gesetzliches
Verbot verstößt, stellt ein
Gericht die Nichtigkeit
fest.

• Deutsche Gerichte
würden die Verpflichtung und die Verfügung für nichtig
erklären, wenn die
,,guten Sitten” im
“An especially striking disSinne des § 138 Abs. 1
proportion between perforBGB verletzt worden
mance and consideration
wären. Eine Verregarding real estate
letzung der guten Sittransactions can be asten liegt vor, wenn das
sumed when the value of
Anstandsgefühl aller
the performance is almost
billig und gerecht
twice as high as the value
Denkenden verletzt
of the consideration (senist:
ate; judgment of January

App. 165
19, 2001 – V ZR 437/99 –
BGHZ 146, 298, 302).”viii
“This requirement is in
principle (only) fulfilled
above a disproportion,
in value of plus or minus
90 % (German Federal
Court of Justice, judgment
of January 1, 2014 – V ZR
249/12 – NJW 2014, 1652,
No. 8)”ix
This yardstick effectively
applies to all kinds of
transactions, not just real
estate transactions.
In both cases cited abovex,
the German Federal
Court of Justice and
the Court of Appeals of
Oldenburg, respectively,
found such an especially
striking disproportion
between performance and
consideration to be present. In the first case, the
buyer paid 118,000 Euros
for a condominium which
the seller himself had
bought for only 53,000
Euros two months before.
In the second case, the
buyer paid 90,000 Euros
for a number of

,,Ein gegenseitiger Vertrag ist . . . nach § 138
Abs, 1 BGB sittenwidrig, wenn zwischen
Leistung und Gegenleistung ein auffalliges
Missverhältnis besteht
und außerdem mindestens ein weiterer Umstand hinzukommt,
der den Vertrag bei
Zusammenfassung der
subjektiven und der
objektiven Merkmale
als sittenwidrig erscheinen lässt. Dies ist
insbesondere der Fall,
wenn eine verwerfliche
Gesinnung des Begünstigten hervorgetreten
ist. 1st das Missverhältnis zwischen Leistung und
Gegenleistung besonders grob, lässt dies
den Schluss auf eine
verwerfliche Gesinnung des Begünstigten
zu”.
,,Von einem besonders
groben Missverhältnis
zwischen Leistung und
Gegenleistung kann bei
Grundstücksgeschäften
ausgegangen werden,

App. 166
condominiums although
each single Condominium
was worth at least
100,000 Euros.
• German courts also
have the power to declare an obligation or
a transaction null due
to usury (Wucher),
Sec. 138 para 2 BGB:
“Usury according to
Sec. 138 para. 2 BGB
requires – in addition
to a striking disproportion between performance and
consideration (objective
element) – that a special situation of weakness of the victim,
based on a predicament, inexperience,
lack of judgment or
due to a weak will,
is exploited (subjective
element: see German
Federal Court of Justice, judgment of May
24, 1985 – V ZR 47/84
– NJW 1985, 3006,
3007). It is not necessary that the perpetrator intends to exploit,
but he has to be aware

wenn der Wert der Leistung knapp doppelt so
hoch ist wie der Wert der
Gegenleistung (Senat,
Urteil vom 19.01.2001 – V
ZR 437/99 – BGHZ 146,
298, 302).”
,,Diese Voraussetzung ist
grundsätzlich (erst) ab
einer Verkehrswertüberoder -unterschreitung von
90% gegeben (BGH, Urteil
vom 24.01.2014 – V ZR
249/12 – NJW 2014, 1652
Tz. 8).”
Dieser Maßstab gilt letztlich für sämtliche Arten
von Geschäften, nicht nur
Grundstücksgeschäfte.
In den beiden zitierten
Entscheidungen sahen
der deutsche Bundesgerichtshof bzw. das
Oberlandesgericht Oldenburg solch ein besonders
grobes Missverhältnis
zwischen Leistung und
Gegenleistung als gegeben an. Im ersten Fall
bezahlte der Käufer
118.000 Euro für eine Eigentumswohnung, welche
der Verkäufer selbst zwei

App. 167
of both the striking
disproportion and the
weakness and intentionally avails himself
of the resulting advantages (German Federal Court of Justice,
judgment of February
25, 2011 – V ZR 208/09
– NJW-RR 2011, 298,
No. 10; judgment of
June 16, 1990 – XI ZR
280/89 – NJW-RR
1990, 1199).”xi
In the case cited above,
the Court of Appeals of
Oldenburg held that a
predicament required by
Sec. 138 para. 2 BGB was
present. The seller who
sold his property below its
market value faced a foreclosure proceeding which
was initiated by a third
party. Thus, the seller
was in urgent need of the
purchase price to be paid
by the buyer who exploited the predicament
of the seller.
• Thus, if there is a
striking disproportion
between performance
and consideration, a

Monate zuvor für nur
53.000 Euro gekauft
hatte. Im zweiten Fall
bezahlte der Käufer
90.000 Euro für mehrere
Eigentumswohnungen,
obwohl jede einzelne Eigentumswohnung
mindestens 100.000 Euro
wert war.
• Deutsche Gerichte
können eine Verpflichtung oder Verfügung
auch wegen Wuchers
für nichtig erklären,
§ 138 Abs. 2 BGB:
,,Der Tatbestand des Wuchers gemäß § 138 Abs. 2
BGB setzt neben einem
auffälligen Missverhältnis, zwischen Leistung
und Gegenleistung (objektives Tatbestandsmerkmal) die Ausnutzung einer
– auf einer Zwangslage,
der Unerfahrenheit, dem
Mangel im Urteilsvermögen oder einer erheblichen Willensschwäche
beruhenden – besonderen
Schwächesituation beim
Bewucherten durch den
Wucherer voraus (subjektives

App. 168
transaction can be declared null and void in
two additional situations: Either the beneficiary has exploited
the situation of the victim (Sec. 138 para. 2
BGB), or other circumstances show that the
contract violates good
morals – especially an
objectionable intention
of the beneficiary,
which is assumed in
cases of an especially
striking disproportion
between performance
and consideration (Sec.
138 para. 1 BGB). Under the judgment cited
above, German courts
tend to ease the burden of proof in favor of
the victim by assuming
an objectionable intention of the beneficiary.

Tatbestandsmerkmal: vgl.
BGH, Urteil vom 24. Mai
1985 – V ZR 47/84 – NJW
1985, 3006, 3007). Zwar
ist dafür keine
Ausbeutungsabsicht des
Wucherers erforderlich,
wohl aber ist es notwendig, dass dieser
Kenntnis von dem auffalligen Missverhältnis
und der Ausbeutungssituation hat und sich diese
Situation vorsätzlich
zunutze macht (BGH,
Urteil vom 25.02.2011 – V
ZR 208/09 – NJW-RR
2011, 298 Tz. 10; Urteil
vom 16.06.1990 – XI ZR
280/89 – NJW-RR 1990,
1199).”

In dem zitierten Fall
entschied das Oberlandesgericht Oldenburg, dass
eine Zwangslage, wie sie
§ 138 Abs. 2 BGB
• In addition, any trans- voraussetzt, gegeben war.
action that violates
Der Verkäufer, der sein
statutory law, espeEigentum unter
cially statutes of
Marktwert verkaufte, sah
criminal law, German sich einem ZwangsverCriminal Code
steigerungsverfahren
(“StGB”), is considered gegenüber, das eine dritte
null and void under
Partei gegen ihn
Sec. 134 BGB.xii In
angestrengt hatte.

App. 169
case of claims of restitution of property, the
following statutes
could be violated:

Deshalb war der
Verkäufer dringend auf
die Kaufpreiszahlung des
Käufers angewiesen, der
die Zwangslage des
Verkäufers ausnutzte.

○ Usury (Sec. 291 StGB
– Wucher): The requirements are identi- • Stehen Leistung und
cal to the ones
Gegenleistung in
described above for
einem auffälligen
Sec. 138 Para. 2 BGB.
Missverhältnis, kann
demnach ein Geschäft
○ Duress (Sec. 240, StGB
unter zwei zusätzli– Nötigung): Sec. 240
chen Voraussetzungen
StGB protects the freesittenwidrig sein:
dom of choice and acEntweder die begüntion. Duress therefore
stigte Partei hat die
requires that the perSituation, des Opfers
petrator causes, by
ausgenutzt (§ 138 Abs.
means of force or
2 BGB). Oder weitere
threat with a considerUmstände lassen das
able evil, the victim to
Geschäft als sittenact against its own will
widrig erscheinen,
as desired by the perinsbesondere eine verpetrator.
werfliche Gesinnung
des Begünstigten, die
○ Blackmail (Sec. 253
vermutet wird, wenn
StGB – Erpressung):
Leistung und GegenBlackmail requires
leistung in einem bemonetary disadsonders groben
vantage as a result
Missverhältnis stehen
of duress or a threat,
(§ 138 Abs. 1 BGB).
which could lie in a
Ausweislich der
coerced sale below
zitierten Urteile
market price (this
neigen die deutschen
also fulfills the
Gerichte dazu, die

App. 170
requirements for
Beweislast zugunsten
Duress). Blackmail
des Opfers durch die
according to Sec. 253
Vermutung der beStGB requires pecunisonderen Verwerflichary damages by means
keit zu erleichtern.
of duress with the intention to enrich one- • Darüber hinaus ist
nach § 134 BGB jedes
self or a third party.
Rechtsgeschäft
If one of the above listed
nichtig, das gegen ein
statutes is violated, both
gesetzliches Verbot,
the purchase agreement
insbesondere Normen
as well as the in rem
des StGB, verstößt. Im
transfer of title would be
Kontext von Ansprünull and void.
chen, die auf die
Herausgabe von Besitz
No Right to Possession.
bzw. Eigentum
The defendant must have
gerichtet sind, komthe objects in his possesmen die folgenden
sion at the time the claim
Verbotsnormen in
is asserted but lack a
Betracht:
right to possess. Such a
right to possess may re○ Wucher, § 291 StGB:
sult from ownership as
Die Tata result of a contract
bestandsvoraussetzung
(Vertrag), e.g., a sales
en entsprechen den
contract. If the contract
oben zu § 138 Abs. 2
and its fulfilment were
BGB beschriebenen.
null and void as described
○ Nötigung, § 240 StGB:
above, the defendant
§ 240 StGB schützt die
would not have a “right to
Freiheit der Wilpossess” within the meanlensentschließung und
ing of Sec. 986 para. 1
Willensbetätigung. Die
sentence 1 BGB – either
Nötigung setzt voraus,
from the purchase agreedass durch Gewalt
ment or the in rem

App. 171
transaction (dingliches
Geschäft). As a consequence, the defendant
would not be entitled to
refuse the restitution of
the object. Thus, a claim
for restitution would
exist under Sec. 985
BGB.

oder Drohung mit
einem empfindlichen
Übel das vom Täter
erwünschte Verhalten
des Opfers veranlasst
wird und dass diese
gegen den Willen des
Opfers geschieht.

○ Erpressung, § 253
StGB: Erpressung
b. Further claims
erfordert einen Verunder German law
mögensnachteil als
Ergebnis einer DroPlaintiffs have the ability
hung mit Gewalt oder
to bring various other
einem anderen Übel,
statutory claims for the
was bei einem
alleged wrongful disposZwangsverkauf zu
session of property.
einem Preis weit unter
dem marktüblichen
i. Tort claims
Preis der Fall sein
könnte (damit wären
Plaintiffs who have sufauch die
fered wrongful dispossesVoraussetzungen der
sion of their property
Nötigung erfüllt). Ercan assert claims under
pressung nach § 253
the following three tort
StGB erfordert eine
provisions of German
VermögensbesLaw:
chädigung durch
• Injury to property and
Nötigung in der Abinterference with an
sicht, sich oder einen
established and funcDritten zu bereichern.
tioning business (Sec.
Wurde gegen eines der
823 para. 1 BGB).
aufgeführten Verbote
verstoßen, sind sowohl

App. 172
• Violation of a statute
that is intended to protect another person
and his or her property
(e.g. Sec. 823 para, 2
BGB in connection
with Sec. 240, 253, 263
and 291 StGB: as explained above, Sec. 240
protects individuals
from unlawful and culpable coercion; Sec.
253 protects from
blackmail; and Sec.
263 protects from
fraud).
• Intentional damage
contrary to “good morals,” (Sec. 826 BGB:
The provision requires
intentional actions
that “violate good morals” (sittenwidrig), as
explained above, and
are intended to cause
damage to another
person).xiii
In each case, compensation would be owed in the
form of restitution in kind
according to Sec. 249
BGB.

der Verkauf als auch
die Eigentumsübertragung nichtig.
Kein Recht zum Besitz.
Der Beklagte muss die
Sache zum Zeitpunkt der
Geltendmachung des Anspruchs besitzen, aber
kein Recht zum Besitz haben. Ein solches Recht
zum Besitz kann sich aus
Eigentum als Folge eines
Vertrags, beispielsweise
eines Kaufvertrags,
ergeben. Wären der Vertrag und seine Erfüllung
aber wie oben beschrieben
unwirksam, hätte der
Beklagten eben kein
Recht zum Besitz im
Sinne des § 986 Abs. 1
Satz 1 BGB – weder aus
dem Verpflichtungsgeschäft noch aus dem dinglichen Geschäft.
Infolgedessen könnte der
Beklagte die Herausgabe
der Sache nicht verweigern. Ein
Herausgabeanspruch aus
§ 985 BGB wäre damit
gegeben.

App. 173
ii. Claims due to
Unjust Enrichment
Claimants might also be
entitled to a claim for restitution, under Sec. 812
para. 1 sentence 1, 1st
variant BGB. Assets have
to be returned to the former owner unless,
the new “possessor” is
entitled to the assets. If
a purchase contract as a
potential legal ground
for the transfer of assets
(Vermögensverschiebung)
would be null and
void (see above), the
legal reason for the
transfer of assets
(Vermögensverschiebung)
would be removed. As a
consequence, the defendant would have to restitute, according to Sec. 818
para. 1 BGB, both the obtained object as well as
the benefits gained.

b. Weitere Ansprüche
nach deutschem
Recht
Kläger könnten weitere
Anspruchsgrundlagen auf
Wiedergutmachung für
den behaupteten unberechtigten Eigentumsentzug geltend
machen.
i. Deliktische Ansprüche
Kläger, denen Eigentum
unberechtigt entzogen
wurde, können Ansprüche
im Sinne der folgenden
drei deliktischen Anspruchsgrundlagen geltend machen:
• Verletzung von Eigentum und Eingriff in
den eingerichteten und
ausgeübten Gewerbebetrieb (§ 823 Abs. 1
BGB).

,,In case a sales contract • Verletzung eines Gesetzes, das auf den
has been fulfilled by
Schutz anderer Persoboth parties and is disnen und deren Eigencovered to be null and
tums gerichtet ist, z.B.
void, each party is pri§ 823 Abs. 2 BGB
marily entitled to a rei.V.m. §§ 240, 253, 263
turn of his or her
und 291 StGB: wie

App. 174
respective performance
in exactly the manner it
was given, Sec. 812, 818
para. 1 BGB.”xiv
c. Special Laws concerning reparations
expired due to time

voranstehend
beschrieben schützt
§ 240 StGB Personen
vor schuldhaftem
rechtswidrigen Zwang,
§ 253 StGB schützt vor
Erpressung und § 263
StGB schützt vor Betrug.

In addition to the general
provisions of the BGB de- • Sittenwidrige vorsätzliche Schädigung,
scribed above, various
§ 826 BGB:
more specific German
Voraussetzung für
laws dealt with reparaeinen Anspruch ist
tions for the National
eine vorsätzliche
Socialist periodxv, but all
Handlung, die sittenof them have expired due
widrig ist, wie
to the passage of time.
voranstehend
The last of them expired
beschrieben, und die
on April 1, 1959.
einem anderen einen
Schaden zufügen soll.
The German Federal
Court of Justice is so far
In jedem der genannten
of the view that claims
Fälle würde Schadenserwhich result from the unsatz in natura nach § 249
lawfulness of National
BGB geschuldet werden.
Socialist measures
of expropriation could
only be asserted in accord- ii. Ansprüche aus unance with the specific resgerechtfertiger
titution and compensation
Bereicherung.
laws which had been inKläger könnten auch
tended to provide for repaeinen
ration of wrongs in the
Herausgabeanspruch aus
National Socialist pe§ 812 Abs. 1 S. 1, 1. Alt.
riod.xvi Because the

App. 175
limitations periods of
those specific laws had expired, the corresponding
claims could, in principle,
no longer be asserted.
However, in its decision of
March 16, 2012 (V ZR
279/10, “Sachs”)xvii, the
German Federal Court of
Justice addressed the
question again. The German Federal Court of Justice decided on a case in
which the objects in question had been deemed lost
at the time the specific
laws expired, thus making
it impossible to seek restitution according to those
laws. In the Sachs case,
the German Federal
Court of Justice permitted
a plaintiff to go forward
under the general laws of
the BGB with a claim to
restitution of National Socialist-expropriated property. The Court declined
to rule broadly on
whether plaintiffs in all
cases involving National
Socialist-expropriated
property could invoke the
general restitution

BGB haben. Vermögensgegenstände
müssen dem früheren Eigentümer zurückgegeben
werden, wenn der neue
Besitzer nicht berechtigter Eigentümer ist. Wenn
ein Verkaufsvertrag als
möglicher Rechtsgrund
für die Vermögensverschiebung unwirksam
wäre (siehe oben), wäre
damit der Rechtsgrund
für die Vermögensverschiebung entfallen..
Infolgedessen müsste der
Beklagte nach § 818 Abs.
1 BGB sowohl die erlangte Sache als auch gezogene Nutzungen
herausgeben.
,,Im Falle der
Nichtigkeit eines beiderseits erfüllten
Kaufvertrags hat
gemäß §§ 812, 818 Abs.
1 BGB jeder Teil in
erster Linie einen Anspruch auf Rückgabe
der von ihm gemachten
Leistung in Natur.”

App. 176
provisions of the BGB,
expressly noting that:
“bb) in contrast [to previous cases], current academic literature – in part
following a decision by the
Great Senate for Civil
Matters (order of February
28, 1955 – GSZ 4/54,
BGHZ 16, 350) – is of the
opinion that the restitution laws served primarily
the interests of the injured
parties. That would prohibit denying the injured
party claims that he was
already entitled to under
general civil statutes due
to the injustice.
cc) Whether the opinion
just mentioned calls intoquestion the previous precedents is a question that
can be left open.”
d. Statute of Limitation with respect
to the Claims
As the cause for the claim
essentially dates from
1935, statutes of limitation should also be considered. The title to property

c. Spezialgesetzliche
Entschädigungsansprüche
verfristet
Neben den oben
beschriebenen allgemeinen Anspruchsgrundlagen des
BGB gibt es mehrere Spezialgesetze zur
Wiedergutmachung nationalsozialistischen Unrechts, deren
Ausschlussfristen aber
abgelaufen sind. Die
letzte Ausschlussfrist
endete am 1. April 1959.
Der Bundesgerichtshof
vertritt bisher in ständiger Rechtsprechung die
Ansicht, dass Ansprüche,
die sich aus der Unrechtmäßigkeit einer nationalsozialistischen
Enteignungsmaßnahme
ergeben, grundsätzlich
nur nach Maßgabe der
zur Wiedergutmachung
erlassenen Rückerstattungs- und
Entschädigungsgesetze
und in dem dort vorgesehenen Verfahren verfolgt
werden können. Da diese

App. 177
(Eigentum) in itself is not
statute-barred, but only
the claims that arise from
such a titlexviii such as the
claim for restitution under
Sec. 985 BGB in question
in the present case. A
claim under § 985 BGB is
statute-barred after 30
years according to Sec.
197 para. 1 no. 2 BGB.
However, no observations
are necessary in this regard, as under German
law, the statute limitation
is an affirmative defense
that must be explicitly
raised by the defendant
during the proceedings.xix
Thus, the claim is not legally lost; rather, it can no
longer be enforced (Hemmung der Durchsetzung)
if the affirmative defense
is raised.xx The statute of
limitations affirmative defense is not examined by
the court sua sponte (von
Amts wegen). The court
could only examine
whether a claim had become time-barred if, in
the specific proceeding
and matter in dispute,

Ausschlussfristen der
Spezialgesetze verstrichen sind, könnten im
Grunde genommen keine
entsprechenden Ansprüche mehr geltend gemacht
werden.
Nichtsdestotrotz hat der
BGH in seiner Entscheidung vom 16. März 2012
(V ZR 279/10, Fall
,,Sachs”) diese Frage noch
einmal angesprochen.
Dabei entschied der BGH
über einen Fall, in dem
die streitgegenständlichen Kunstwerke bis
zum Ablauf der
Ausschlussfristen
verschollen waren, so
dass keine
Herausgabeansprüche
nach den Spezialgesetzen
geltend gemacht werden
konnten. Im Fall ,,Sachs”
sah der BGH die Möglichkeit eröffnet, auf
Grundlage der allgemeinen Normen des BGB
einen Anspruch auf
Wiedergutmachung von
NS-Unrecht zu verfolgen.
Der BGH lehnte es ab,
allgemein darüber zu
entscheiden, ob in

App. 178
the defendant had raised
the affirmative defense.

sämtlichen Fällen nationalsozialistischer Enteignung auf die allgemeinen
Anspruchsgrundlagen des
Summary and Conclusion BGB zurückgegriffen
werden könnte und erkläGerman courts would
rte ausdrücklich:
have jurisdiction over
this lawsuit.
“bb) Demgegenüber
[Anm: Gegenüber
There are various legal
der bisherigen
provisions on which a
Rechtsprechung]
plaintiff could base a
herrscht im neueren
claim. Thus, the plaintiffs
Schrifttum – zum Teil
would not be excluded
im Anschluss an eine
from the outset with their
Entscheidung des
claims as alleged in the
Großen Senats für
First Amended ComZivilsachen (Beschluss
plaint.
vom 28. Februar 1955
– GSZ 4/54, BGHZ 16,
350) – die Auffassung
vor, dass das Rückerstattungsrecht in erster
Linie den Interessen
des Geschädigten gedient habe. Das schließe
es aus, dem Geschädigten Ansprüche zu versagen, die bereits nach
den allgemeinen zivilrechtlichen Bestimmungen durch die
Unrechtsmaßnahme
begründet worden
seien.

App. 179
cc) Ob die zuletzt genannte Ansicht Veranlassung bietet, die
bisherige
Rechtsprechung in
Frage zu stellen, kann
dahin stehen.”
d. Verjährung
etwaiger Ansprüche
Da die den geltend gemachten Ansprüchen
zugrundeliegenden
Vorgänge im Jahr 1935
abgeschlossen waren,
könnten etwaige Ansprüche verjährt sein. Eigentum selbst unterliegt
nicht der Verjährung, anders als die mit dem Eigentum einhergehenden
Rechte wie der vorliegend
relevante
Herausgabeanspruch
nach § 985 BGB. Dieser
Herausgabeanspruch verjährt gem. § 197 Abs. 1
Nr. 2 BGB nach dreißig
Jahren.
Diesbezüglich ist aber
keine weitere Erörterung
erforderlich, da, nach
deutschem Recht, Verjährung eine Einrede ist,

App. 180
die vom Beklagten in dem
jeweiligen Verfahren
ausdrücklich erhoben
werden muss. Verjährung
führt dementsprechend
nicht dazu, dass der Anspruch erloschen wäre,
sondern er ist lediglich
nicht mehr durchsetzbar,
wenn die Einrede erhoben
wird. Die mögliche Verjährung eines Anspruchs
wird vom Gericht nicht
von Amts wegen geprüft.
Das Gericht könnte nur
prüfen, ob ein Anspruch
verjährt ist, wenn der
Beklagte in dem anhängigen Verfahren die
Einrede erhoben hat.
Zusammenfassung und
Ergebnis
Deutsche Gerichte wären
für den Rechtsstreit
zuständig.
Es gibt eine Vielzahl von
Anspruchsgrundlagen,
auf die ein Kläger Ansprüche stützen könnte.
Die Kläger wären also mit
ihren Ansprüchen nach
den vorgetragenen
Behauptungen in der

App. 181
erweiterten Klageschrift
nicht von vornherein
ausgeschlossen.
/s/ Jan Thiessen

i

ii

iii

iv
v

See fundamentally German Federal Court of Justice, Judgments of April 27, 1977, WM 1977, p. 793 et seq. as well as of
June 27, 1984, NJW 1985, p. 552 et seq. This view is, however, not entirely undisputed, see Hans-Henning Kunze Papers on the Protection of Cultural Property, Restitution of
“degenerate” Art, Property Law and International Private
Law (Scluiften zum Kulturguterschutz, Restitution “entarteter” Kunst, Sachenrecht und Inteinationales Privatrecht),
Tilbingen 2012, p. 109, fn. 2 with reference to e.g. Haimo
Schack, Law of international Civil Procedure (Internationales Zivilverfahrensrecht), Munich 2010, Sec. 2 III with further references; Otto Palandt/Karsten Thorn, Palandt Civil
Law Code with supplementary statutes, 74th ed. Munich
2015, Intro. To EGBGB Art. 3. recital 27.
See in this regard the leading German statements: Reinhold
Geirner, Law of International Civil Procedure (Internationales Zivilprozessrecht), 7th ed. (2015); Hartmut Linke / Wolfgang Hau, Law of International Civil Procedure
(Internationales Zivilverfahrensrecht), 6th ed. (2015); Heinrich Nagel / Peter Gottwald, Law of International Civil Procedure (Internationales Zivilprozessrecht), 7th edition
(2013); Haimo Schack, Law of International Civil Procedure
(Internationales Zivilverfahrensrecht), 5th ed. (2010).
German Federal Court of Justice, judgment of April 18, 1985
– VII ZR 359/83, BGHZ 94, 156, 158; judgment of June 14,
1965 – GSZ 1/65, BGHZ 44, 46; judgment of October 30, 1974
– IV ZR 18/73, BGHZ 63, 219, 220.
See Sec. 12, 13, 17 ZPO.
German laws and regulations take this for granted. See, e.g.,
the Directive on the representation of the Federal Republic
of Germany in the division of the Federal Ministry of the Interior and on the procedure of representation, thereunder
Part B Procedure, 1.2.1.1: If the Federal Republic of Germany

App. 182

vi

vii

viii

ix

x

xi

xii

xiii

xiv

xv

is the defendant, the report is to be submitted immediately
upon notification of the complaint. In the past, there have
also been numerous judgments against the Federal Republic
of Germany, see, e.g., German Federal Court of Justice, Judgment of February 15, 2001 – III ZR 120/00; German Federal
Court of Justice, Judgment of June 4, 2009 – III ZR 144/05.
“Allgemeines Landrecht für die Preußischen Staaten vom 1.
Juni 1794” (General Land Law for the Prussian States of
June 1, 1794), Einleitung § 74f., zitiert nach www.opinioiuris.de/quelle/1621.
German Federal Court of Justice, judgment of January 1,
2014 – V ZR 249/12, NJW 2014, 1652.
German Federal Court of Justice, judgment of January 1,
2014 – V ZR 249/12 NJ W 2014, 1652, No. 8.
Court of Appeals of Oldenburg, judgment of October 2, 2014
– 1 U 61/14, No. 16 (juris).
German Federal Court of Justice, judgment of January 1,
2014 – V ZR 249/12 – NJW 2014, 1652; Court of Appeals of
Oldenburg, judgment of October 2, 2014 – 1 U 61/14 (juris).
Court of Appeals of Oldenburg, judgment of October 2, 2014
– 1 U 61/14, No. 16 (juris)
See regarding the reciprocal relation of the provisions and especially between Sec. 134 BGB in connection with Sec. 291
StGB and Sec. 138 Subsec. II, Ellenberger in Palandt, Commentary on the BGB, 68th ed, Sec. 138 recital 13 et seq.
With regard to the violation of good morals see above, Sec.
138 BGB.
Supreme Court of the German Reich (Reichsgericht, “RG”),
judgment of December 20, 1918 – II 204/18.
In particular the Restitution Laws of the Allied Forces (the
USREG for the American occupation zone, the FrREV for the
French occupation zone, BrREG of the British Government
and the REAO for Berlin), respectively the Federal Restitution Law as well as the Property Law.
However, even if the prerequisites for the restitution according to the Restitution Laws of the Allied were fulfilled,
such a claim could not be asserted by claimants any more as
they would be blocked by the terms of exclusion of the respective laws, which ran up until 1959. Those terms have expired
since late 1948 or mid-1950. They were, however,

App. 183

xvi

xvii

xviii

xix

xx

subsequently extended by the German Federal Restitution
Law (Bundesrückerstattungsgesetz – BRüG).
Law No. 59 by the American military government of November 10, 1947, in Official Gazette of the Military Government in Germany, American Controlled Territory, Issue G, p.1 = Law and
Ordinance Gazette Hesse 1947, Supplement 9, 113 = Law and Ordinance Gazette Bavaria 1947, 221 = Law Gazette Bremen 1947,
303) last amended by Law No. 42 of the High Commissioner of the
United States for Germany of August 23, 1954 (Official Gazette of
the Allied High Commission in Germany, 3079), quoted from Graf,
p. 24, fn. 73 (text of law available via German National Library
website, at http://deposit.ddb.de/online/vdr/rechtsq.htm); Military
Government Germany, British Controlled Territory, Law No. 59,
Restitution of identifiable property assets to the victims of National
Socialist measures of oppression (Rückerstattung feststellbarer
Vermögensgegenstände an Opfer der nationalsozialistischen Unterdrückungsmaßnahmen), in Official Gazette of the Military Government in Germany, British Controlled Territory, No. 28, p.1169;
Regulation No. 120 of the French High Commander in Germany
of November 10, 1947 on the restitution of looted property assets
(Verordnung über die Rückerstattung geraubter Vermögensobjekte), Official Gazette of the French High Command in Germany
(Journal Officiel) No. 119, p. 1219.
See German Federal Court of Justice, judgments of February
11, 1953 – II ZR 51/52, BGHZ 9, 34, 45; of October 8, 1953 –
IV ZR 30/53, BGHZ 10/340, 343; of May 5, 1956 – VI ZR
138/54, RzW 1956, 237 as well as Resolution of May 27, 1954
– IVZB 15/54, NJW 1954, 1368.
German Federal Court of Justice, March 16, 2012 – V ZR
279/10, NJW 2012, 1796.
See e.g. Helmut Grothe in Munich Commentary on the Civil Code
(Münchener Kommentar zum Bürgerlichen Gesetzbuch), 7th edition Munich 2015, Sec. 194 recital 2 with reference inter alia to
German Federal Court of Justice, NJW 2011, 1133 recital 12.
See German Federal Court of Justice, judgment of January
27, 2010 – VIII ZR 58/09, No. 27 and 28.
See German Federal Court of Justice, judgment of January
27, 2010 – VIII ZR 58/09, No. 27 and 28.

App. 184
Translation of selected excerpts of the German
Civil Code (BGB), source: http://www.gesetze-iminternet.de/englisch_bgb/german_civil_code.pdf
Title 2 – Declaration of intent
Section 134 Statutory prohibition
A legal transaction that violates a statutory prohibition is void, unless the statute leads to a different conclusion.
Section 138 Legal transaction contrary to public
policy; usury
(1) A legal transaction which is contrary to public policy is void.
(2) It particular, a legal transaction is void by which
a person, by exploiting the predicament, inexperience,
lack of sound judgement or considerable weakness of
will of another, causes himself or a third party, in exchange for an act of performance, to be promised or
granted pecuniary advantages which are clearly disproportionate to the performance.
Title 26 – Unjust enrichment
Section 812 Claim for restitution
(1) A person who obtains something as a result of the
performance of another person or otherwise at his expense without legal grounds for doing so is under a
duty to make restitution to him. This duty also exists
if the legal grounds later lapse or if the result intended

App. 185
to be achieved by those efforts in accordance with the
contents of the legal transaction does not occur.
(2) Performance also includes the acknowledgement
of the existence or non-existence of an obligation.
Section 818 Scope of the claim to enrichment
(1) The duty to make restitution extends to emoluments taken as well as to whatever the recipient acquires by reason of a right acquired or in compensation
for destruction damage or deprivation of the object obtained.
(2) If restitution is not possible due to the quality of
the benefit obtained, or if the recipient is for another
reason unable to make restitution, then he must compensate for its value.
(3) The liability to undertake restitution or to reimburse the value is excluded to the extent at the recipient is no longer enriched.
(4) From the time when the action is pending onwards, the recipient is liable under the general provisions of law.
Title 27 – Torts
Section 823 Liability in damages
(1) A person who, intentionally or negligently, unlawfully injures the life, body, health, freedom, property or
another right of another person is liable to make

App. 186
compensation to the other party for the damage arising
from this.
(2) The same duty is held by a person who commits a
breach of a statute that is intended to protect another
person. If according to the contents of the statute, it
may also be breached without fault, then liability to
compensation only exists in the case of fault.
Section 826 Intentional damage contrary to
public policy
A person who, in a manner contrary to public policy,
intentionally inflicts damage on another person is liable to the other person to make compensation for the
damage.
Title 4 – Claims arising from ownership
Section 985 Claim for restitution
The owner may require the possessor to return the
thing.
Section 986 Objections of the possessor
(1) The possessor may refuse to return the thing if he
or the indirect possessor from whom he derives his
right of possession is entitled to possession as against
the owner. If the indirect possessor is not authorised in
relation to the owner to permit the possessor to have
possession, the owner may require the possessor to deliver the thing to the indirect possessor or, if the

App. 187
indirect possessor cannot or does not wish to take possession again, to the owner himself.
(2) The possessor of a thing that has been alienated
under section 931 by assignment of the claim for return may raise against the new owner the objections
that he is entitled to use against the claim assigned.

Translations of selected excerpts of the German
Criminal Code (StGB), source: http://www.gesetzeim-internet.de/englisch_stgb/german.criminal_
code.pdf
Section 240 Using threats or force to cause a
person to do, suffer or omit an act
(1) Whosoever unlawfully with force or threat of serious harm causes a person to commit, suffer or omit an
act shall be liable to imprisonment not exceeding three
years or a fine.
(2) The act shall be unlawful if the use of force or the
threat of harm is deemed inappropriate for the purpose
of achieving the desired outcome.
(3)

The attempt shall be punishable.

(4) In especially serious cases the penalty shall be imprisonment from six months to five years. An especially
serious case typically occurs if the offender
1. causes another person to engage in sexual activity;

App. 188
2. causes a pregnant woman to terminate the
pregnancy; or
3. abuses his powers or position as a public official.
Section 253 Blackmail
(1) Whosoever unlawfully with force or threat of serious harm causes a person to commit, suffer or omit an
act and thereby causes damage to the assets of that
person or of another in order to enrich himself or a
third person unlawfully shall be liable to imprisonment not exceeding five years or a fine.
(2) The act shall be unlawful if the use of force or the
threat of harm is deemed inappropriate to the purpose
of achieving the desired outcome.
(3)

The attempt shall be punishable.

(4) In especially serious cases the penalty shall be imprisonment of not less than one year. An especially serious case typically occurs if the offender acts on a
commercial basis or as a member of a gang whose purpose is the continued commission of blackmail.
Section 263 Fraud
(1) Whosoever with the intent of obtaining for himself or a third person an unlawful material benefit
damages the property of another by causing or maintaining an error by pretending false facts or by

App. 189
distorting or suppressing true facts shall be liable to
imprisonment not exceeding five years or a fine.
(2)

The attempt shall be punishable.

(3) In especially serious eases the penalty shall be,
imprisonment from six months to ten years. An especially serious case typically occurs if the offender
1.

acts on a commercial basis or as a member of
a gang whose purpose is the continued commission of forgery or fraud;

2.

causes a major financial loss of or acts with
the intent of placing a large number of persons in danger of financial loss by the continued commission of offences of fraud;

3.

places another person in financial hardship;

4.

abuses his powers or his position as a public
official; or

5.

pretends that an insured event has happened
after he or another have for this purpose set
fire to an object of significant value or destroyed it, in whole or in part, through setting,
fire to it or caused the sinking or beaching of
a ship.

(4) Section 243(2), section 247 and section 248a shall
apply mutatis mutandis.
(5) Whosoever on a commercial basis commits fraud
as a member of a gang, whose purpose the continued
commission of offences under sections 263 to 264 or
sections 267 to 269 shall be liable to imprisonment from

App. 190
one to ten years, in less serious cases to imprisonment
from six months to five years.
(6) The court may make a supervision order (section
68(1)).
(7) Section 43a and 73d shall apply if the offender
acts as a member of a gang whose purpose is the continued commission of offences under sections 263 to
264 or sections 267 to 269. Section 73d shall also apply
if the offender acts on a commercial basis.
Section 291 Usury
(1) Whosoever exploits the predicament, lack of experience, lack of judgment or substantial weakness of
will of another by allowing material benefits to be
promised or granted to himself or a third person
1.

for the rent of living space or additional services connected therewith;

2.

for the granting of credit;

3.

for any other service; or

4.

for the procurement of one of the previously
indicated services,

which are in striking disproportion to the value of the
service or its procurement, shall be liable to imprisonment not exceeding three years or a fine. If more than
one person contribute as providers of benefits, procurers or in other ways, and if the result is thereby a striking disproportion between the sum of the material
benefits and the value of the services the 1st sentence

App. 191
above shall apply to each of the persons who exploits
the predicament or other weakness of the other for
himself or a third person in order to obtain excessive
material benefits.
(2) In especially serious cases the penalty shall be imprisonment from six months to ten years. An especially
serious case typically occurs if the offender
1.

by the offence places the other in financial
hardship;

2.

commits the offence on a commercial basis;

3.

accepts promissory notes representing usurious material benefits.

[LOGO] Urkundenrolle B1 UR 79 / 2016 B1 UZ 127 /
Notar Klaus M. Wetzel *
2016
Notariat Tübingen B1*
Schulberg 10*72070 Tübingen
notarwetzel@web.de* www.wetzel.notar.de
Tel. 07071/200-2813*Fax 07071/27825
Authentication of Signature
I hereby certify, that the overleaf is the true signature,
subscribed in my presence, of
Mr. Dr. Jan Peter Thiessen,
born on XXXXXXXXXX,
of D-72070 Tübingen, Pfalzhaldenweg 22,
Germany
identified by his German identity card

App. 192
Tübingen, 07.03.2016
Notary
/s/ [Illegible]
(Wetzel

[SEAL]

App. 193
EBERHARD KARLS

UNIVERSITÄT TÜBINGEN [LOGO]
Prof. Dr. Jan Thiessen ∙ Geschwister-Scholl-Platz
∙ D-72074 Tübingen
Faculty of Law
Chair of Civil Law,
German Legal History and
Contemporary Legal History,
Commercial and Corporate Law
Prof. Dr. Jan Thiessen
Address:
Geschwister-Scholl-Platz
D-72074 Tübingen
Germany
Office: Neue Aula, Room 245.1
Telephone: +49 7071 29-72699/-78122
Telefax:
+49 7071 29-5309
e-mail: thiessen@jura.uni-tuebingen.de
Internet: www.jan-thiessen.de
June 7, 2016

App. 194
Supplemental Expert Opinion
On Possibility of Bringing a Claim
in a German Court
I.

Einleitung

Die anwaltlichen Vertreter
der Beklagten im
vorliegenden Fall haben
mir das Gutachten von
Herrn Prof. Dr. Stephan
Meder zur Kenntnis gegeben. Herr Meder entgegnet darin meinem eigenen
Gutachten vom 7. März
2016 und trägt vor, nach
deutschem Recht bestehe
für die Kläger praktisch
keine Möglichkeit, ihre
Forderungen mit Rechtsbehelfen vor deutschen
Gerichten zu erheben. Ich
nehme die Ausführungen
von Herrn Meder zum
Anlass, Herrn Meder
entschieden zu
widersprechen und meine
Ausführungen in meinem
Gutachten vom 7. März
2016 näher zu erläutern.
Insbesondere ist zu
betonen, dass die
deutschen Gerichte,
einschließlich des

I.

Introduction

Counsel for the defendants have shared with
me the expert opinion by
Professor Dr. Stephan
Meder. In his opinion,
Professor Meder responds to my expert
opinion dated 7 March
2016 and argues that under German law, plaintiffs would be practically
precluded from addressing their claims before a
German court. I take
Professor Meder’s arguments as an opportunity
to contradict Professor
Meder in the strongest
terms and to further explain my previous statements made in my expert
opinion of 7 March 2016.
In particular, it must be
emphasized that German
courts, including the German Federal Constitutional Court, take into
account Germany’s

App. 195
Bundesverfassungsgerichts, bei ihren
richterlichen Entscheidungen die besondere
Verantwortung Deutschlands für die Opfer der
Nazi-Herrschaft als
bedeutendes Kriterium
der Rechtsauslegung
berücksichtigen.

special responsibility towards the victims of the
Nazi regime as an important criterion for legal
interpretation in their
decision-making.

II

II. Special and General Claims

Spezielie und
allgeineine
Anspriiche

German law provides for
Das deutsche Recht
specific restitution and
enthält spezielle Rückercompensation claims as
stattungs- und Entsehädi- well as restitution claims
deriving from general
gungsansprüche sowie
allgemeine zivilrechtliche civil law.1 The specific
Herausgabeansprüche. Die claims were introduced
partly by the Allies imspeziellen Ansprüche
wurden zum Teil unmittel- mediately after Gerbar nach der Kapitulation many’s surrender, partly
Deutschlands von den Al- by the Federal Republic
of Germany after its
liierten eingeführt, zum
Teil von der Bundesrepub- foundation, and partly
lik Deutschland nach
after the German reunifideren Gründung, zum Teil cation.2 In each case, the
nach der Wiedervererespective legislature
inigung. Diese speziellen
made the specific claims
Ansprüche wurden vom
subject to limitation perijeweiligen Gesetzgeber
ods. These limitation pemit Ausschlussfristen
riods were designed to
versehen. Die
cover the period of time
Ausschlussfristen
within which victims

App. 196
orientierten sich an dem
Zeitraum, innerhalb dessen die Opfer ihre Ansprüche mutmaßlich geltend
machen könnten.

were presumed able to
assert their claims.

The limitation periods
were aimed at providing
legal certainty, for all
Diese Fristen hatten das
parties involved, with reZiel, für alle Beteiligten
gard to the existing or
nach gewisser Zeit
non-existing claims. For
Rechtssicherhei über die
this reason, according to
bestehenden oder nicht
established German case
bestehenden Ansprüche zu law, the specific restituschaffen. Nach ständiger
tion and compensation
Rechtsprechung gehen
claims generally superdeshalb diese speziellen
sede claims deriving
from general civil law.3
Ansprüehe grundsätzlich
den allgemeinen zivilIn the present case,
rechtlichen Ansprüchen
claims deriving from genvor. Allgemeine zivilrecht- eral civil law may be apliche Ansprüeh kommen
plicable insofar as they
also im vorliegenden Fall
are not precluded by the
in Betracht, soweit sie
specific claims mentioned
nicht von den erwähnter
above. In principle, howspeziellen Rechtsbehelfen ever, this is precisely the
verdrängt werden. Gerade case here because all
dies ist hier prinzipiell
time limits set by specific
aber der Fall, weil alle
restitution and compenFristen der spezialgesetzli- sation claims have alchen Ansprüche bereits
ready expired.
abgelaufen sind.

App. 197
III.

Das Urteil Sachs

Im Urteil Sachs (Urteil
vom 16. März 2012,
Aktenzeichen V ZR 279/
10) hat der Bundesgerichtshof sich freilich vorbehalten zu prufen, ob ein
Ausschluss der spezialgesetzlichen und der allgemeinen zivilrechtlichen
Ansprüche dazu führen
könnte, in besonderen
Einzelfällen das NS-Unrecht entgegen dem Sinn
und Zweck der Rückerstattungsbestimmungen
zu perpetuieren. Der
BGH nennt hier den Fall,
dass ,,der verfolgungsbedingt entzogene Vermögensgegenstand nach
dem Krieg verschollen
war und der Eigentümer
erst nach Ablauf der Frist
für die Anmeldung eines
Rückerstattungsanspruchs von seinem Verbleib Kenntnis erlangt
hat“.

III.

The Sachs Case

In the Sachs case (judgment dated 16 March
2012, file no. V ZR
279/10), however, the
German Federal Court of
Justice reserved the
right to assess, on a caseby-case basis, whether
precluding restitution
claims based on both specific restitution law and
general civil law could
lead to a perpetuation of
Nazi injustice in the particular case, contrary to
restitution law’s nature
and purpose. The German Federal Court of
Justice described the
case before it as one in
which “an asset seized as
a result of persecution
was untraceable after the
war and its owner only
learned of its whereabouts after the time limit
for filing a restitution
claim had already expired.”4

App. 198
In einem soichen Fall
seien die allgemeinen zivilrechtlichen Ansprüche
im Zivilrechtsweg zu eröffnen. Mit Hinweis auf
einen älteren Fall aus dem
Jahr 1955 hat der Bundesgerichtshof zugleich
bekräftigt, dass die
Eroffnung des Zivilrechtswegs bei
Konkurrenz zu spezialgesetzlichen, einem anderen
Geriehtszweig zugewiesenen Rechtsbehelfen von den Zivilgerichten
voll überprütt werden
kann.

The Court held that in
such a case, claims could
be asserted based on general civil law through the
civil courts. Referring to
a prior case from 19555,
the German Federal
Court of Justice at the
same time reaffirmed
that where general civil
law claims compete with
applicable special restitution law remedies that
fall within the jurisdiction of courts other than
civil courts, the right to
bring the case before the
civil courts is subject to
full review by the civil
courts.

In jenem älteren Fall aus
dem Jahr 1955 wie auch in
einem weiteren Fall aus
dem Jahr 2012 hat der
Bundesgerichtshof sehr
sorgfältig geprüft, oh der
Zivilrechtsweg trotz der
grundsätzlich vorrangigen
Spezialgesetzgebung zu eröffnen ist. Diese beiden
Fälle waren zwar mit dem
Fall Sachs nicht identisch.
Doch ist den beiden Fällen
gemeinsam, dass der Bundesgerichtshof die

Both in this particular
case from 1955 and in
another case from 20126,
the German Federal
Court of Justice has meticulously examined
whether general civil law
proceedings are available
despite the general primacy of specific legal
remedies. Indeed, both
cases were not identical
with the Sachs case.
However, both cases have
in common that the

App. 199
jeweiligen Entziehungen
durch das Nazi-Regime
bzw. das ostdeutsche kommunistische Regime schon
nach den rechtlichen
Maßstäben zur Zeit der
Entziehung nicht als gültige Eigentumsübergänge
anerkannt hat. Mit dem
Fall Sachs haben diese beiden Entscheidungen gemeinsam, dass ungeachtet
des grundsätzlichen Vorrangs der Spezialgesetzgebung der Zivilrechtsweg in
besonderen Fällen eroffnet
wurde. Damit solte
sichergestellt werden, dass
nicht entgegen der Absicht
der Rückerstattungsbestimmungen, die Interessen
des Geschädigten zu
schützen, in diesen Fällen
den Maßnahmen eines totalitären Regimes im Nachhinein zum Erfolg
verholfen würde.

German Federal Court of
Justice refused to recognize seizures by the Nazi
regime and the east German communist regime,
respectively, as valid
ownership transactions,
even on the basis of legal
standards effective at the
time of the expropriation.
Just like with the Sachs
case, in both cases access
to civil courts has been
granted for particular
cases despite the general
primacy of specific restitution laws. With that, it
has been ensured that
the specific restitution
law’s purposes of protecting the aggrieved party’s
interests were not undermined by retrospectively
leveraging the methods
of a totalitarian regime.

In diesem Kontext steht
das Urteil Sachs. Die betreffende Passage aus dem
Urteil Sachs lautet:

The Sachs case has to be
read in this context. The
relevant section of the
Sachs case reads as follows:

,,Das vorrangige Ziel der
Naturalrestitution steht
ferner der Annahme

“The primary objective of
restitution in rem is

App. 200
entgegen, ein
zivilrechtlicher Herausgabeanspruch werde durch
die alliierte Rückerstattungsanordnung auch
dann verdrängt, wenn es
dem Berechtigten unmöglich war, die Rückgabe
des
Vermögensgegenstands in
deren Rahmen zu erreichen, weil dieser – wie hier
– bis zum Ablauf der Amneldefrist des § 50 Abs. 2
REAO verschollen und damit nicht ,feststellbar‘ war.
Bliebe es in einem solchen
Fall auch nach dem Wiederauffinden des Gegenstands bei der von dem
Bundesgerichtshof bislang
angenommenen Sperrwirkung des Art. 51 Satz 1
REAO, wären der Berechtigte und seine
Rechtsnachfolger von der
vorrangig angestrebten
Wiedergutrnachung durch
Rückgabe dauerhaft
ausgeschlassen, obwohl
diese, wenn auch zu einem
späteren Zeitpunkt,
tatsächlich und – auf der
Grundlage der allgemeinen Gesetze – auch

contrary to the assumption that a civil law
claim for restitution
would be precluded by
the Restitution Decree
[REAO] of the Allies,
where the beneficiary was
unable to achieve the restitution of the confiscated
asset under the procedure
[provided for under the
Decree] because the asset
– as in the present case –
was missing until expiration of the filing deadline
of article 50 para 2
REAO and was therefore
not ‘identifiable’. If, even
after the re-emergence of
the asset, the barrier effect of article 51 sentence
1 REAO as adopted thus
far by the Federal Court
of Justice were still to be
applied in such a case,
the beneficiary and his legal successors would be
permanently excluded
from compensation by
way of restitution being
primarily sought, despite
the fact that such restitution would also be factually and – on the basis of
the general laws – legally

App. 201
rechtlich möglich ist. Die
alliierten Rückerstattungsbestimmungen hätten
dem Berechtigten damit
jede Möglichkeit genommen, die Wiederherstellung
des rechtmäßigen Zustands zu verlangen und
auf diese Weise das nationalsozialistische Unrecht
perpetuiert. Ein solches Ergebnis ist mit dem Sinn
und Zweck dieser Bestimmungen, die Interessen des
Geschädigten zu schützen
(vgl. BGH Beschluss vom
28. Februar 1955 – GSZ
4/54, BGHZ 16, 350, 357),
nicht zu vereinbaren.“

possible at a later timer
As a result, the restitution rules of the Allies
would deny the beneficiary any possibility of
claiming restoration of
the lawful status and, by
doing so, would perpetuate National-Socialist
[Nazi] injustice. Such a
result is incompatible
with the nature and purpose of these provisions to
protect the interests of the
victim (cf. BGH, decision
of 28 February 1955 –
GSZ 4/54, BGH 16,350,
357).”7

Hiemach müsste sich ein
deutsches Gericht im
Lichte der Sachs-Entscheidung die Frage stellen, ob
ein ähalich besonderer
Einzelfall vorliegt, der es
erforderlich macht, die
allgemein zivilrechtlichen
Ansprüehe trotz Ablaufs
der Fristen der spezialgesetzlichen Ansprüche im
Zivilrechtsweg zu eröffnen.

According to this reasoning, a German court
hearing a claim for restitution under the general
civil laws would have to
consider, in the light of
the Sachs case, whether
the case before it is a
similar special case that
permits a claim under
general civil law despite
the expiration of time
limits for claims under
specific restitution laws.

App. 202
Die Erwägungen des Bundesgerichtshofs im SachsFall sind ersichtlich von
der besonderen Verantwortung Deutsehiands
gegenüber den Opfern des
Nazi-Regimes getragen.
Dies fügt sich ein in die
ständige Rechtsprechung
des Bundesverfassungsgerichts. So hat das
Bundesverfassungsgericht
wegen der Singularität der
Nazi-Verbrechen eine
Norm für verfassungsgemäß exklärt, die
es verbietet, die NaziHerrschaft öffentlich zu
billigen, zu verherrlichen
oder zu reehtfertigen, um
die Opfer der NaziHerrschaft vor einer Verhöhnung zu schützen.
Das Bundesverfassungsgericht hat so
entschieden ,,[a]ngesichts
des sich allgemeinen Kategorien entziehenden Unrechts und des Schrekkens,
die die nationalsozialistische Herrschaft über Europa and weite Teile der
Welt gebracht hat, und der
als Gegenentwurf hierzu
verstandenen Entstehung

The line of reasoning of
the German Federal
Court of Justice in the
Sachs case is obviously
driven by Germany’s special responsibility towards victims of the Nazi
regime. This is consistent
with established case law
of the German Federal
Constitutional Court.
The German Federal
Constitutional Court has
generally considered a
law to be constitutional
that prohibited any attempts to approve, glorify or justify the Nazi
regime in public, both because of the enormity of
the crimes committed
during the Nazi era and
to effectively protect the
victims of the Nazi regime from any insult.
The German Federal
Constitutional Court has
explained this particular
reasoning as based on
“the unmeasurable degree of injustice and terror imposed by the Nazi
regime on Europe and
many parts of the world,
and the foundation of the

App. 203
der Bundesrepublik
Deutschland“. Hier wie in
anderen Fällen hat das
Bundesverfassungsgericht
die besondere Verantwortung Deutschlands als
bedeutendes Kriterium
der Rechtsauslegung
berücksichtigt. Anders
forumliert, ist die hohe
moralische Verantwortung
Deutschlands für die NaziVerbrechen auch für die
rechtsprechende Gewalt in
Deutschland so essentiell,
dass sie in rechtlichen
Auseinandersetzungen
von grundsätzlicher
Bedeutung ist und für die
Entscheidung den
Ausschlag geben kann.

Federal Republic of Germany as an explicit alternative to that”.8 Indeed,
in other cases the German Federal Constitutional Court has
similarly accepted and
used the German Nazi
past as a significant criterion in its reasoning.9
In other words, the enormous moral responsibility of Germany in light
of the crimes committed
during the Nazi-era is
essential also to the German judicial power and
may shape legal disputes
and influence their outcome.

Der Fall Sachs selbst gab
keinen unmittelbaren Anlass, einen weitreichenden
Grundsatz aufzustellen,
nach welchem die allgemeinen zivilrechtlichen
Ansprüche im Zivilrechtsweg zu eröffnen
seien, obwohl die
Ausschlussfristen der
spezialgesetzlichen
Rechtsbehelfe bereits
abgelaufen seien. Der
Bundesgerichtshof hat es

The Sachs case itself did
not provide an opportunity to establish a
general principle for allowing claims based on
general civil law notwithstanding the expiry of
the time limits for
remedies under specific
restitution laws. Nevertheless, the German
Federal Court of Justice
considered it necessary
to make reference to any

App. 204
jedoch für erforderlich gehalten, auf mögliche Fälle
hinzuweisen, in welchen
eine Verdrängung der
allgemeinen zivilrechtlichen Ansprüche durch
bereits verfristete spezialrechtliche Ansprüche
zu einem Ergebnis führen
würde, das mit der
Gerechtigkeit, den
Grundrechten der
Opfer und dem
Rechtsstaatsprinzip
unvereinbar wäre.

potential cases in which
the preclusion of claims
based on general civil
law due to expired claims
arising under specific
restitution laws would
lead to a situation that is
unjust and incompatible
with constitutional
rights of the victims and
with rule of law standards.

Der Bundesgerichtshof
spricht hies von Fällen, in
welehen die Opfer der NSHerrschaft oder deren Nachfahren aufgrund besonderer Umstände daran
gehindert waren, den Verbleib der entzogenen Gegenstände zu rekonstruieren. Wollte man in
solchen Fällen den Opfern
vorhalten, sie hätten ihre
Ansprüche nicht
rechtzeitig geltend gemacht, würde man sie
gewissermaBen ein
zweites Mal entrechten,
oder wie der Bundesgerichtshof formuliert:

The German Federal
Court of Justice made
reference to cases in
which the Nazi regime’s
victims or their descendants were, due to special
circumstances, prevented
from tracing back seized
assets. If victims in those
cases were confronted
with the argument that
they did not bring their
claims in a timely manner, they would, to some
extent, be deprived of
their rights once again,
or as the German Federal Court of Justice puts

App. 205
man würde das NSUnrecht perpetuieren.

it: Nazi injustice would
be perpetuated.

Diese Aussagen des Bundesgeriehtshofs im Urteil
Sachs sind in der
deutschen Rechtsliteratur
teilweise kritisch aufgenommen worden. Kritisiert wird insbesondere,
dass der Bundesgerichtshof es in einem
obiter dictuin für möglich
erklärt hat, die allgemeinen zivilrechtlichen
Ansprüche ungeachtet
abgelaufener Fristen der
Spezialrechtsbehelfe zu
eröffnen, obwohl im Fall
Sachs kein Anlass dafür
bestand, den Vorrang der
Spezialrechtsbehelfe prinzipiell in Frage zu stellen.
Zudem ist der vom Bundesgerichtshof formulierte
PrüfungsmaBstab, ob ein
Ausschluss auch der allgemeinen zivilrechtlichen
Ansprüche daze führen
würde, das NS-Unrecht zu
perpetuieren, so weitreichend formuliert, dass er
auch die generelle Anwendbarkeit der Zivilrechtsansprüche tragen
würde. In der deutschen

These statements by the
German Federal Court of
Justice in the Sachs case
had some critical reception in German legal literature.10 In particular, it
has been criticized that
the German Federal
Court of Justice, as part
of an obiter dictum, discussed a rule allowing
claims based on general
civil law despite the expiration of time limits for
claims under specific restitution laws, even
though the Sachs case
gave no grounds for
questioning the primacy
of the specific restitution
law in principle. Furthermore, the test established by the German
Federal Court of Justice
to determine whether the
exclusion of claims based
on general civil law
would lead to a perpetuation of Nazi injustice, is,
due to its extensive
scope, likely to lay the
groundwork for generally
allowing restitution

App. 206
Rechtsliteratur ist man
sich dennoch weitgehend
einig, dass der Bundesgerichtshof im Urteil
Sachs nicht den
grundsätzlichen Vorrang
der spezialgesetzlichen
Rechtsbehelfe aufheben
wollte. Das Urteil Sachs
wird deshalb weitgehend
auch nicht als Ankündigung einer grundsätzlichen Rechtsprechungsänderung interpretiert.

claims based on general
civil law. However, German legal scholars are in
agreement that the German Federal Court of
Justice in the Sachs decision did not intend to
abandon the general rule
of the specific restitution
law’s primacy. According
to broad opinion, therefore, the Sachs decision
is not seen as announcing a fundamental
change in case law.11

Zweifelsfrei jedoch hat der
Bundesgerichtshof sich
vorbehalten, im Einzelfall
zu prüfen, ob ein
Ausschluss sowohl der
spezialgesetzlichen als
auch der allgemeinen zivilrechtlichen Ansprüche
entgegen dem Sinn und
Zweck der Rückerstattungsbestimmungen dazu
führen würde, dass das
NS-Utrecht fortgeschrieben wird. Hatten
die Opfer oder ihre
Rechtsnachfolger keine reale Chance, ihre spezialgesetzlichen Rechtsbehelfe
innerhalb der dafür
vorgesehene Fristen zu

It is, however, beyond
doubt that the German
Federal Court of Justice
has reserved the right to
assess on a case-by-case
basis whether the exclusion of claims based on
both specific laws and
general civil law is contrary to the nature and
purpose of specific restitution laws and would
lead to a continuation of
Nazi injustice. If the victims and their legal successors did not have a
real chance to assert
their claims based on
special restitution laws
within the stipulated

App. 207
erheben, würde ein
Ausschluss jeglicher
Rechtsbehelfe dem Sinn
und Zweck der Rückerstattungsgesetzgebung
zuwiderlaufen.

time limits, a preclusion
of any legal remedies
would contradict the restitution law’s nature and
purpose.12

Meines Erachtens ist
daher die zitierte Passage
im Urteil Sachs
wenigstens dahingehend
zu verstehen, dass der
Bundesgerichtshof für
ausdrücklich angesprochene besondere Eitizelfälle
eine begrenzte
Rechtsprechungsänderung
ankündigt, um mit seiner
ÄuBerung im Urteil Sachs
aus reehtsstaatlichen
Gründen das Vertrauen
etwaiger Beklagter in die
Ausschlusswirkung der
spezialgesetzlichen Fristen zu erschüttern.
Grundsätzlich wird das
Vertrauen von Prozessparteien auf die Gültigkeit
der ständigen
Rechtsprechung als
schützenswert angesehen.
Eine Rechtsprechungsänderung wirkt deshalb vor
allem für zukünftige
Rechtsstreitigkeiten. Es
ist jedoch in der

In my view, therefore, the
passage of the Sachs decision quoted above is to
be interpreted at least to
the effect that the German Federal Court of
Justice, with regard to
expressly mentioned specific individual cases, is
announcing a limited
change in case law with
the aim of undermining,
through its remarks in
the Sachs ruling and in
keeping with rule-of-law
principles, the reliance of
any defendants on the
preclusive effect of the
time periods under specific restitution laws. In
principle, the reliance of
litigants on the validity
of established case law is
considered to be legitimate.13 Therefore, a
change in case law becomes effective foremost
to future litigation. However, it is widely accepted

App. 208
deutschsprachigen
Methodenlehre anerkannt,
dass das Vertrauen in eine
ständige Rechtsprechung
insbesondere durch obiter
dicta erschüttert werden
kann, mit denen eine
Rechtsprechungsänderung
,angekündigt‘ wird. Kommit ein entsprechender
Folgefall vor ein Gericht,
kann die bisherige
Rechtsprechung ganz oder
teilweise aufgegeben
werden. In der rechtsvergleichenden Literatur wird
ein solches Vorgehen der
angloamerikanisehen
Rechtsfigur des ,prospective overruling‘ an die
Seite gestellt. Hierbei geht
es darum, dass ein
Gericht, ohne das der
vorliegende Fall es notwendig mach vorab die
Grundsätze einer bisherigen ständigen
Rechtsprechung in Frage
stellt, urn sie in einem
kommenden einschlägigen
Fall dann aufzugeben.

in German legal methodology that reliance on established case law can be
undermined by ‘announcing’ a change in case law,
mostly in the form of
obiter dicta.14 As soon as
a similar case is brought
before the courts, all or
parts of prior decisions
can be overruled. In comparative law commentary, this approach is
compared to the AngloAmerican concept of ‘prospective overruling’.15
This concept allows a
court to question principles of prior case law in
order to overrule them in
a future similar case,
even though the case at
hand does not require it
to do so.

Unabhängig davon, ob
man das Urteil Sach als
eine Art ,prospective overruling‘ interpretieren

Regardless of whether
the Sachs decision is interpreted as some kind of
‘prospective overruling,’

App. 209
kann, ist die zitierte Passage de Sachs-Urteils
jedoch auch für sich genom
men ganz unmissverständlich. Der Bundesgerichtshof hat in
seltener Deutlichkeit aus
gesprochen, dass er nicht
die Hand dam reichen
wird, in den genannten besonderer Einzelfällen das
NS-Unrecht zu perpetuieren, da dies Sinn und
Zweck der Rückerstattungsbestimmungen widerspräche. Vor diesem
Hintergrund bietet der
vorliegende Fall für ein
etwa angerufenes
deutsches Gerich notwendig Anlass, um eingehend zu prüfen, ob hier ein
besonderer Einzelfall each
der. Kriterien vorliegt, welche der Bundesgerichtshof
in] Urteil Sachs aufgestellt
hat.

the passage of the ruling
quoted above is by itself
completely unambiguous.
The German Federal
Court of Justice articulated with rare clarity
that, with regard to the
mentioned specific individual cases, it will not
support any perpetuation
of Nazi injustice, because
this would run contrary
to the nature and purpose of specific restitution laws. In this context,
the present case would
prompt a German court
to thoroughly assess
whether this is one of the
specific cases that meet
the test established by
the Gentian Federal
Court of Justice in its
Sachs decision.

Die Kläger könnten sich
auf das Urteil Sachs auch
vor jedem deutschen
Gericht berufen. Dieser
Rechtsschutz vor jedeni
deutschen Gericht wird
lurch die alle Gerichte und
Behörden bindende

Plaintiffs could base
their claim on the Sachs
case before any German
court. This legal protection before any German
court is safeguarded by
the German Federal Constitutional Court’s

App. 210
Rechtsprechung des Bundesverfassungsgerichts
gewahrleistet (§ 31 Abs. 1
BVerfGG).

jurisdiction, which is
binding for all German
courts and authorities
(Sec. 31 para 1 of the Act
on the German Federal
Constitutional Court
[Bundesverfassun
gsgerichtsgesetz – BVerfGG]).

IV. Keine Prüfung der
Einrede der Verjährung durch die
Geriebte von Amts
wegen

IV. No Assessment of
the Defense of the
Statute of Limitations by German
Courts sua sponte

Auch die allgemeinen zivilrechtlichen Ansprüche
unterliegen freilich der
Einrede der Verjährung.
Es ist hier zu wiederholen
and zu betonen, dass die
Einrede der Verjährung
von deutschen Gerichten
nicht von Amts wegen
geprüft wird, sondem nur
geprüft werden darf, wenn
die von der Verjährung
begünstigte Prozesspartei
sich ausdrücklich darauf
beruft. Die von der Verjährung begünstigte
Prozesspartei kann auch
ausdrücklich auf die
Einrede der Verjährung
verzichten. Wird die

Of course, claims based
on general civil law are
subject to the defense of
the statute of limitations.
It should be reiterated
and emphasized that the
defense of the statute of
limitations will not be assessed by the German
courts sua sponte, but rather may only be assessed if the party
seeking to benefit from
the statute of limitations
explicitly invokes the defense. The party benefitting from the statute of
limitations may also expressly waive the defense
of the statute of

App. 211
Einrede der Verjährung
nicht erhoben bzw. auf
deren Erhebung verzichtet, prüft das Gericht
zwingend die
Voraussetzungen des materiell-rechtlichen Anspruchs ohne Rücksicht
auf die seit der Vermögensentziehung bzw. seit
deren Bekanntwerden verflossene Zeit.

limitations. In the event
that the defense of the
statute of limitations is
not raised or is waived, it
is mandatory for the
court to examine
whether the requirements of the substantive
claim have been met, regardless of the time that
has passed since the date
of the assets being seized
or, if applicable, the date
the plaintiff became
aware thereof.

VI.

VI.

Schuss

Nadi alledem halte ich an
meiner Auffassung fest,
dass die Kläger, legt man
ihren Vortrag zugrunde,
Rechtsschutz vor
deutschen Gerichten
finden können.

Conclusion

In light of the foregoing
and based on plaintiffs’
statements, I maintain
my opinion that plaintiffs are entitled to legal
protection before German courts.

/s/ Jan Thiessen
Prof. Dr. Jan Thiessen

1

As mentioned in my expert opinion dated 7 March 2016, pp.
5 et sqq., 12-3. 16 n. xv.

App. 212
2

On the following comprehensively Wolfgang Ernst, in: Harry
Dondorp et al. (eds.), Ius Romanum – Ius Commune – Ius
Hodiernum, Studies in honour of Eltjo J.H. Schrage on the
ocassion of his 65th birthday (2010), pp. 116 et sqq.

3

As mentioned in my expert opinion dated 7 March 2016, pp.
12-3, 16 n. xvi.

4

German Federal Court of Justice, judgment of 16 March
2012, file no. V ZR 279/10, published in: Neue Juristische
Wochenschrift 2012, p. 1796.

5

German Federal Court of Justice, judgment of 16 March
2012, file no, V ZR 279/10, published in: Neue Juristische
Wochenschrift 2012, p. 1796, at 1798, referring to German
Federal Court of Justice, decision of 28 February 1955, file
no. GSZ 4/54, published in: Entscheidungen des Bundesgerichtshofs in Zivilsachen 16 (1955), p. 350, at 357.

6

German Federal Court of Justice, judgement of 7 December
2012, file no. V ZR 180/11, published m: Neue Juristische
Wochenschrift 2013, p. 1236.

7

German Federal Court of Justice, judgment of 16 March
2012, flue no. V ZR 279110, published in: Neue juristische
Wochenschrift 2012, p. 1796, at 1798.

8

German Federal Constitutional Court, decision of 4 November.2009, file no. 1 BvR 2150/08, published in Neue Juristische Wochenschrift 2010, p.47.

9

Ulrich Ldiffler, Instru.mentalisierte Vergangenheit? Die nationalsozialistische Vergangenheit als Argumentationsfigur
m der Rechtsprechung des l3undesverfassungsgerichts
(2004), pp. 132 et sqq.

10

In particular Wolfgang Ernst, in: Juristenzeitung 2013, p.
359, at 361; Thomas Finkenauer,Juristenzeitung 2014, p. p.
479, at 480; Johannes Wasmuth, Zeitschrift für offene Vermögensfragen, Rehabllitierungs- and sonstiges Wiedergutmachungsrecht 2014, p. 139, at 140 at sqq.

11

For example Johannes Wasmuth, in: Neue Juristische
Wochenschrift 2014, p. 747, at 750.

App. 213
12

German Federal Court of Justice, judgment of 16 March
2012, file no. V ZR 279/10, published in: Neue Juristische
Wochenschrift 2012, p. 1796, at 1798.

13

Most recently Getman Federal Court of Justice, judgment of
17 April 2012, file no. II ZR 95/10, published in Neue
Zeitschrift fur Gesellschaftsrecht 2012, p. 701, at 703, with
further references to previous case law.

14

Comprehensively on that Ulrich Keil, Die Systematik
privatrechtlicher Reehtsprechungsänderungen (2007), pp.
80 at sqq. with further reference.

15

Cf. Keil (supra n. 14), pp. 83-4.

App. 214
[LOGO]
Urkundenrolle UR IV 157 / 2016

UZ IV 171 /
2916

Notarielle Beglaubigung
Vorstehende, vor mir vollzogene Unterschrift von
Herrn Prof. Dr. Jan Peter Thiessen,
geboren am 25.04.1969,
wohnhaft in 72070 Tübingen, Pfalzhaldenweg 22,
- ausgewiesen durch Personalausweis beglaubige ich hiermit öffentlich.
Tübingen, den 07.06.2016
Notarin
/s/ [Illegible]
(Junk)
[SEAL]

